No. 20In the

Supreme Court of the United States
CMT Hospital HIMA San Pablo Caguas,
Petitioner,
v.
Jose Suero-Algarin,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI
Orlando H. Martínez Echeverría
Orlando H. Martínez Echeverría
Law Office LLC
Centro de Seguros, Suite 413
701 Ponce de León Avenue
San Juan, PR 00907
(787) 722-2378

Heidi L. Rodríguez Benitez
Counsel of Record
Cmt Hima San Pablo Caguas
P.O. Box 4980
Caguas, PR 00726-4980
(787) 653-1796
heidirodriguez@himapr.com

Roberto Ruiz Comas
RC Legal & Litigation
Services, P.S.C.
Doral Bank Plaza, Suite 801
Calle Resolución #33
San Juan, Puerto Rico 00920
(787)777-8000
Counsel for Petitioner
298556

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
A group of siblings, represented by the same counsel,
filed suit for the death of their father due to alleged
medical malpractice. One of the siblings filed in federal
court, while the other siblings, residents of Puerto
Rico, filed in state court, so as to not defeat diversity of
jurisdiction, all parties represented by the same Puerto
Rico-based legal counsel. A jury in the federal diversity
action awarded respondent an amount that is nearly
twenty times the maximum amount that he could have
received in a Puerto Rico court. The district court agreed
the award was excessive but refused to apply Puerto Rico’s
strict excessiveness standard which requires review by
comparison to damages granted in similar cases by the
Puerto Rico Supreme Court. Using the federal standard
of review and by comparison to cases from courts other
than the Puerto Rico Supreme Court, the district court
remitted the award to an amount that is still tenfold that
which would be tolerated by the Puerto Rico Supreme
Court. The First Circuit affirmed on the ground that the
Puerto Rico standard did not “depart[] from the ordinary
practice of reviewing awards under the federal standards
for judging excessiveness.”
The following questions are presented:
1.

Whether the decision below contravenes Erie
Railroad v. Tompkins by granting respondent
a recovery that is ten times larger than the
recovery respondent could have obtained in
Puerto Rico courts (and would be allowed to
respondent’s siblings in a parallel state court
action).

ii
2.

W hether, under Gasper ini v. Center for
Humanities, Inc., federal courts sitting in
diversity must apply state law excessiveness
standards (as the Second, Fourth, Fifth, Seventh,
Eighth, Tenth and Eleventh Circuits have held),
or the federal excessiveness standard (as the
First, Sixth, and Ninth Circuits have held).

iii
PARTIES TO THE PROCEEDINGS, RELATED
CASES AND RULE 29.6 STATEMENT
The parties to the proceedings in the United States
Court of Appeals for the First Circuit were Petitioner
Centro Médico del Turabo, Inc., doing business as, HIMA
San Pablo Caguas and Respondent Jose Suero-Algarin.
The proceedings in state and federal trial and
appellate courts that are directly related to this case are
the following:
Suero-Algarin v. San Pablo Caguas, No. 14-cv01508-SCC, U.S. District Court for the District
of Puerto Rico, Judgment Entered Apr. 18, 2017.
Suero-Algarin v. CMT Hosp. HIMA San Pablo
Caguas, No. 17-1851, U. S. Court of Appeals
for the First Circuit. Judgment entered Apr.
20, 2020.
Oscar D. Suero Algarin, et al. v Hospital
HIMA Caguas, Civil No. EDP2014-0185-703,
Puerto Rico Court Of First Instance Caguas
Part, Pending.
Pursuant to this Court’s Rule 29.6, undersigned
counsel state that Centro Medico Del Turabo, Inc., also
known as Hospital HIMA San Pablo Caguas, is a wholly
owned subsidiary of Grupo HIMA San Pablo, Inc. There
is no publicly held company owning 10% or more of the
common stock of Grupo HIMA San Pablo, Inc. There
are two classes of preferred stock of Grupo HIMA San
Pablo, Inc., a 1998 preferred stock and a 2007 preferred

iv
stock. No publicly held company owns 10% or more of
the 1998 preferred stock. The 2007 preferred stock has a
registrar and transfer agent and a portion of such shares
are registered in the name of broker dealers. Grupo HIMA
San Pablo, Inc. has not been notified that any shares of
2007 preferred stock are owned by a publicly traded
company.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PAR T IES T O T H E PRO C EE D I N GS ,
R EL AT ED CA SE S A N D RU LE 2 9. 6
	STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A.	Legal Background . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Factual and Procedural Background  . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 8
I.

The First Circuit’s Decision Conf licts
With Erie Because It Upholds A Larger
Damage Award Than Would Have Been
	Permitted In Puerto Rico Court  . . . . . . . . . . . . . 9

vi
Table of Contents
Page
II. The Decision Below Reflects The Circuits’
	Profound Confusion Over Gasperini . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals for the
	first circuit, filed april 20, 2020 . . . . . . 1a
A ppendi x b — omnibus order of
the u nit ed stat es cou rt for
th e di s t rict of pu ert o ric o,
	filed july 6, 2017 . . . . . . . . . . . . . . . . . . . . . . . . 29a
APPE N D IX C — OR D ER O F T H E
U N I T E D S T A T ES C OUR T O F
APPEALS FOR THE FIRST CIRCUIT,
DATED MAY 19, 2020 . . . . . . . . . . . . . . . . . . . . . . . 40a
APPENDIX D — OPINION OF THE PUERTO
RICO SUPREME COURT, Sa ntiago
Montañez v. Fresenius Medical
Care, DATED MAY 6, 2016, TRANSLATED
AUGUST 8, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42a
APPENDIX E — OPINION OF THE PUERTO
RICO SUPREME COURT, Herrera
Rivera v. S.L.G. Ramírez-Vicéns,
DATED AUGUST 25, 2010, TRANSLATED
AUGUST 8, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Am. Trim, L.L.C. v. Oracle Corp.,
383 F.3d 462 (6th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 33
Armstrong v. Shirvell,
596 Fed. Appx. 433 (6th Cir. 2005) . . . . . . . . . . . . . . 33
Arpin v. United States,
521 F.3d 769 (7th Cir. 2008) . . . . . . . . . . . . . . . . . 18, 19
Blas Toledo v. Hospital Nuestra Senora
de la Guadalupe,
146 P.R. Dec. 267 (1998) . . . . . . . . . . . . . . . . . . . . 13, 14
Century 21 Real Estate Corp. v.
Meraj International Investment Corp.,
315 F.3d 1271 (10th Cir. 2003) . . . . . . . . . . . . . . 28, 29
Dagnello v. Long Island R. Co.
289 F.2d 797 (2d Cir. 1961) . . . . . . . . . . . . . . . . . . . . . 22
Dodoo v. Seagate Tech., Inc.,
235 F.3d 522 (10th Cir. 2000) . . . . . . . . . . . . . . . . . . . 28
Erie Railroad v. Tompkins,
304 U.S. 64 (1938) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Ferens v. John Deere Co.,
494 U.S. 516 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 8

ix
Cited Authorities
Page
Gasperini v. Center for Humanities, Inc.,
518 U.S. 415 (1996)  . . . . . . . . . . . . . . . . 2, 3, 6, 9, 11, 12,
20, 21, 27, 28
Guar. Trust Co. v. York,
326 U.S. 99 (1945)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Hanna v. Plumer,
380 U.S. 460 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Herrera Rivera v. S.L.G. Ramírez-Vicéns,
179 DPR 774 (2010) . . . . . . . . . . . . . . .  16, 17, 19, 22, 32
Holmberg v. Armbrecht,
327 U.S. 392 (1946)  . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Kaiser v. Johnson & Johnson,
947 F.3d 996 (7th Cir. 2020) . . . . . . . . . . . . . . . . . 25, 26
Klaxon Co. v. Stentor Elec. Mfg. Co.,
313 U.S. 487 (1941)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Lebron v. United States,
279 F.3d 321 (5th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 30
Legacy Data Access, Inc. v.
Cadrillion, Ltd. Liab. Co.,
889 F.3d 158 (4th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 24
Longoria v. Hunter Express, Ltd.,
932 F.3d 360 (5th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 29

x
Cited Authorities
Page
Marcano Rivera v. Turabo Medical Center,
415 F.3d 162 (1st Cir. 2005)  . . . . . . . . . . . . . . . 8, 31, 32
McRae v. St. Michael’s Med Ctr.,
794 A.2d 219 (NJ. Super. Ct. App. Div. 2002)  . . . . . 28
Morse v. S. Union Co.,
174 F.3d 917 (8th Cir. 1999) . . . . . . . . . . . . . . . . . . . . .28
Munn v. Hotchkiss Sch.,
795 F.3d 324 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 24
Myers v. Cent. Fla. Invs., Inc.,
592 F.3d 1201 (11th Cir. 2010)  . . . . . . . . . . . . . . . . . . 24
Nieves-Cruz v. Universidad de Puerto Rico,
151 P.R. Dec. 150 (2000) . . . . . . . . . . . . . . . . . . . . 13, 15
Perez Cruz v. Hospital la Concepción,
15 P.R. Offic. Trans. 952, 115 D.P.R. 721 (1984)  . . . 20
Prager v. Campbell Cty. Mem’l Hosp.,
731 F.3d 1046 (10th Cir. 2013)  . . . . . . . . . . . . . . . . . . 29
Ragan v. Merchs. Transfer & Warehouse Co.,
337 U.S. 530 (1949)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Rainey v. Taylor,
941 F.3d 243 (7th Cir. 2019) . . . . . . . . . . . . . . . . . 25, 26

xi
Cited Authorities
Page
Riley v. Rodriguez de Pacheco,
119 P.R. Dec. 762 . . . . . . . . . . . . . . . . . . . . . . . . 8, 13, 15
Roses v. Juliá,
67 P.R.R. 485, 67 D.P.R. 518 (1947) . . . . . . . . . . . . . . 20
Rustenhaven v. American Airlines, Inc.,
320 F.3d 802 (8th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 27
Santiago Montañez v. Fresenius Medical Care,
2016 TSPR No. 76, 195 P.R. Dec. 476 . . . . . . . 7, 16, 17,
18, 20, 32
Sun Oil Co. v. Wortman,
486 U.S. 717 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Van Dusen v. Barrack,
376 U.S. 612 (1964) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Yeti by Molly Ltd. v. Deckers Outdoor Corp.,
259 F.3d 1101 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . . 33
Statutes
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1332  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
28 U.S.C. § 1652  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
N.Y.C.P.L.R. § 5501(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . 11

xii
Cited Authorities
Page
Rules
Fed. R. Civ. P. 50(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Fed. R. Civ. P. 59(a), . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
PETITION FOR A WRIT OF CERTIORARI
______________________
Petitioner CMT HIMA San Pablo Caguas (“HIMA”)
respectfully submits this petition for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the First Circuit.
OPINIONS BELOW
The opinion of the court of appeals is reported at 957
F.3d 30. App., infra, at 1a. The order denying HIMA’s
petition for panel rehearing or rehearing en banc is
unreported. Id. at 40a. The opinion of the United States
District Court for the District of Puerto Rico denying
HIMA’s Motion for remittitur is unreported. Id. at 29a.
JURISDICTION
The district court had jurisdiction over respondent’s
claims pursuant to 28 U.S.C. § 1332(a)(1). The court of
appeals had jurisdiction to review the final judgment of
the district court pursuant to 28 U.S.C. § 1291. The court
of appeals filed its opinion on April 20, 2020. App., infra,
at la. It denied HIMA’s timely petition for rehearing or
rehearing en banc on May 19, 2020. Id. at 40a.
Pursuant to the Order entered by this Court on
March 19, 2020 in light of the public health crisis caused
by COVID-19, the term to file this petition for writ of
certiorari was extended until October 16, 2020.

2
STATUTORY PROVISIONS INVOLVED
The Rules of Decisions Act, 28 U.S.C. § 1652, provides:
§ 1652. State laws as rules of decision
The laws of the several states, except where the
Constitution or treaties of the United States or Acts
of Congress otherwise require or provide, shall be
regarded as rules of decision in civil actions in the courts
of the United States, in cases where they apply.
STATEMENT
A. Legal Background
This Court’s decision in Erie Railroad v. Tompkins,
304 U.S. 64 (1938), established that federal courts sitting
in diversity must apply state substantive law and federal
procedural rules. Id. at 78; see also 28 U.S.C. § 1652 (“The
laws of the several states ... shall be regarded as rules of
decision in civil actions in the courts of the United States,
in cases where they apply.”).1 In Gasperini v. Center for
Humanities, Inc., 518 U.S. 415 (1996), this Court held
that federal courts sitting in diversity must apply state
substantive standards when reviewing damages awards
because “Erie precludes a recovery in Federal Court
significantly larger than the recovery that would have
1. The Commonwealth of Puerto Rico is considered a “State”
for purposes of diversity jurisdiction. See 28 U.S.C. § 1332(e) (“The
word ‘States’, as used in this section, includes ... the Commonwealth
of Puerto Rico”). The Erie doctrine therefore applies to diversity
actions in which federal courts decide claims arising under Puerto
Rico law.

3
been tolerated in state court”. Id. at 431. (emphasis
added).
The court of appeals for the First Circuit and the
district courts in Puerto Rico refuse to apply Puerto
Rico’s strict excessiveness standard which, much like the
New York law at issue in Gasperini, requires review by
comparison to damages granted in similar cases by the
state’s highest court. In the First Circuit’s view, federal
courts in Puerto Rico should continue to apply the federal
excessiveness standard, without regards to the directives
of the Puerto Rico Supreme Court, because despite the
Puerto Rico Supreme Court’s mandate to compare to
previous cases of said court, the “exaggeratedly high”
standard articulated by the Puerto Rico Supreme Court
“echoes” the federal standard and, in the First Circuit’s
view, is not “so much more rigorous that it departs from
the federal ‘grossly excessive’ standard.” App., infra, at
21a and 27a.
The First Circuit’s chosen course results in the
grave anomaly that by “the accident of diversity of
citizenship” a plaintiff in federal court in Puerto Rico,
like respondent in this case, receives tenfold that which
his siblings may receive in a parallel case in a state
court just a few blocks away.
This Court’s decision in Gasperini v. Center for
Humanities, Inc., 518 U.S. 415 (1996), has generated
significant confusion among lower courts. Some circuits,
like the Second, Fourth, Fifth, Seventh, Eighth, Tenth
and Eleventh, interpret Gasperini as requiring the
application of state excessive damages standards in all
diversity cases; while the First, Sixth, and Ninth circuits,

4
continue to apply the federal “grossly excessive” or “shock
the conscience” standard. This case presents the Court
with the opportunity to clarify Gasperini’s holding and
to vindicate Erie’s fundamental purpose of ensuring that,
in diversity actions, “the outcome of the litigation in the
federal court [is] substantially the same . . . as it would be
if tried in a State court.” Ferens v. John Deere Co., 494
U.S. 516, 524 (1990) (internal quotation marks omitted).
B. Factual and Procedural Background
Oscar Suero-Durán (“Suero-Durán”) died from
complications relating to the removal of his dialysis
catheter at Hospital HIMA San Pablo Caguas’s facility.
App., infra, at 2a. Respondent José Suero-Algarín is
one of several sons of the deceased Suero-Duran. 2 He
is a resident of Chicago, Illinois, while his siblings are
residents of Puerto Rico. 3
All of Suero-Durán’s sons filed suit against HIMA
and the doctors that attended to Suero-Durán at HIMA,
claiming, among others, damages for the pain and
suffering they endured as a result of their father’s death.
Respondent José Suero-Algarín filed his complaint on
June 26, 2014 in the U.S. District Court for the District
of Puerto Rico predicated on diversity jurisdiction, App.,
infra, at 7a, while his siblings filed suit in Puerto Rico
2. See Case 3:14-cv-01508-SCC, Document 137 Filed 1/31/17
Order Dismissing Survivorship claim, at 1 note 1; see also
Document 93 Filed 11/20/16, Motion to Dismiss Survivorship claim
and 93-1, state court complaint Oscar D. Suero Algarin, et al. v
Hospital HIMA Caguas Civil No. EDP2014-0185-703.
3. Id.

5
state court, case Oscar D. Suero Algarin, et al. v Hospital
HIMA Caguas Civil No. EDP2014-0185-703.4
After an eight-day jury trial, the jury returned
a verdict in favor of Respondent Jose Suero-Algarín,
awarding him $1,000,000 for his pain and suffering; and
attributing HIMA 10% responsibility for his damages.
App., infra, at 2a-3a. As described by the First Circuit, the
trial was a “classic battle of the experts”. App., infra, at 7a.
On one side, Respondent’s expert, Dr. David C. Dreyfuss
(“Dr. Dreyfuss”), opining that Suero-Duran’s death was
caused by defendant’s failure to place Suero-Durán in
the Trendelenburg position when removing the catheter,
causing him to suffer an air embolism, which led to
cardiorespiratory arrest, brain damage, and his eventual
death. Dr. Dreyfus also posited that defendants delayed
providing CPR. On the other side, defendants’ experts, Dr.
Samuel A. Amill-Acosta and Dr. Luis A. López-Galarza,
explaining that Dr. Roca correctly placed Suero-Durán in
an upright position to remove the catheter in light of his
morbid obesity. In their view, Suero-Durán died because
of a sudden cardiac arrhythmia resulting from his delicate
medical condition rather than an air embolism. They also
maintained that the hospital staff called a code green and
performed CPR in a timely manner. Id. at 8a. It was indeed
a battle between liability experts.
However, no evidence, expert or otherwise, besides
Respondent’s self-serving testimony, was presented to
substantiates his claim for damages. App., infra, at 37a
(“The evidence of Mr. Suero-Algarin’s damages rested
solely on his own testimony.”) In fact, the evidence of
4. See note 2, supra.

6
Respondent’s damages was scant. As summarized by the
district court,
In this case, plaintiff did not reside in Puerto
Rico. He had lived in Chicago for 8 years and had
not visited once. Plaintiff’s first time in Puerto
Rico after he moved to Chicago was to spread
his dad’s ashes. Plaintiff testified that he spoke
to his father daily; nevertheless, his father was
comatose for three months after the removal
of the catheter. Plaintiff failed to explain
why he did not inquire regarding his father
unavailability to speak on the phone. There was
testimony that the family kept information from
plaintiff because of his emotional condition.
However, it does not follow that a caring son,
did nothing to inquire further or got on a plane
to ascertain his father’s condition. In fact, he
did not learn about his father’s passing until a
week later and it was one of his sister’s in law
who told him.
App., infra, at 38.
Following the verdict, HIMA moved for judgment as
a matter of law under Fed. R. Civ. P. 50(b) and for a new
trial under Fed. R. Civ. P. 59(a)(1), or in the alternative,
a remittitur of the jury’s damages award. Case 3:14-cv01508-SCC Document 190 Filed 05/15/17. In the motion
for a new trial or remittitur, HIMA argued that because
Respondents’ suit was a diversity action governed by
Puerto Rico law, this Court’s decision in Gasperini,
518 U.S. 415, required the district court to evaluate the
excessiveness of the damages award under the standard
established by the Puerto Rico Supreme Court in a line

7
of cases, the most recent of which is Santiago Montañez
v. Fresenius Medical Care, 2016 TSPR No. 76, 195 P.R.
Dec. 476 (hereinafter, “Fresenius”) (Translation included
App., infra, at 42a), that requires a comparative analysis
of damages awarded in similar cases by the Puerto Rico
Supreme Court.
The district court ruled on HIMA’s motions for postjudgment relief in an Omnibus Order. App., infra, 29a.
It denied HIMA’s motions for judgment as a matter of
law and new trial. Id. at 30a - 34a. As to HIMA’s motion
for remittitur, the district court rejected the argument
that excessiveness should be determined by reference
to Puerto Rico law. Id. at 35a - 36a. But still determined
that the award was excessive. Id. at 37a - 38a. Relying
upon First Circuit decisions that refused to apply Puerto
Rico’s excessive damages standard in diversity actions
and that instead utilized the federal standard, the district
court determined that the award was “grossly excessive,
inordinate, shocking to the conscience” Id. at 36a - 37a.
Based on the evidence presented at trial and comparison
to federal cases from the First Circuit, the court remitted
the award to $400,000, an amount that is still tenfold that
which would be tolerated by the Puerto Rico Supreme
Court. Id. at 38a.
HIMA appealed to the United States Court of Appeals
for the First Circuit, which affirmed the district court’s
denial of HIMA’s request for judgment as a matter of law
or a new trial. App., infra, at 4a. The court of appeals also
affirmed the denial of HIMA’s motion for remittitur on
the ground that the Puerto Rico standard “still does not
depart from the federal ‘grossly excessive’ standard” Id.
at 27a-28a. According to the First Circuit, “Puerto Rico’s

8
‘exaggeratedly high’ standard echoes the federal ‘grossly
excessive’ standard,” as evidenced by the fact that it “has
been expressed in terms similar to the federal standard.”
App., infra, at 20a (citing Marcano Rivera v. Turabo
Medical Center, 415 F.3rd 162, 167 (1st Cir. 2005)). In light
of the facial similarity between the terms “exaggeratedly
high” and “grossly excessive,” the court concluded that
federal courts in Puerto Rico should continue to apply
the federal excessiveness standard, without regards
to the directives of the Puerto Rico Supreme Court,
because despite the Puerto Rico Supreme Court’s
mandate to compare to previous cases of said court, the
“exaggeratedly high” standard articulated by the Puerto
Rico Supreme Court is not “so much more rigorous that
it departs from the federal ‘grossly excessive’ standard.”
App., infra, at 27a.
REASONS FOR GRANTING THE PETITION
This Court’s review is necessary because the
First Circuit’s refusal to apply Puerto Rico’s excessive
damages standard in this diversity action impedes Erie’s
fundamental objective of ensuring a substantial uniformity
of outcome between state law claims decided in federal
and state court. See Ferens, 494 U.S. at 524. To maintain
consistency among the size of medical malpractice awards,
the Puerto Rico Supreme Court regularly remits awards
to conform to the benchmark established in cases starting
with Riley v. Rodriguez de Pacheco, l19 P.R. Dec. 762.
Because the First Circuit applied the federal excessive
damages standard, it failed to compare the award against
HIMA to Puerto Rico Supreme Court cases and therefore
upheld a verdict that is significantly larger than the one
respondent could have obtained if he had pursued the suit

9
in Puerto Rico court, and what respondent’s siblings may
ultimately get in their parallel state court case.
Certiorari is also warranted because, in Gasperini’s
wake, a split has developed among the courts of appeals
concerning the applicability of state excessive damages
standards in diversity actions. The Second, Fourth, Fifth,
Seventh, Eighth, Tenth and Eleventh circuits construe
Gasperini as requiring federal courts sitting in diversity
to apply state excessive damages standards in all cases,
including where the state and federal standards are
worded identically; while the First, Sixth, and Ninth
circuits continue to apply the federal standard. This
case affords the Court the opportunity to resolve this
substantial confusion among the lower courts.
I.

The First Circuit’s Decision Conflicts With Erie
Because It Upholds A Larger Damage Award Than
Would Have Been Permitted In Puerto Rico Court.

In Gasperini, this Court declared unequivocally that
“Erie precludes a recovery in federal court significantly
larger than the recovery that would have been tolerated
in state court.” 518 U.S. at 431. If respondent had pursued
the suit that he filed in the Puerto Rico Court of first
instance rather than in federal court, the Puerto Rico
trial and appellate courts would have been required to
compare the size of the award for Respondent to damage
awards in other similar cases by the Puerto Rico Supreme
Court. That comparison would have yielded a substantial
reduction in the verdict to amounts similar to the ones
approved by the Puerto Rico Supreme Court because the
award in this case exceeds by almost twenty times the
amount of awards upheld in similar cases by the Puerto
Rico Supreme Court. The district court and First Circuit

10
instead evaluated the award under the federal standard
and remitted to an amount that is still ten times larger
than what would be tolerated by the Puerto Rico Supreme
Court. This Court’s review is therefore necessary to
vindicate Erie’s fundamental purpose of ensuring that
state and federal courts adjudicating state law claims
reach consistent results.
1. The Erie doctrine rests upon the “twin aims” of
discouraging forum shopping between state and federal
courts, and preventing the inequitable administration of
state laws to the detriment of forum state residents. Hanna
v. Plumer, 380 U.S. 460, 468 (1965); see also Klaxon Co.
v. Stentor Elec. Mfg. Co., 313 U.S. 487, 496 (1941) (“the
accident of diversity of citizenship [must not] disturb
equal administration of justice in coordinate state and
federal courts sitting side by side”). Underpinning Erie
is the recognition that the “rights enjoyed under local law
should not vary because enforcement of those rights was
sought in the federal court rather than in the state court.
. . . Otherwise, those authorized to invoke the diversity
jurisdiction would gain advantages over those confined to
state courts.” Ragan v. Merchs. Transfer & Warehouse
Co., 337 U.S. 530, 532 (1949). If state and federal courts
applied different substantive law to adjudicate state
created rights, out-of-state litigants might be encouraged
to select federal court to secure the application of more
advantageous law, thereby denying in-state defendants
the benefit of their own state law.
To effectuate Erie’s twin aims, a federal court
sitting in diversity must therefore “approximate as
closely as may be State law in order to vindicate
without discrimination a right derived solely from a

11
State.” Holmberg v. Armbrecht, 327 U.S. 392,395 (1946).
Indeed, “a federal court adjudicating a State-created
right solely because of the diversity of citizenship of the
parties is for that purpose, in effect, only another court
of the State.” Guar. Trust Co. v. York, 326 U.S. 99, 108
(1945). The faithful application of state substantive law
enables the federal court to replicate the result that
would have been obtained if the case had been brought
in state court. See Van Dusen v. Barrack, 376 U.S. 612,
638-39 (1964) (“What Erie and the cases following it
have sought was an identity or uniformity between
federal and state courts.”)
In Gasperini, this Court considered whether Erie
required a federal court sitting in diversity to apply a
New York statute that required state trial and appellate
courts to order remittitur where the jury’s award
“deviates materially from what would be reasonable
compensation.” N.Y.C.P.L.R. § 5501(c). New York state
court opinions interpreted the “deviates materially”
standard as requiring more stringent scrutiny of
damage awards than the “shocks the conscience” test
applied by the Second Circuit in federal question cases.
Gasperini, 518 U.S. at 425. The Gasperini Court’s
analysis was guided by Erie’s ‘’twin aims,” and the
Court accordingly inquired whether “application of the
[state] standard [would] have so important an effect
upon the fortunes of one or both of the litigants that
failure to apply it would unfairly discriminate against
citizens of the forum state, or be likely to cause a
plaintiff to choose the federal court”. Gasperini, 518
U.S at 428 (internal quotation marks and alterations
omitted).

12
The Gasperini Court resolved this question by
acknowledging that a state law statutory cap on damages
would be substantive for Erie purposes, and by then
determining that the only difference between the New
York statute and a statutory cap was that the New York
statute established the maximum recovery through a
comparison with similar cases rather than by imposing a
firm ceiling. Gasperini, 518 U.S. at 429 (“the maximum
amount recoverable is not set forth by statute, but
rather is determined by case law”) (internal quotation
marks omitted). The Court therefore concluded that the
New York statute was substantive and must be applied
in diversity actions because application of the more
permissive federal excessive damages standard would
have resulted in “substantial variations between state and
federal money judgments.” Id. at 430 (internal quotation
marks and alterations omitted). These variations would
have encouraged plaintiff to file in federal courts and to
avoid state courts precisely the type of forum shopping
that Erie seeks to prevent. Similarly, when undertaken
by out-of-state plaintiff, such forum shopping would have
deprived in-state defendants of the protection of New
York’s excessive damages statute. Application of the New
York standard was therefore required to effectuate Erie’s
objectives and to “preclude[] a recovery in federal court
significantly larger than the recovery that would have
been tolerated in state court.” Id. at 431.
The standard set by the Puerto Rico Supreme
Court requiring strict review of damages awards by
comparison to prior Puerto Rico Supreme Court cases
is the equivalent of the New York statute at issue in
Gasprini, and practically indistinguishable from it in the
sense that the maximum amount recoverable is not set

13
forth by statute, but rather is determined by case law.
Both, the New York statute and the Puerto Rico Supreme
Court opinions articulate the same types of concerns
addressed by this Court in upholding the validity of the
New York substantive standard in Gasperini, i.e. (1) an
objective that is manifestly substantive; (2) a requirement
of the more rigorous comparative evaluations than the
federal shock the conscience test; (3) the intent to provide
consistency and are designed to provide an analogous
control to a cap on damages; and (4) Erie’s “twin aims”
-- “discouragement of forum-shopping and avoidance of
inequitable administration of the laws.”
As matter of fact, the language used by the Puerto
Rico Supreme Court in the cases that set forth the
appropriate standard for review of damages, echoes all
of the above. The firmly established policy of Puerto Rico
law to promote consistency among compensatory damages
awards, particularly in medical malpractice cases, comes
from a long line of cases that can be traced back to Riley
v. Rodriguez de Pacheco, 119 P.R. Dec. 762 (1987), Blas
Toledo v. Hospital Nuestra Senora de la Guadalupe, 146
P.R. Dec. 267 (1998) and Nieves-Cruz v. Universidad de
Puerto Rico, 151 P.R. Dec. 150 (2000).
In Riley, the plaintiff sued on behalf of herself and
her minor child alleging that the defendants’ medical
malpractice had resulted in her child being deprived
of oxygen during birth. The asphyxiation caused the
child permanent neurological harm, which manifested
itself in difficulty walking and diminished intellectual
capacity. See Official Translation included at Case: 17-1851
Document: 00117471483 Filed: 08/01/2019 at 112. The trial
court awarded the child $500,000 for bodily injuries and

14
$300,000 for past and future mental suffering. Id. at 114.
The Puerto Rico Supreme Court remitted the award. Id. at
148. In so doing, it expressed significant concern about the
difficulty of quantifying damages for mental and physical
suffering. The court emphasized that “human sorrow and
physical pain are not similar or financially assessable” and
that “[w]ithout reasonable limits, compensation would no
longer bear the characteristics of a redress, but would
rather become punitive.” Id. at 149. Such limits were
necessary, the court continued, not only because of the
inherently speculative nature of establishing damage
awards, but also to ensure that “compensation for
damages does not become a lucrative forensic industry
where doctors and patients are the raw materials.” Id. at
150 (footnote omitted); see also id. at 149(“when passing
on medical malpractice cases, ... we remember that the
healing hand does not reach the degree of social offense
of the injuring hand”) (internal quotation marks and
footnote omitted). The Puerto Rico Supreme Court thus
established a “reasonable limit” for medical malpractice
awards by deeming the $800,000 verdict “exaggerated”
and reducing it to $400,000. Id. at 151.
In Blas Toledo v. Hospital Nuestra Senora de la
Guadalupe, 146 P.R. Dec. 267(Official Translation included
at Case: 17-1851 Document: 00117471483 Filed: 08/01/2019
at 4, the plaintiff filed a medical malpractice action after
her nearly three-year-old daughter was left in a persistent
vegetative state--unable to see, hear, or move-as a result
of the deprivation of oxygen to her brain during a surgery.
The Puerto Rico Supreme Court relied upon Riley to
reduce the child’s mental and physical damage award
from $500,000 to $250,000. Id. at 44. It also reduced
the damages for the mother’s emotional suffering from

15
$800,000 to $400,000. See id. at 44-45 (“it is our opinion
that the $800,000 compensation awarded for such items
by the trial court is ‘exaggeratedly high,’ especially in
light of the decision in Riley v. Rodriguez de Pacheco”)
(emphasis ours).
Later on, the Puerto Rico Supreme Court also relied
upon Riley to reduce the damages awarded in Nieves-Cruz
v. Universidad de Puerto Rico, 151 P.R. Dec. 150(Official
Translation included at Case: 17-1851 Document:
00117471483 Filed: 08/01/2019 at 54). In Nieves-Cruz, the
plaintiff alleged that hospital staff caring for her during
labor improperly administered a combination of drugs
that should not have been used together and that these
drugs impaired the fetus’s respiratory function, resulting
in a lack of oxygen to the brain. The deprivation of oxygen
caused the child to develop permanent physical and mental
disabilities. He was completely dependent on others for
all of his daily tasks, including feeding, cleanliness, and
dressing. The trial court awarded the child $750,000 for
physical pain, $325,000 for impairment of income, and
$2.9 million for costs of care (a total of 3.975 million). Id.
at 58. The Puerto Rico Supreme Court reduced each of
the awards because they were “substantially higher than
what we have granted in cases similar to this case.” Id.
at 82. In so doing, the court explicitly relied upon the
award in Riley as the benchmark. See id. at 82-83 (“In
the instant case, pursuant to the decision in Riley v.
Rodriguez de Pacheco, the $750,000 item for physical
damages granted by the lower court should be reduced.
Following the parameters of the precedent mentioned, we
deem reasonable the sum of $375,000.”) (citation omitted).
More recently, the Puerto Rico Supreme Court issued
two decisions in which it further developed and explained

16
its articulated standard of “exaggeratedly high”, making
clear that in reviewing damages awards the courts are
required to review and compare prior similar cases of
that court and further admonishing the lower courts that
fail to do so. Herrera Rivera v. S.L.G. Ramírez-Vicéns,
179 DPR 774 (2010) and Santiago Montañez v. Fresenius
Med. Care, 195 D.P.R. 476 (2016) (Translations included
App., infra, at 81a and 42a),
In Herrera Rivera, the Puerto Rico Supreme Court
explained that “reviewing courts,[]should intervene in
the damages awarded only when, taking into account
damages awarded in prior similar cases adjusted
forward to the time of the judgment, and in the light of the
particular circumstances of the case being considered by
the Court, the amount awarded manifestly deviates from
what would be reasonable damages by being ridiculously
low or exaggeratedly high’.” Herrera Rivera, 179 DPR at
787 (App., infra., at 95a)(emphasis added). As the Puerto
Rico Supreme Court explained, the analysis starts with
the prior decisions of said court which are deemed to be
prima facie reasonable. Id. at 791 (App., infra., at 101a)
(“we consider that damages that match the ones that we
awarded previously in similar cases show prima facie
reasonability and will not be altered, except when the
particular circumstances of the case under the Court’s
consideration so require”). If the awards, adjusted forward
to the time of the judgment, manifestly deviate from
that prima facie reasonability (determined in view of the
cases that “we [the Puerto Rico Supreme Court] awarded
previously in similar cases”), then the awards need to be
adjusted. Herrera Rivera at 787, 791(App., infra., at 95a,
101a).

17
Much like the New York statute in Gasperini, which
prescribes “that an award is excessive or inadequate if
it deviates materially from what would be reasonable
compensation”, the Puerto Rico Supreme Court’s
formulation in Herrera Rivera of what is “‘ridiculously
low or exaggeratedly high” prescribes that a reviewing
court should inter vene when the amount granted
“manifestly deviates” from what the Puerto Rico Supreme
Court awarded previously in similar cases. In pertinent
part the Puerto Rico Supreme Court explained:
As reviewing courts, we should intervene in
the damages awarded only when, taking into
account damages awarded in prior similar cases
adjusted forward to the time of the judgment,
and in the light of the particular circumstances
of the case being considered by the Court, the
amount awarded manifestly deviates from
what would be reasonable damages by being
“ridiculously low or exaggeratedly high.”
Herrera Rivera, 179 DPR at 787. (App., infra., at 95a)
(emphasis added)
In Fresenius the Puerto Rico Supreme Court was even
more adamant and started by admonishing trial judges
in Puerto Rico for not following the Court’s precedent
requiring lower courts to explain what cases are used as
a reference and how the amounts granted in those prior
cases are adjusted to the case before the court:
... we are compelled to warn the judges about
the importance of detailing in their decisions
the cases that are used as reference or starting

18
point for the estimation and assessment of
damages and the computation done to establish
the amounts granted. This call to the judges
becomes important in view of the prevailing
need to instruct the parties and members of the
legal profession about the method used in this
difficult and anguishing process of estimating
and assessing damages. In addition, since
this task entails a degree of speculation, it is
necessary to explain what cases are used as
a reference and how the amounts granted in
those prior cases are adjusted to the case before
the court.
Fresenius, 195 D.P.R. at 493. (App., infra., at 61a)
The First Circuit read the directives of the Puerto
Rico Supreme Court as merely a suggestion to use
“comparator” cases and viewed it as a purely procedural
requirement that did not implicate a substantive interest
of Puerto Rico. App., infra, at 25a (holding that “if and
when courts look to comparator cases (which are not meant
to dictate a specific award in a specific case, even if the
facts are similar), they must take great care to identify
which cases they are looking to and how they calculate or
recalculate their awards. In any event, it is unclear that
urging courts to consult awards granted in prior similar
cases to determine whether an award is “exaggeratedly
high” would necessarily upgrade the Puerto Rico standard
from procedural to substantive law.”) (citing Arpin v.
United States, 521 F.3d 769, 776 (7th Cir. 2008) for the
proposition that “[W]hether or not to permit comparison
evidence in determining the amount of damages to award
in a particular case is a matter of procedure rather than
of substance, as it has no inherent tendency (as does a

19
rule requiring heightened review of damages awards
challenged as excessive, as in Gasperini . . .) either to
increase or decrease the average damages award; the
tendency is merely to reduce variance.”).
HIMA respectfully submits that the First Circuit
misread or misapprehended the Puerto Rico Supreme
Court requirements in Herrera Rivera and Fresenius.
First, the Puerto Rico Supreme Court directive to review
similar cases is not a mere procedural recommendation
or suggestion “urging” the lower courts to consider
comparison evidence. The requirement to review similar
cases is a mandatory obligation for both trial and appellate
courts to review the similar cases of the Puerto Rico
Supreme Court to substantively inform the courts’
decisions on the reasonability of the awards and whether
the amounts granted manifestly deviate from what would
be reasonable damages by being ridiculously low or
exaggeratedly high. See Herrera Rivera,179 DPR at 787.
(App., infra., at 95a). If the damage awards “match the
ones that we [the Puerto Rico Supreme Court] awarded
previously in similar cases [the awards] show prima
facie reasonability and will not be altered…” Herrera
Rivera, 179 DPR at 791(App., infra., at 101a). Contrary
to the First Circuit’s reasoning citing Arpin, 5 the Puerto
Rico Supreme Court standard is not merely a procedural
requirement designed to reduce variance among cases,
but it is a mandatory requirement designed to measure
5. Arpin is a 7th Circuit case in which the court rejected
the use of comparable cases for assessment of damages analysis
because under Illinois state-law such use was not allowed. Under
Puerto Rico law, contrary to Illinois law, the Puerto Rico Supreme
Court requires comparison to its prior cases in order to determine
prima facie reasonability of damage awards.

20
reasonability of the awards; and, thus, increases or
decreases the average damages award in light of the
previous awards of the Puerto Rico Supreme Court.
Like the New York statute in Gasperini, the Puerto
Rico Supreme Court requirement “ in design and
operation, influences outcomes by tightening the range of
tolerable awards.” Gasperini, 518 U.S. at 425. That is why
the awards in Puerto Rico courts are substantially lower
than the unrestrained awards in federal court.
In cases similar to the present case where a plaintiff
lost a parent because of malpractice, the prima facie
measure of reasonability, as a matter of Puerto Rico
substantive law, is between $28,000 and $55,000. See,
Roses v. Juliá, 67 P.R.R. 485, 67 D.P.R. 518 (1947)(two
children of a woman who jumped off the roof of the mental
hospital in which she was hospitalized were awarded
the total sum of $8,000, the present value of which is
$55,428.)6; Perez Cruz v. Hospital la Concepción, 15 P.R.
Offic. Trans. 952, 115 D.P.R. 721 (1984) (the son of a man
who was the victim of medical negligence after suffering
a car accident and died the following day as a result of
medical malpractice was awarded $15,000, the present
value of which is $28,214.)7; Fresenius, 195 D.P.R. 476
(2016)(awarding $30,000 to the offspring of a deceased
person who died after prolonged hospitalizations as a
result of malpractice in the administration of dialysis; the
present value of that amount is $30,714). 8
6. See HIMA Petition for Rehearing En banc, Case: 17-1851
Document: 00117584295 Date Filed: 05/02/2020 at 12, note 1.
7. Id. at 13, note 2
8. Id., note 3.

21
Affirming a judgment for $400,000 without comparing
to the prima facie reasonable amount for comparable
cases as required by the Puerto Rico Supreme Court
runs afoul of Erie and Gasperini. Regardless of any
perceived linguistic similarities between the Puerto
Rico and federal standards, the meaning and application
of the “exaggeratedly high” standard articulated by the
Puerto Rico Supreme Court is very different from the
federal standard. Under Puerto Rico law, the needle is
set at the previous comparative cases by the Puerto Rico
Supreme Court, as consistently required by the Puerto
Rico Supreme Court. 9
9. In a footnote at the end of the Opinion, the First Circuit
expressed concern “that applying the [Puerto Rico] comparative
standard as binding substantive state law in federal court could
undermine the Seventh Amendment right to a jury trial by
requiring federal courts to draw comparisons to Puerto Rico
cases whose damages awards were determined in the first instance
by judges and not juries.” App., infra, at 27a-28a, note 16. That
reasoning, however, misses the point. That the awards in Puerto Rico
state courts differ from the awards in federal court responds not to
the fact that the awards are issued in the first instance by judges
rather than juries, but that those judges in Puerto Rico state courts
are being constrained by the law dictated to them by the PR Supreme
Court, while federal courts in Puerto Rico continue to refuse to apply
the Puerto Rico substantive standard for review of damages. The
limits are not set by the trial courts but by the Puerto Rico Supreme
Court in its review for adequacy of the trial court’s awards.
As a rule of review of excessiveness of damages on remittitur,
the judicial norm established by the Puerto Rico Supreme Court is
indistinguishable from the norm established via statute by the NY
legislature. Both require lower courts to compare judgments to prior
similar cases of the state’s highest court and remit if they do not
conform to those cases. This Court in Gasperini specifically held that
that the substantive interest of the state to “foster predictability” in
the awards of damages could be met in remittitur without violating

22
The Puerto Rico Supreme Court precedent on review
of damages is clear: awards have to conform to the Puerto
Rico Supreme Court’s prior similar cases. They are
prima facie reasonable if they conform to the prior cases
of the court; and reviewing courts should intervene in the
damages awarded when, taking into account damages
awarded in prior similar cases adjusted forward to the
time of the judgment, and in the light of the particular
circumstances of the case being considered by the Court,
the amount awarded manifestly deviates from what would
be reasonable damages by being ridiculously low or
exaggeratedly high. Herrera Rivera, App., infra, at 101a
and 95a .
Because it declined to apply Puerto Rico’s excessive
damages standard, the First Circuit upheld a substantially
larger verdict than would have survived in Puerto Rico
courts; and which as a matter of law, is ten times larger
than Respondent’s siblings may get in their parallel state
court case.
The First Circuit’s continued refusal to acknowledge
and accommodate the substantive interests of Puerto Rico
perpetuates the inequities that the Erie doctrine seeks to
prevent. The continued application of the more permissive
the Seventh Amendment, as it is in effect a cap on damages. “[T]he
Reexamination Clause does not inhibit the authority of trial judges
to grant new trials “for any of the reasons for which new trials have
heretofore been granted in actions at law in the courts of the United
States.” Id. at 433. Nor does the Seventh Amended preclude such
review on appeal because in review for excessiveness, “there must
be an upper limit, and whether that has been surpassed is not a
question of fact with respect to which reasonable men may differ,
but a question of law”. Id. at 435-436 (citing and approving Dagnello
v. Long Island R. Co., 289 F.2d 797, 806 (2nd Cir. 1961)).

23
federal excessive damages standard endorsed by the
First Circuit instead of the damages standard required
by the Puerto Rico Supreme Court results in “substantial
variations between state and federal money judgments”
which encourages plaintiffs to file in federal courts and to
avoid state courts. No clearer example can be found than
this case where Respondent filed in federal court and his
siblings simultaneously filed in state court, represented
by the same counsel. This type of dual litigation with some
family members in federal court and others (non-diverse)
in state court is an aberrant situation that happens daily
in Puerto Rico, only provoked by the lure of higher awards
in federal court.
This Court’s review is necessary to vindicate Erie’s
underlying purpose of “estab­ lish[ing] ... substantial
uniformity of predictable outcome between cases tried in
a federal court and cases tried in the courts of the State
in which the federal court sits.» Sun Oil Co. v. Wortman,
486 U.S. 717, 726-27 (1988). Like in Gasperini, where
application of the New York standard was required to
effectuate Erie’s objectives and to “preclude[] a recovery
in federal court significantly larger than the recovery
that would have been tolerated in state court”, id. at 431,
application of the Puerto Rico standard is required here
and in all diversity cases.
II. The Decision Below Reflects The Circuits’ Profound
Confusion Over Gasperini.
Gasperini establishes that a federal court sitting in
diversity must apply a state excessive damages standard
that is substantive in nature, as was the case with the
New York standard at issue in the case. Twenty-four years
after this Court’s decision in Gasperini, lower courts still

24
struggle to apply the standard coherently and the circuits
have split over the scope of the Gasperini holding.
1. The Second, Fourth, Seventh, Eighth, Tenth and
Eleventh circuits construe Gasperini as requiring federal
courts sitting in diversity to apply state excessive damages
standards in all diversity cases, even in cases where the
state and federal standards are worded identically.
After Gasperini, the Second Circuit heeded to this
Court’s mandate and applies the states’ excessiveness
standard in all diversity cases; and, when in doubt,
certifies the question to the state’s highest court. See
Munn v. Hotchkiss Sch., 795 F.3d 324 (2 nd Cir 2015)
(remittitur question to be certified to Connecticut
Supreme Court because “the damages are inextricably
linked to the broader public policy issues in this case, we
deem it prudent to certify the issue of remittitur to the
Connecticut Supreme Court. The Connecticut Supreme
Court has never considered the excessiveness of an award
of this magnitude, nor has it provided specific criteria for
evaluating these awards”).
Similarly, the Fourth and Eleventh Circuits review
adequacy of awards in accordance with state law. Legacy
Data Access, Inc. v. Cadrillion, Ltd. Liab. Co., 889 F.3d
158 (4th Cir. 2018) (“we follow North Carolina law to
assess whether the jury’s damages award was legally
inadequate.”); Myers v. Cent. Fla. Invs., Inc., 592 F.3d
1201,1212 (11th Cir. 2010)(applying Florida five factors
test because “federal court reviewing a compensatory
award on a state law claim must evaluate the propriety
of the award under state law”)

25
The Seventh Circuit categorically holds that “federal
law has no place in reviewing a damages award in a statelaw claim.” Kaiser v. Johnson & Johnson, 947 F.3d 996 (7th
Cir. 2020); and now applies the state standard even if the
state and federal standards have been expressed in similar
terms. After years of struggling with the dichotomy of
state versus federal standard, and making statements in
dicta in various cases originating from Illinois district
courts in which the Seventh Circuit suggested in dicta
that it could use federal standards allowing for comparison
of other similar federal cases to determine excessiveness
of damages even if the Illinois standard did not allow
comparison cases, the Seventh Circuit recently revisited
and abandoned that position in Rainey v. Taylor, 941 F.3d
243 (7th Cir. 2019).
In Rainey the Seventh Circuit upheld a jury award
that had been challenged for being in excess of comparable
cases. Relying on Gasperini, the Seventh Circuit held that
“state-law standards for evaluating a jury’s compensatory
award are substantive, not procedural, for purposes
of Erie analysis. Accordingly, when a federal jury awards
compensatory damages in a state-law claim, state law
determines whether that award is excessive.” Id. at 252253 (internal citations omitted). The court explained that
The main difference between the Illinois
and federal standards is that the latter
considers whether the compensatory award
is “roughly comparable to awards made in
similar cases,” while “the clear weight of Illinois
authority ... reject[s] the ‘comparison’ concept”.
Under Illinois law it’s neither necessary nor
appropriate to evaluate a jury’s compensatory

26
award against awards in similar cases; a
comparative analysis is not part of the state
framework. Rather, remittitur is appropriate
“only when a jury’s award falls outside the range
of fair and reasonable compensation, appears
to be the result of passion or prejudice, or is
so large that it shocks the judicial conscience.”
Conversely, remittitur “should not be ordered
if the award falls within the flexible range of
conclusions which can reasonably be supported
by the facts.”
Id. (alterations and quotation marks in original; internal
citations omitted).
Despite the overlap in the language used to express
the federal and Illinois standard, both of which require
remittitur if the award is so large that it “shocks the
judicial conscience”, the Seventh Circuit now applies the
state excessive damages standard as instructed by Illinois
law without assessment of comparative cases. Accordingly,
in the Seventh Circuit, federal courts sitting in diversity
must apply state excessive damages standards even where
the federal and state standards “ha[ve] been expressed in
[similar] terms.” App., infra, at 19a.
More recently, in Kaiser v. Johnson & Johnson,
947 F.3d 996 (7th Cir. 2020), a case under Indiana law
which also rejects the use of comparison cases, the
Seventh Circuit affirmed a verdict that was challenged
by defendant for being in excess of comparable federal
cases. In upholding the verdict, the Seventh Circuit held
that the district court’s use of the federal standard and
comparison cases based thereon was a harmless error. Id.
at 1019. The Seventh Circuit held that “it was a mistake to

27
review the jury’s award under the federal standard. The
Supreme Court has held that state standards for reviewing
damages awards are substantive law for Erie purposes.”
Id. at 1019 (citing Gasperini, 518 U.S. 415, 430-31.”). The
Seventh Circuit specified that “when a federal jury awards
compensatory damages in a state-law claim, state law
determines whether that award is excessive.” Id. (internal
citations omitted). Finally, the Seventh Circuit stressed
that “We take this opportunity to clarify that federal law
has no place in reviewing a damages award in a state-law
claim.” Id.
Like the Seventh Circuit, the Eight Circuit applies the
state standard even where the state standard is phrased
identically to the federal standard. In Rustenhaven v.
American Airlines, Inc., 320 F.3d 802 (8th Cir. 2003), for
example, the Eighth Circuit reviewed a compensatory
damages award to an air crash survivor. The diversity
action was governed by Arkansas law, and the court
explained that:
the question of the excessiveness of a verdict
in a diversity case such as this is judged in
accordance with state substantive law. Under
A rkansas’s standard of review, a verdict
is excessive where the award is so great
that it shocks the conscience of the court
or demonstrates that the trier of fact was
motivated by passion or prejudice.
Id. at 805-06 (citing Gasperini, 518 U.S. at 426-38)
(internal quotation marks omitted).
Arkansas’s “shocks the conscience” standard is
expressed in identical terms to the excessive damages

28
standard that the Eighth Circuit applies in federal
question cases. See Morse v. S. Union Co., 174 F.3d 917, 925
(8th Cir. 1999) (“We must consider whether the awards, as
remitted by the District Court, are so grossly excessive as
to shock the court’s conscience.”) (internal quotation marks
omitted). Despite this overlap, the Eighth Circuit applied
the Arkansas standard, rather than the federal standard.
Rustenhaven therefore indicates that, under the Eighth
Circuit’s interpretation of Gasperini, all state excessive
damages standards are substantive for Erie purposes.
Accordingly, in the Eighth Circuit, federal courts sitting
in diversity must apply state excessive damages standards
even where the federal and state standards “ha[ve] been
expressed in [similar] terms.” App., infra, at 19a.
The Tenth Circuit has espoused a similar interpretation
of Gasperini. In Century 21 Real Estate Corp. v. Meraj
In­ternational Investment Corp., 315 F.3d 1271 (10th
Cir. 2003), the court applied New Jersey law to evaluate
whether the damages awarded on a state law breachof-contract claim were excessive. Id. at 1281. The court
explained that “[i]n a diversity case, as here, state law
provides the appropriate rules of decision for the district
court to determine whether the verdict was excessive.”
Id. (citing Gasperini, 518 U.S. at 437). In deciding to
apply state law, the court gave no weight to the fact that
the New Jersey excessive damages standard is worded
identically to the standard that the Tenth Circuit applies
in federal question cases. Compare Century 21Real Estate
Corp., 315 F.3d at 1282 (“A court should not interfere with
the jury’s determination unless it ‘is so disproportionate’
as to ‘shock [the court’s] conscience’”) (quoting McRae
v. St. Michael’s Med Ctr., 794 A.2d 219, 227 (NJ. Super.
Ct. App. Div. 2002)), with Dodoo v. Seagate Tech., Inc.,
235 F.3d 522, 531 (10th Cir. 2000) (“absent an award so

29
excessive or inadequate as to shock the judicial conscience
and raise an irresistible inference that passion, prejudice
or another improper cause invaded the trial, the [jury’s]
determination of the amount of damages is inviolate.”)
(alteration in original; internal quotation marks omitted).
Century 21 therefore demonstrates that, in the Tenth
Circuit (like in the Seventh and Eight), state excessive
damages standards must be applied in all diversity cases,
even if there is a substantial similarity between the terms
of the federal and state standards. See also Prager v.
Campbell Cty. Mem’l Hosp., 731 F.3d 1046, 1062 (10th Cir.
2013)(applying Wyoming law which is phrased in terms
similar to Tenth Circuit to require remmititur when a
“verdict is so large or small that it shocks the judicial
conscience, the court has not only the right, but the duty,
to grant remittitur or additur accordingly”).
2. The Fifth Circuit has devised a hybrid approach
where it applies the state standard for determination of
whether the award is excessive, but then applies its own
formulation of the maximum recovery rule under federal
law to determine the amount of the remittitur. Recently,
in Longoria v. Hunter Express, Ltd., 932 F.3d 360 (5th Cir.
2019), recognizing that “[m]ore than two decades ago, the
Supreme Court held that state law governs “review [of] the
size of jury verdicts” in diversity cases”, the Fifth Circuit
grappled with inconsistencies in its jurisprudence, where
at times it applied the maximum recovery at the outset to
determine whether the damages are excessive and other
times used it to determine how much of a reduction is
warranted after deciding the award is excessive. Id. at
364-365. To solve the inconsistencies in its jurisprudence,
the Fifth Circuit determined that Gasperini was on point
and that the state standard should be used to assess

30
whether the award was excessive. Id. at 366. In the case
at had the applicable standard was Texas’s which, rather
than the maximum recovery rule, applies “a holistic
assessment at both stages of the inquiry”. Id. at 365. The
Fifth Circuit determined that no error was committed
by the district court because the result under either test
would have been the same. Id. at 366 (“For the threshold
excessiveness determination where Gasperini seems to
apply, we need not definitively reconcile our caselaw and
resolve the issue because the outcome is the same under
the Texas or federal standard…[u]nder either Texas
sufficiency review or the federal maximum recovery rule,
the $1 million award for future physical pain is too high”).
Having determined that the award was excessive, the
Fifth Circuit remanded to the District court to determine
the appropriate amount of remittitur under the maximum
recovery rule. Id. at 367-368 (“We have discretion to set
that amount or remand for the district court to do so.
Following the path we took more than 50 years ago in
the remand that led Judge Rubin to adopt the maximum
recovery rule, we will allow the district court to finalize
the amount.”)(internal citations omitted). As explained in
Lebron v. United States, 279 F.3d 321 (5th Cir. 2002), the
Fifth Circuit’s formulation of the maximum recovery rule:
essentially provides that [the court] will decline
to reduce damages where the amount awarded
is not disproportionate to at least one factually
similar case from the relevant jurisdiction.”
The rule applies regardless of whether the
award was made by a jury. The rule “does
not necessarily limit an award to the highest
amount previously recognized in the state;”
indeed, the rule “does not become operative

31
unless the award exceeds 133% of the highest
previous recovery in the [relevant jurisdiction]”
for a factually similar case. Because the facts
of each case are different, prior damages
awards are not always controlling; a departure
from prior awards is merited “if unique facts
are present that are not reflected within the
controlling caselaw.
Id. at 326.
The Fifth Circuit’s maximum recovery rule applied
after the initial analysis of excessiveness requires
comparison to reported decisions. Id. at 327 (“We decline
to use unreported decisions as benchmarks for this
purpose.” (citing Exxon, Co., U.S.A. v. Banque De Paris
Et Des Pays-Bas, 889 F.2d 674, 675 (5th Cir. 1989)(“under
Texas law an unreported opinion is not precedential”).
3. Unlike the Seventh, Eight, and Tenth circuits
which require application of state excessive damages
standard that are worded in similar terms to the federal
standard, the First Circuit does not interpret Gasperini
as requiring federal courts sitting in diversity to apply
state law excessive damages standards if they are worded
in similar terms to the federal standard. In Marcano
Rivera v. Turabo Medical Center, 415 F.3rd 162 (1st Cir.
2005), a previous diversity case by petitioner HIMA, the
First Circuit rejected HIMA’s request for remittitur
based on Puerto Rico Supreme Court cases. In
determining whether to apply Puerto Rico’s “ridiculously
low or exaggeratedly high” test when reviewing the
verdict against HIMA, the First Circuit emphasized that
“Puerto Rico’s ‘exaggeratedly high’ standard echoes the
federal ‘grossly excessive’ standard,” as evidenced by

32
the fact that it “has been expressed in terms similar to
the federal standard.” Id. at 172-73. On the basis of this
linguistic “similar[ity],” the court held that Puerto
Rico’s standard is not substantive for Erie purposes.
Id. at 173. Thus, instead of applying the Puerto Rico
standard and comparing the award against awards in
cases by the Puerto Rico Supreme Court, it applied the
federal “shocked the conscience” standard and upheld
the award.
After the Marcano Rivera decision in 2005, the Puerto
Rico Supreme Court further developed and explained its
articulated standard of “exaggeratedly high”, making
clear that in reviewing damages awards the courts are
required to review and compare prior similar cases of
the Puerto Rico Supreme Court. See Herrera Rivera,
179 DPR 774 (2010) and Fresenius, 195 D.P.R. 476 (2016).
In light of these developments and the irreconcilable
reality that plaintiff here, one of several siblings, is being
awarded an amount that exceeds by far the maximum
that his siblings would be allowed in the parallel state
court action, HIMA renewed its Gasperini argument in
the present case. In rejecting once again the Gasperini
argument, the First Circuit insisted that the developments
in Puerto Rico law after 2005 are not significant enough
to depart from the holding in Marcano Rivera. Again
insisting on the linguist similarities between the federal
“grossly excessive” or “shocking the conscience” standard
and the Puerto Rico “exaggeratedly high” standard, the
First Circuit indicated that despite the developments in
the PR Supreme Court caselaw prescribing the need and
methodology for a detailed comparative analysis of the
cases on which the award is based, it cannot definitively
say that Puerto Rico’s standard departs from the federal
‘grossly excessive’ or ‘shocks the conscience’ standard.

33
Accordingly, the First Circuit reaffirmed its Marcano
Rivera holding based on the linguistic similarities of the
standards and affirmed the district court’s use of the
federal standard. App., at 22.([B]because Puerto Rico’s
“exaggeratedly high” standard still echoes the federal
“grossly excessive” standard even after Fresenius, we see
no reason to depart from our holding in Marcano Rivera.
We therefore affirm the remitted verdict.)
The First Circuit’s approach is conflicted with the
Seventh, Eight, and Tenth Circuits, which apply state
excessive damages standard that are worded in similar
terms to the federal standard.
4. Finally, the Sixth and Ninth Circuits have issued
post-Gasperini decisions applying the federal excessive
damages standard without undertaking any Erie analysis
or even acknowledging the possibility that state law may
govern. In Am. Trim, L.L.C. v. Oracle Corp., 383 F.3d 462
(6th Cir. 2004), for example, the Sixth circuit applied the
federal excessive damages standard in a diversity action
governed by California. Id. at 475. Armstrong v. Shirvell,
596 Fed. Appx. 433(6th Cir. 2005) (applying federal sock
the conscience excessive standard in diversity action under
Michign law); Yeti by Molly Ltd. v. Deckers Outdoor Corp.,
259 F.3d 1101, 1107 (9th Cir. 2001) (same in a diversity
action governed by Montana law).
Because the lower federal courts routinely disregard
Gasperini’s holding that state substantive law governs
the excessive damages inquiry in diversity cases and are
intractably split over Erie’s application in the excessive
damages setting, this Court’s review is necessary to
reinforce Gasperini’s teachings and to provide muchneeded guidance to the lower courts on this recurring

34
and divisive issue. The First Circuit’s excessive damages
analysis cannot be reconciled with the compelling
principles that animate the Erie doctrine, and the
Court therefore should grant this petition to clarify
that Erie does not condone the First Circuit’s ad hoc
analysis but instead requires the application of state
law excessiveness standards in all diversity cases.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted
Respectfully submitted.
Orlando H. Martínez Echeverría
Orlando H. Martínez Echeverría
Law Office LLC
Centro de Seguros, Suite 413
701 Ponce de León Avenue
San Juan, PR 00907
(787) 722-2378

Heidi L. Rodríguez Benitez
Counsel of Record
Cmt Hima San Pablo Caguas
P.O. Box 4980
Caguas, PR 00726-4980
(787) 653-1796
heidirodriguez@himapr.com
Roberto Ruiz Comas
RC Legal & Litigation
Services, P.S.C.
Doral Bank Plaza, Suite 801
Calle Resolución #33
San Juan, Puerto Rico 00920
(787)777-8000

Counsel for Petitioner
October __, 2020

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
first circuit, filed april 20, 2020
United States Court of Appeals
for the First Circuit
No. 17-1851
JOSÉ SUERO-ALGARÍN,
Plaintiff-Appellee,
v.
CMT HOSPITAL HIMA SAN PABLO CAGUAS,
Defendant-Appellant,
TURABO VASCULAR GROUP, PSC; DR. LUIS
APONTE-LÓPEZ; JANE DOE; CONJUGAL
PARTNERSHIP APONTE-DOE; COMPANIES A-Z;
JOHN DOE; ROSE ROE; DR. RICARDO ROCA;
GRISELDA ROCA, Wife of Dr. Ricardo Roca;
CONJUGAL PARTNERSHIP ROCA-ROCA,
Defendants.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO
[Hon. Silvia L. Carreño-Coll, U.S. Magistrate Judge]

2a
Appendix A
Before
Torruella, Lipez, and Thompson, Circuit Judges.
April 20, 2020, Decided
TORRUELLA, Circuit Judge. Oscar Suero-Durán
(“Suero-Durán”) died from complications relating to the
removal of his dialysis catheter at Defendant-Appellant
Hospital HIMA San Pablo Caguas’s (“HIMA”) facility.
Suero-Durán’s son, Plaintiff-Appellee José Suero-Algarín
(“Suero-Algarín”), filed a suit for damages in the U.S.
District Court for the District of Puerto Rico against
HIMA; his father’s treating physician, Dr. Luis AponteLópez (“Dr. Aponte”); Dr. Aponte’s medical services
corporation, Turabo Vascular Group, PSC (“TVG”)1; and
Dr. Ricardo Roca (“Dr. Roca”), a participant in the HIMA
medical internship program who also treated SueroDurán (collectively, the “co-defendants”). 2 Suero-Algarín
alleged that the negligence of the co-defendants caused his
father’s death and requested $3,000,000 in compensatory
damages for the emotional distress that he suffered as a
result.
After trial, the jury returned a verdict finding the
co-defendants jointly liable for medical malpractice and
1. Dr. Aponte solely owned TVG and provided medical services
at HIMA’s facilities under this entity’s corporate name.
2. Only HIMA is a party to this appeal. TVG and Dr. Aponte
withdrew their appeals prior to oral argument. Dr. Roca never sought
recourse from this court. In fact, the district court entered a default
judgment against him in the early stages of this case.

3a
Appendix A
awarding Suero-Algarín $1,000,000 in compensatory
damages for emotional distress. The jury found HIMA
responsible for 10% of Suero-A lgarín’s damages. 3
Dissatisfied with this result, HIMA pursued various
avenues for post-verdict relief. It moved for judgment as
a matter of law, claiming there was no legally sufficient
evidentiary basis for a reasonable jury to find that it had
acted negligently. In the alternative, HIMA sought a new
trial or remittitur of the jury’s remedial damages award.
In its request for remittitur, HIMA averred that,
because this is a diversity case, the district court was
required to review the jury’s award for excessiveness
in accordance with the standard set forth by the Puerto
Rico Supreme Court in Santiago Montañez v. Fresenius
Medical Care, 2016 TSPR No. 76, 195 P.R. Dec. 476
(hereinafter, “Fresenius”), which entails a comparison
with damages awarded in similar cases in Puerto Rico
courts (hereinafter, the “comparative standard”).4 The
district court denied HIMA’s motion for judgment as
a matter of law but granted remittitur, reducing the
jury’s compensatory damages award from $1,000,000 to
$400,000. In so doing, the district court rejected HIMA’s
characterization of Fresenius as articulating a new
standard for reviewing the excessiveness of the jury’s
damages award based on the use of comparator cases.
Instead, the district court applied the longstanding federal
3. The jury apportioned the remaining 90% equally among
TVG, Dr. Aponte, and Dr. Roca (i.e., 30% each).
4. For the purposes of our review, we rely on the stipulated
translation of the case in the record.

4a
Appendix A
standard of review. HIMA appealed, asking us to reverse
the district court’s denial of its motion for judgment as a
matter of law on the basis that the evidence presented
at trial was legally insufficient to warrant a finding of
liability on its part. Alternatively, HIMA requested that
we remand the case to the district court with instructions
to review the jury’s damages award for excessiveness in
accordance with the comparative standard.
After careful consideration, we affirm the district
court’s denial of HIMA’s motion for judgment as a matter
of law as well as its remitted verdict.
I. BACKGROUND
A. 	Factual Background
On July 10, 2013, Suero-Durán was admitted to
HIMA to receive treatment for bilateral leg cellulitis,
which was beginning to show signs of filariasis. 5 He was
initially attended by medical internist Dr. Livino Lora.
Suero-Durán had a history of serious health issues,
including diagnoses of morbid obesity, chronic obstructive
pulmonary disease, advanced renal disease, and diabetes
mellitus. Two of Suero-Durán’s conditions -- his chronic
obstructive pulmonary disease and advanced renal
disease -- worsened after he was admitted to HIMA. On
5. Filariasis is a parasitic condition where the parasite locks
the lymphatic system in the lower extremities, causing the legs to
expand. In certain extreme cases, this condition is referred to as
elephantiasis because it causes a person’s lower extremities to swell
to the extent that they resemble those of an elephant.

5a
Appendix A
July 15, five days after arriving at the hospital, SueroDurán began experiencing respiratory failure. The next
day, a nephrologist diagnosed him with renal failure
and recommended hemodialysis, which required the
introduction of a catheter. Accordingly, Suero-Durán’s
treating physician, Dr. Aponte, placed a double lumen
hemodialysis catheter (the “double lumen catheter”) inside
his left subclavian artery. Because he understood that
Suero-Durán’s morbid obesity prevented him from laying
down without obstructing his airway, Dr. Aponte placed
him in a special upright position, at an angle of thirty
to forty-five degrees, instead of the typical flat, face-up
position (“supine position”) recommended for catheter
placement.
On August 9, Dr. Aponte noticed that Suero-Durán’s
double lumen catheter was malfunctioning and therefore
replaced it with a new one on August 10. However, the
new catheter also malfunctioned. Although chest X-rays
indicated that it was correctly placed, the new catheter
did not provide the required blood flow, so Dr. Aponte
determined that it should be removed. Dr. Aponte
instructed Dr. Roca to remove Suero-Durán’s catheter
without the need for supervision.
Dr. Roca was a participant in HIMA’s internship
program.6 Dr. Aponte had met Dr. Roca when Dr. Roca
was on rotation in the hospital’s surgery department.
They eventually reached an agreement extending Dr.
6. Dr. Roca was required to participate in an internship
program to obtain his permanent Puerto Rico medical license.

6a
Appendix A
Roca’s responsibilities beyond those imposed by HIMA’s
internship program. Pursuant to their agreement, Dr.
Roca would assist Dr. Aponte with both his patients and
those referred to him by HIMA by making daily rounds,
taking medical history, physical, and progress notes,
and drafting discharge summaries. Dr. Aponte was to
review all of Dr. Roca’s notes and discharge summaries.
Per the agreement, Dr. Roca would “[i]n no shape or form
. . . help[] [Dr. Aponte] in the surgery room.” Dr. Aponte
memorialized the terms of his agreement with Dr. Roca in
a letter that he sent to the director of HIMA’s internship
program, Dr. Carmen Cortés, on August 7, 2013 -- three
days before he instructed Dr. Roca to remove SueroDurán’s double lumen catheter.
HIMA’s internship program required a fully licensed
doctor to accompany interns at all times.7 However,
on August 11, 2013, Dr. Roca placed Suero-Durán in
an upright sitting position of approximately forty-five
degrees and removed his catheter without any supervision.
Immediately afterward, Suero-Durán’s eyes rolled back
as he became paralyzed and stopped breathing. Medical
personnel at the hospital called a “code green” 8 and
performed CPR on Suero-Durán. Unfortunately, SueroDurán never recovered. He suffered irreversible brain
damage and remained comatose until his death on October
13, 2013 -- a little over two months after the incident.
7. At the time of the events in question, Dr. Roca only held a
provisional Puerto Rico medical license.
8. “Code green” refers to an alert to hospital staff that a patient
needs emergency assistance.

7a
Appendix A
B. 	Procedural Background
On June 26, 2014, Suero-Algarín, a resident of Illinois,
filed a complaint in the U.S. District Court for the District
of Puerto Rico predicated on diversity jurisdiction against
HIMA and TVG as well as against Dr. Aponte and Dr.
Roca. Suero-Algarín alleged that the treatment that his
father received at HIMA constituted medical malpractice.
He requested $3,000,000 in compensatory damages for the
pain and suffering he endured as a result of his father’s
death. Suero-Algarín claimed that Dr. Aponte and Dr.
Roca acted negligently because they failed to adhere to
the relevant standard of care.
As to HIMA, Suero-Algarín claimed the hospital
was both jointly and vicariously liable for all negligent
acts related to the death of his father, who was a patient
by virtue of admission into the emergency room. He also
averred that HIMA was liable due to its alleged lack of
medical protocols to ensure the safe removal of SueroDurán’s hemodialysis catheter, lack of mechanisms to
assure an immediate response to his cardiorespiratory
arrest, and “improper credentialing and improper
conferring . . . of medical privilege to . . . Dr. Roca and Dr.
Aponte, who clearly [did] not have adequate qualifications
to practice medicine and vascular surgery.”
The ensuing eight-day jury trial, which took place in
March 2017, was a classic battle of the experts. On one
side, Suero-Algarín’s expert, Dr. David C. Dreyfuss (“Dr.
Dreyfuss”), opined that Dr. Roca’s failure to place Suero-

8a
Appendix A
Durán in the Trendelenburg position9 when removing the
catheter caused him to suffer an air embolism, which led to
cardiorespiratory arrest, brain damage, and his eventual
death. He also testified that Suero-Durán’s condition
deteriorated even further because of delays in calling a
code green and performing CPR. On the other side, the
co-defendants’ experts, Dr. Samuel A. Amill-Acosta (“Dr.
Amill”) and Dr. Luis A. López-Galarza (“Dr. López”),
explained that Dr. Roca correctly placed Suero-Durán in
an upright position to remove the catheter in light of his
morbid obesity. In their view, Suero-Durán died because
of a sudden cardiac arrhythmia resulting from his delicate
medical condition rather than an air embolism. They also
maintained that the hospital staff called a code green and
performed CPR in a timely manner.
The jury returned a verdict in favor of Suero-Algarín,
awarding him $1,000,000 for his pain and suffering. The
jury apportioned fault as follows: 10% to HIMA, 30% to
TVG, 30% to Dr. Aponte, and 30% to Dr. Roca. Following
the verdict, HIMA moved for a judgment as a matter of
law under Fed. R. Civ. P. 50(b) and for a new trial under
Fed. R. Civ. P. 59(a)(1), or in the alternative, a remittitur of
the jury’s damages award. In its motion for judgment as a
matter of law, HIMA argued that the jury was presented
with insufficient evidence to merit a finding of liability. In
its motion for a new trial or remittitur, HIMA argued that,
because Puerto Rico law governed Suero-Algarín’s claim,
the excessiveness of the jury’s damages award had to be
9. The Trendelenburg position requires that the patient be laid
flat on his back with his feet elevated above the head.

9a
Appendix A
evaluated through the prism of the standard established
by the Supreme Court of Puerto Rico in Fresenius, which
allegedly required a comparative analysis of damages
awarded in similar cases in Puerto Rico courts. While it
did not specify the lower amount that it believed would
constitute a reasonable award under the Puerto Rico
comparative standard, HIMA did compare the facts and
the award in this case to several other medical malpractice
cases from Puerto Rico courts. The final awards in those
cases ranged from a high of $55,000 (for each of the minor
children of a decedent) to a low of $20,000 (for the daughter
of a decedent).
On July 6, 2017, the district court ruled on HIMA’s
motions for post-judgment relief in an Omnibus Order. It
denied HIMA’s motions for judgment as a matter of law
and new trial, but it granted its motion for remittitur,
reducing the jury’s award to $400,000. See Suero-Algarín
v. HIMA San Pablo Caguas, No. 3:14-cv-01508, 2017 U.S.
Dist. LEXIS 198225, 2017 WL 4227586, at *4 (D.P.R. July
6, 2017). In reviewing the jury’s award for excessiveness,
the district court declined HIMA’s invitation to apply the
Puerto Rico comparative standard that it understood to
have been enunciated in Fresenius and instead applied
the federal standard -- i.e., “grossly excessive, inordinate,
shocking to the conscience . . ., or so high that it would
be a denial of justice to permit [the award] to stand.”
See 2017 U.S. Dist. LEXIS 198225, [WL] at *3 (quoting
Correa v. Hosp. San Francisco, 69 F.3d 1184, 1197 (1st Cir.
1995)). In support of its decision, the district court relied
primarily on our opinion in Marcano Rivera v. Turabo
Medical Center Partnership, 415 F.3d 162, 172 (1st Cir.

10a
Appendix A
2005), in which we held that “federal district courts [did
not have] to review damages for consistency with awards
approved by the Supreme Court of Puerto Rico in similar
cases” because Puerto Rico law did not “depart[] from the
ordinary practice of reviewing awards under the federal
standards for judging excessiveness.” See Suero-Algarín,
2017 U.S. Dist. LEXIS 198225, 2017 WL 4227586, at *3.
On August 19, 2017, Suero-Algarín accepted the
reduced $400,000 award,10 and on September 5, 2017, final
judgment entered against the co-defendants. HIMA filed
a timely appeal, claiming that the district court erred in
denying its motion for judgment as a matter of law and in
declining to apply the Fresenius comparative standard in
its review of the jury’s award for excessiveness.
II. DISCUSSION
A. 	HIMA’s Motion for Judgment as a Matter of Law
We review de novo the district court’s denial of
HIMA’s motion for judgment as a matter of law under Fed.
R. Civ. P. 50(b). Warner v. Horned Dorset Primavera,
Inc. (In re Blomquist), 925 F.3d 541, 546 (1st Cir. 2019).
10. The district court granted Suero-Algarín the option of
either accepting the reduced award or proceeding to a new trial
on damages. Suero-Algarín, 2017 U.S. Dist. LEXIS 198225, 2017
WL 4227586, at *4; see Conjugal P’ship of Jones v. Conjugal P’ship
of Pineda, 22 F.3d 391, 397 (1st Cir. 1994) (“Under the practice of
remittitur . . . the court may also condition the denial of a motion for a
new trial on the filing by plaintiff of a remittitur in a stated amount.”
(quoting Phelan v. Local 305, 973 F.2d 1050, 1064 (2d Cir. 1992))).

11a
Appendix A
“[O]ur scrutiny of the jury verdict,” however, “is tightly
circumscribed.” Sailor Inc. F/V v. City of Rockland, 428
F.3d 348, 351 (1st Cir. 2005) (internal quotation marks
omitted). Although we review the record as a whole, we
construe facts in the light most favorable to the jury
verdict, draw any inferences in favor of the non-movant,
and abstain from evaluating the credibility of the witnesses
or the weight of the evidence. In re Blomquist, 925 F.3d
at 546. In sum, we must affirm the district court’s denial
of HIMA’s Rule 50(b) motion for judgment as a matter
of law “unless the evidence . . . could lead a reasonable
person to only one conclusion, namely, that [HIMA] was
entitled to judgment.” Full Spectrum Software, Inc. v.
Forte Automation Sys., Inc., 858 F.3d 666, 671 (1st Cir.
2017) (quoting Astro-Med, Inc. v. Nihon Kohden Am., Inc.,
591 F.3d 1, 13 (1st Cir. 2009)).
HIMA challenges the district court’s denial of
its Rule 50(b) motion arguing that the jury lacked a
legally sufficient evidentiary basis to find it responsible
for 10% of Suero-Algarín’s damages.11 HIMA sets out
various reasons why the jury’s finding of either direct or
vicarious liability is unsupported by the record. We need
not, however, address all of HIMA’s contentions.12 The
11. HIMA does not argue that Dr. Aponte or Dr. Roca acted
within the applicable standard of care in relation to Suero-Durán’s
catheter removal.
12. In its attempt to shield itself from vicarious liability, HIMA
avers that the jury was presented insufficient evidence to conclude
that Dr. Roca was an HIMA employee. To save itself from direct
liability, HIMA contends that any finding of direct liability based
on Suero-Algarín’s allegations regarding the hospital’s improper

12a
Appendix A
record clearly shows that the jury was, as a matter of law,
presented sufficient evidence to conclude that HIMA was
liable for 10% of Suero-Algarín’s damages under Puerto
Rico’s apparent agency doctrine.
Under Puerto’s Rico’s “apparent or ostensible agency”
doctrine, hospitals and physicians are directly and jointly
liable to a victim of malpractice “when [the victim] goes
directly to a hospital for medical treatment and the
hospital ‘provides’ the physicians who treat him.” Márquez
Vega v. Martínez Rosado, 16 P.R. Offic. Trans. 487, 497, 116
P.R. Dec. 397, 1985 WL 301900 (P.R. May 15, 1985). Puerto
Rico law draws a distinction between this situation and
when “a person goes directly to a physician’s private office,
agrees with him as to the treatment he or she is going to
receive, and goes to a given hospital on the physician’s
recommendation merely because said institution is one of
several which the physician has the privilege of using.” Id.
at 497-99. In the latter situation, “ as a rule , the hospital
should not be held liable for the exclusive negligence of an
unsalaried physician,” given that “the main relationship
established [there] is between the ‘patient’ and the
physician.” Id. at 499. The apparent agency analysis
focuses on “pinpointing who . . . the patient . . . entrust[ed]
with his health: the hospital or the physician.” Id. at 49697. Thus, “[w]ithin this factual framework, . . . it makes no
difference whether the attending physician is a hospital
employee or not.” Id. at 497.
credentialing of Dr. Aponte and Dr. Roca or its personnel’s failure
to adequately respond to Suero-Durán’s cardiorespiratory arrest
was also devoid of sufficient evidentiary support.

13a
Appendix A
Here, the jury was presented sufficient evidence to
conclude that Suero-Durán entrusted his health to HIMA
rather than to his treating physicians. At trial, Juan
Gustavo Suero-Algarín (“Juan Gustavo”), Suero-Durán’s
other son, testified that he drove his father directly to
HIMA’s emergency room after visiting him at his home
and noticing that his leg had “coloration” and was warm
to the touch. Juan Gustavo further testified that, upon
arriving at HIMA’s emergency room, Suero-Durán was
admitted to the hospital through its regular emergency
admission process. Specifically, he narrated that SueroDurán waited “about an hour, an hour and a half” in
the emergency room waiting area; had his vital signs
taken; was told that he was “going to be staying” at the
hospital; and eventually was “assigned to a room because
the emergency ward was full.” As detailed above, once
Suero-Durán was admitted to the emergency room on July
10, 2013, he never left the hospital again. Suero-Durán’s
health complications prolonged his stay, which in turn
subjected him to Dr. Roca’s aggravating intervention on
August 11, 2013, and eventually led to his death.
HIMA does not contest the jury’s finding that Dr.
Aponte’s and Dr. Roca’s negligence caused Suero-Durán’s
death. Instead, HIMA avers that Suero-Durán visited the
hospital’s emergency room specifically seeking Dr. Lora’s
and Dr. Aponte’s medical assistance, and that he therefore
entrusted his medical care to those particular physicians.
See Márquez Vega, 16 P.R. Offic. Trans. at 499. It further
contends that Dr. Aponte’s prior relationship with SueroDurán also shields the hospital from any liability resulting
from Dr. Roca’s negligence, given that Dr. Roca treated

14a
Appendix A
Suero-Durán pursuant to Dr. Aponte’s orders. SueroDurán and Dr. Aponte did, in fact, have a doctor-patient
relationship prior to Suero-Durán’s July 10 emergency
admission, and Dr. Roca did treat Suero-Durán pursuant
to Dr. Aponte’s orders. However, this does not compel us
to find that the only conclusion a reasonable jury could
have made was that Suero-Durán entrusted his health
to the treating physicians to the point of exempting the
hospital from liability. Juan Gustavo’s testimony reflects
that Suero-Durán went “directly to the hospital,” and in
these situations, Puerto Rico law provides that, because
“the main relationship established is between the patient
and the hospital administration,” the hospital is “directly
liable for the damage caused by the physician.” Id. at 498.
We therefore hold that in light of the apparent agency
doctrine, a reasonable factfinder could conclude that
Juan Gustavo’s testimony provided a legally sufficient
evidentiary basis to find HIMA directly liable for 10% of
Suero-Algarín’s damages.
B. 	Standard for Reviewing Excessiveness of Damages
Awarded Pursuant to Puerto Rico’s General Tort
Statute
HIMA also contests the remitted verdict on the ground
that the district court should be bound by precedent from
the Supreme Court of Puerto Rico instead of federal law
for determining the allowable amount of damages. As
HIMA sees it, federal courts sitting in diversity must
tether their remittitur calculations to the amounts granted
in similar medical malpractice cases in Puerto Rico. “The

15a
Appendix A
choice of a legal standard presents an abstract question
of law and, thus, triggers de novo review.” United States
v. Maldonado-Rivera, 489 F.3d 60, 65 (1st Cir. 2007)
(citing United States v. Huddleston, 194 F.3d 214, 218 (1st
Cir. 1999)). If, however, the district court does apply the
correct standard, we review its application of the standard
for abuse of discretion. See id. (citing United States v.
Natanel, 938 F.2d 302, 313 (1st Cir. 1991)).
1.
Pursuant to the Supreme Court’s seminal decision
in Erie R.R. Co. v. Tompkins, 304 U.S. 64, 58 S. Ct. 817,
82 L. Ed. 1188 (1938), “federal courts sitting in diversity
apply state substantive law and federal procedural law.”
Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415, 427,
116 S. Ct. 2211, 135 L. Ed. 2d 659 (1996). To determine
whether a state law classifies as “substantive” or
“procedural,” we apply an “outcome-determination” test:
“[D]oes it significantly affect the result of . . . litigation for
a federal court to disregard a law of a State that would be
controlling in an action upon the same claim by the same
parties in State court?” Id. (quoting Guar. Tr. Co. v. York,
326 U.S. 99, 109, 65 S. Ct. 1464, 89 L. Ed. 2079 (1945)). We
do not, however, apply the “outcome-determination” test
to “mechanically . . . sweep in all manner of variations,”
id. at 428; rather, we apply it guided by “the twin aims
of the Erie rule: discouragement of forum-shopping and
avoidance of inequitable administration of the laws,” id.
(quoting Hanna v. Plumer, 380 U.S. 460, 468, 85 S. Ct.
1136, 14 L. Ed. 2d 8 (1965)). When a state law is substantive
in part and procedural in part, the relevant question for

16a
Appendix A
Erie purposes is “whether federal courts can give effect
to the substantive thrust . . . without untoward alteration
of the federal scheme for the trial and decision of civil
cases.” Id. at 426.
In Gasperini, the Supreme Court examined a law
codified by the New York Legislature, which empowered
appellate courts “to review the size of jury verdicts
. . . when the jury’s award ‘deviates materially from what
would be reasonable compensation.’” Id. at 418 (quoting
N.Y. C.P.L.R. § 5501(c) (McKinney 2020)). The Supreme
Court held, inter alia, that “New York’s Legislature
codified in § 5501(c) a new standard,” that required “closer
court review than the common-law ‘shock the conscience’
test,” and which involved “[m]ore rigorous comparative
evaluations” than required under federal law. Id. at
429. Therefore, “if federal courts ignore[d] the . . . New
York standard and persist[ed] in applying the ‘shock the
conscience’ test to damage awards on claims governed by
New York law, ‘substantial variations between state and
federal [money judgments]’ [could] be expected.” Id. at
429-30 (alteration in original) (quoting Hanna, 380 U.S. at
467-68). To that end, because “Erie precludes a recovery
in federal court [that is] significantly larger than the
recovery that would have been tolerated in state court,”
id. at 431, the Supreme Court resolved that New York’s
“deviates materially” standard amounted to a substantive
rule of state law that federal appellate courts sitting in
diversity ought to apply when reviewing the excessiveness
of a jury’s award, id. at 430.

17a
Appendix A
The Gasperini Court acknowledged that New York’s
“deviates materially” standard was both substantive and
procedural: substantive in the sense that the standard
“control[led] how much a plaintiff [could] be awarded”
and procedural “in that [it] assign[ed] decisionmaking
authority to New York’s Appellate Division.” Id. at
426. However, in the Court’s view, the fact that New
York’s objective in enacting § 5501(c) was “manifestly
substantive” outweighed the fact that the statute
“contain[ed] a procedural instruction.” Id. at 429.
2.
HIMA’s current challenge is déjà vu all over again. In
Marcano Rivera, HIMA appeared before this Court as
the defendant-appellant in another medical malpractice
case to contest the district court’s post-verdict ruling
that Gasperini did not require a remittitur of damages
in conformity with recent Puerto Rico Supreme Court
precedent. See 415 F.3d at 172.13 Embarking on our
analysis, we extrapolated from Gasperini that, when it
comes to reviewing jury awards for excessiveness, “federal
courts sitting in diversity must apply state substantive law
standards . . . if the state law departs from the federal
standards for judging excessiveness.” Id. at 171. Under
the federal standard, courts will reduce a damages
13. In Marcano Rivera, unlike here, the district court did not
grant HIMA’s motion for remittitur because it was unpersuaded
that the award of $5.5 million (of which HIMA would have to pay
$2.585 million) to the parents of an infant who suffered severe
neurological damage during delivery because of negligence shocked
the conscience. 415 F.3d at 165-167, 173-74.

18a
Appendix A
award if it is “grossly excessive, inordinate, shocking to
the conscience of the court, or so high that it would be a
denial of justice to permit it to stand.” Monteagudo v.
Asociación de Empleados del Estado Libre Asociado de
P.R., 554 F.3d 164, 174 (1st Cir. 2009) (quoting Marcano
Rivera, 415 F.3d at 173); see also Grunenthal v. Long
Island R.R. Co., 393 U.S. 156, 159 n.4, 89 S. Ct. 331, 21
L. Ed. 2d 309 (1968). At the time we decided Marcano
Rivera, circuit precedent was clear that Puerto Rico law
did not meaningfully depart from the federal standard
for judging excessiveness so as to trigger Gasperini. See
415 F.3d at 172 (quoting Grajales-Romero v. Am. Airlines,
Inc., 194 F.3d 288, 300 (1st Cir. 1999)) (Puerto Rico law
“suggests no such departure” from the ordinary practice
of reviewing damage awards under the federal standard).
Thus, in Marcano Rivera, HIMA based its argument
for remittitur on the fact that “none of the cases in which
we [had] rejected Gasperini arguments involved medical
malpractice claims.” 415 F.3d at 172. In support, HIMA
pointed to two medical malpractice cases in which the
Supreme Court of Puerto Rico had remitted damages
awards: Nieves Cruz v. Universidad de P.R., 2000 TSPR
78, 151 P.R. Dec. 150, 2000 Juris P.R. 91 (2000); Blás
Toledo v. Hosp. Nuestra Sra. de la Guadalupe, 98 TSPR
111, 1998 TSPR 111, 146 P.R. Dec. 267, 1998 Juris P.R.
101 (1998). HIMA offered those cases as examples of the
Supreme Court of Puerto Rico acting in conformance
with its decision to reduce a damages award in Riley
v. Rodríguez de Pacheco, 19 P.R. Offic. Trans. 806, 119
P.R. Dec. 762 (1987), another medical malpractice case,
based on the premise that compensation becomes punitive

19a
Appendix A
without reasonable limitations. See Marcano Rivera, 415
F.3d at 172 (citing Nieves, 2000 TSPR 78, 151 P.R. Dec. 150,
2000 Juris P.R. 91 (certified translation)). HIMA insisted
that, taken together, these cases “reflect[ed] a Puerto
Rico standard for reviewing damages awards in medical
malpractice cases that [both] differ[ed] from the federal
standard of reviewing to determine whether an award is
‘grossly excessive’” and was tantamount to substantive
law that ought to be applied by a federal court sitting in
diversity. Id.
Despite viewing the issue as “a close one,” we
affirmed the denial of remittitur because “we [could not]
say, on the basis of the available precedents, that Puerto
Rico case law suggests a ‘departure from [the] ordinary
practice of reviewing awards under the federal standards
for judging excessiveness.’” Id. at 172-73 (alteration in
original) (quoting Grajales-Romero, 194 F.3d at 300).
We observed that, despite HIMA’s efforts to depict an
emerging trend, in Nieves, the Supreme Court of Puerto
Rico clearly reiterated its long-held position that it “will
not intervene in the decision on the estimation of damages
issued by the lower courts, unless the amounts granted
are ridiculously low or exaggeratedly high.” Id. at 172.
(quoting Nieves, 2000 TSPR 78, 151 P.R. Dec. 150, 2000
Juris P.R. 91 (certified translation)). Unlike New York’s
“deviates materially” standard, we determined that
“Puerto Rico’s ‘exaggeratedly high’ standard echoes the
federal ‘grossly excessive’ standard,” as evidenced by the
fact that it “has been expressed in terms similar to the
federal standard.” Id. at 172-73. We therefore concluded
that, as of 2005, the Supreme Court of Puerto Rico had

20a
Appendix A
not “adopted a more rigorous standard of review for
medical malpractice damages that [was] tantamount to a
substantive rule of law that must be applied in diversity
cases” under Gasperini. Id. at 173.
Accordingly, the threshold issue in the case at bar
is whether, given the alleged developments in precedent
relating to an appellate court’s review of damages awards
in medical malpractice cases, we can now definitively say
that Puerto Rico’s standard departs from the federal
“grossly excessive” or “shocks the conscience” standard
and is therefore substantive law akin to New York’s
“deviates materially” standard; or whether the Puerto
Rico standard merely echoes the federal standard and
is therefore procedural law that federal courts sitting in
diversity need not apply.
3.
HIMA presents us with newly available Puerto Rico
Supreme Court precedent, which purportedly indicates
that Puerto Rico law has evolved since our decision
in Marcano Rivera to the point that its standard for
reviewing damages awards in medical malpractice
cases now departs from the federal standard. HIMA
contends that the remitted verdict cannot stand because
the district court incorrectly applied the federal “shock
the conscience” standard when conducting its analysis
instead of Puerto Rico’s more rigorous standard. In
HIMA’s view, after our decision in Marcano Rivera, the
Supreme Court of Puerto Rico gradually moved towards
a “specific methodology” that requires appellate courts

21a
Appendix A
to “look to damages awarded in similar cases and adjust
those awards to the present value” using “the consumer
price index” as the exclusive means for factoring in “the
change in the acquisition power of the dollar” (i.e., the
comparative standard). HIMA relies on Rodríguez v.
Hosp. Susoni, 2012 TSPR No. 150, 186 P.R. Dec. 889,
2012 Juris P.R. No. 163, and Herrera, Rivera v. S.L.G.
Ramírez-Vicéns, 2010 TSPR No. 192, 179 P.R. Dec. 774,
2010 Juris P.R. No. 201.
According to HIMA, the Puerto Rico Supreme Court’s
2014 decision in Fresenius “cemented [this] specific
procedure” such that the comparative standard should now
be understood to amount to substantive law that federal
courts ought to apply when sitting in diversity in actions
governed by Puerto Rico’s general tort statute.14 Not
applying this “comparative” standard, HIMA contends,
would violate the dictates of Gasperini and Erie by
resulting in “substantial variations between state and
federal money judgments.” As such, HIMA requests
that we set aside the district court’s remittitur and
remand for re-assessment consistent with Puerto Rico’s
“comparative” standard as cemented by the Fresenius
decision. However, because Puerto Rico’s “exaggeratedly
high” standard still echoes the federal “grossly excessive”
standard even after Fresenius, we see no reason to depart
from our holding in Marcano Rivera. We therefore affirm
the remitted verdict.
14. Article 1802 of the Puerto Rico Civil Code, P.R. Laws Ann.
tit. 31, § 5141 (“Article 1802”), provides that “[a] person who by an act
or omission causes damage to another through fault or negligence
shall be obliged to repair the damage so done.”

22a
Appendix A
A close reading of Fresenius reveals that, on a global
level, the decision is more properly characterized as a
restatement that stresses relevant considerations than
a meaningful change of direction. This is best exhibited
by the conservative disclaimer in the opening line of the
opinion that “[i]n this case, we reaffirm the postulates of
estimation and assessment of damages that we established
in [Rodríguez v. Hosp. Susoni, 186 P.R. Dec. at 90809].” Fresenius, 195 P.R. Dec. at 478. As in Nieves, the
Supreme Court of Puerto Rico took the opportunity in
Fresenius to re-articulate the enduring Puerto Rico
standard: “appellate courts should not intervene with
the assessment of damages made by the primary forum,
except when the amount awarded is ridiculously low or
exaggeratedly high.” Id. at 490 (citing Rodríguez, 186
P.R. Dec. at 909; Herrera, Rivera, 179 P.R. Dec. at 784).
Under Puerto Rico’s traditional standard for reviewing
damages awarded pursuant to Article 1802, which we
can trace back to the first half of the twentieth century,
see, e.g., Rodríguez v. Am. P.R. Co. of P.R., 43 P.R.R. 472,
481-482, 43 P.R. Dec. 493 (P.R. 1932), appellate courts
refrain from reducing a trial court’s award unless they
can determine that the amount awarded was “absurdly
low or exaggeratedly high,” see Rodríguez Cancel v. P.R.
Elec. Power Auth., 16 P.R. Offic. Trans. 542, 552, 116 P.R.
Dec. 443 (P.R. 1985) (emphasis added).
As explained above, we have already held that the
“exaggeratedly high” standard does not depart from the
federal standard. See Marcano Rivera, 415 F.3d at 173.
Thus, to distinguish this case from Marcano Rivera,
HIMA points to what it understands to be the two ways

23a
Appendix A
in which Fresenius “cemented its mandate for uniformity
to prior similar cases in the award of damages.” First,
under HIMA’s theory, it instructed courts to consult
comparator cases; and second, it endorsed a method for
adjusting the awards in those cases for inflation based on
the consumer price index. This two-step analysis, HIMA
contends, “is almost identical to the framework adopted by
the New York statute in Gasperini” in that it effectively
“provides a control over damages that operates similar
to a cap” by “forbid[ding] arbitrary awards.” Even if
there is no “pre-determined” limit for all cases, HIMA
suggests that “the parties to a tort action should be able
to conduct the analysis and determine a concrete range
for a potential award.” However, in our view, Puerto
Rico’s “exaggeratedly high” standard has not evolved
through the articulation of these features in Fresenius
into substantive law that compels a different outcome
from Marcano Rivera.
HIMA appears to hang its hat on the statement in
Fresenius that to determine whether or not an award is
“exaggeratedly high,” a reviewing court “must examine
the evidence filed before that forum and the amounts
granted in similar cases previously resolved.” 195 P.R.
Dec. at 491 (citation omitted).15 This is the instruction by
15. For instance, Puerto Rico courts draw comparisons based
on the cause of the victims’ injuries and the victims’ relationships
to the plaintiffs. In Fresenius, the Supreme Court of Puerto Rico
compared the amount awarded to plaintiff’s children for the loss
of their mother as a result of the defendant’s medical malpractice
related to hemodialysis to the amounts it had awarded to a son for
the loss of his father due to a hospital’s malpractice following a car

24a
Appendix A
which, according to HIMA, the Supreme Court of Puerto
Rico “manifestly created substantive law applicable
to tort claims in Puerto Rico.” This, HIMA contends,
has made the Puerto Rico standard more rigorous and
thus the functional equivalent of New York’s “deviates
materially” standard, under which New York state
courts also look to awards given in similar cases. See
Gasperini, 518 U.S. at 425. However, to the extent that
it relies on this statement, HIMA overstates its case,
because the Fresenius court proceeded to clarify that
“the compensations granted in previous cases constitute a
useful starting point and reference for passing judgment
on the concessions granted by the primary forum.” 195
P.R. Dec. at 491 (emphasis added). The use of “must” and
“useful starting point” in back-to-back sentences certainly
adds a layer of confusion to interpreting the Puerto
Rico Supreme Court’s meaning, but the most sensible
reading is that to the extent that Fresenius changed
anything by articulating the importance of consulting
comparator cases, it is that these cases are to be used
as guideposts (i.e., something “useful” to be considered),
not as mandatory requirements. See id. at 491, 493. This
interpretation is consistent with precedent dating back
decades. See Soc. De Gananciales v. F.W. Woolworth
& Co., 143 P.R. Dec. 76, 81-82, 1997 Juris P.R. No. 56
(1997) (per curiam) (certified translation) (“[I]n order
to determine whether or not the assessment of damages
in a specific case is appropriate, it is certainly useful to
examine the sums awarded by this Court in previously
similar cases, without implying they can be considered
crash, and to two children who lost their mother due to the staff’s
neglect at a mental health clinic. 195 P.R. Dec. at 502-03.

25a
Appendix A
as mandatory precedents.”); Rodríguez Cancel, 16 P.R.
Offic. Trans. at 552-553 (citing Widow of Silva v. Soc.
Española de Auxilio Mutuo & Great Am. Ins. Co., 100
P.R.R. 30 (1971); Baralt v. García, 78 P.R.R. 123, 78 P.R.
Dec. 131 (1955) (per curiam)) (“That is why -- although it
is advisable that trial courts be guided by the amounts
awarded by this Court in ‘similar’ cases -- the decision
rendered in a specific case with regard to this matter
cannot operate as binding precedent on another case.”).
Furthermore, in constructing its argument, HIMA
places great weight on the Fresenius court’s statements
(echoing Herrera) that “[it was] obliged to warn the judges
about the importance of detailing in their opinions the
cases that are used as reference or starting point[s] for
the estimation and assessment of damages,” and that
“it is necessary to explain which cases are used as a
reference and how the amounts granted are adjusted in
such cases prior to the case before the court.” 195 P.R.
Dec. at 493. However, the opinion makes quite clear that
the actual impetus for those statements was the Puerto
Rico Supreme Court’s frustration with the fact that the
“primary forum did not mention in its opinion what similar
cases it used as a guide” or “explain the calculation that
was made to determine the amounts granted” despite
the fact that it had indicated that “it had carried out an
analysis of those cases.” Id. at 492-93. In context, the
directive behind the court’s lament is clear: if and when
courts look to comparator cases (which are not meant
to dictate a specific award in a specific case, even if the
facts are similar), they must take great care to identify
which cases they are looking to and how they calculate or
recalculate their awards.

26a
Appendix A
In any event, it is unclear that urging courts
to consult awards granted in prior similar cases to
determine whether an award is “exaggeratedly high”
would necessarily upgrade the Puerto Rico standard from
procedural to substantive law. See Arpin v. United States,
521 F.3d 769, 776 (7th Cir. 2008) (“[W]hether or not to
permit comparison evidence in determining the amount
of damages to award in a particular case is a matter of
procedure rather than of substance, as it has no inherent
tendency (as does a rule requiring heightened review of
damages awards challenged as excessive, as in Gasperini
. . .) either to increase or decrease the average damages
award; the tendency is merely to reduce variance.”).
After all, in Gasperini, it was not the use of comparison
evidence per se that made the “deviates materially”
standard substantive law, for New York courts had “also
referred to analogous cases” under its preceding version
of the “shock the conscience” test. Gasperini, 518 U.S.
at 425. What moved the needle was the Supreme Court’s
determination that the standard itself “in design and
operation, influence[d] outcomes by tightening the range
of tolerable awards.” Id. There is simply no language in
Fresenius that indicates that the “useful starting point”
of “examin[ing] . . . the amounts granted in similar cases”
is the equivalent of a functional statutory cap on damages
like New York’s § 5501(c) that locks medical malpractice
awards within the pre-determined range set by prior
awards. Fresenius, 195 P.R. Dec. at 491.
Relatedly, that Fresenius endorses a particular
method for updating the value of awards granted in
prior similar cases to the present value does not tip the

27a
Appendix A
scales in our Gasperini analysis. Prescribing a formula
for adjusting for inflation is a matter of procedural law,
regardless of whether the Supreme Court of Puerto Rico
had cemented it before or after our decision in Marcano
Rivera. As HIMA itself acknowledges, Fresenius merely
takes care to reiterate a particular formula for expressing
the value of prior awards in modern-day economic terms
to facilitate an accurate comparison between cases over
time. Specifically, because of a lingering disagreement
among experts, the decision endorsed the use of a two-step
method for adjusting prior award amounts for inflation
based on the incorporation of the consumer price index
reported by the Puerto Rico Department of Labor and
Human Resources. See id. at 495-98 (citing Rodríguez,
186 P.R. Dec. at 941). There is, however, no basis on which
to hold that Puerto Rico’s “exaggeratedly high” standard
is now so much more rigorous that it departs from the
federal “grossly excessive” standard because of this
computational feature, which cannot be said to materially
impact the outcome of the remittitur analysis.
Accordingly, we have no difficulty concluding that
even after Fresenius, Puerto Rico’s “exaggeratedly high”
standard still does not depart from the federal “grossly
excessive” standard.16 Therefore, the district court
16. Because we decide that Puerto Rico law is procedural, we
need not decide whether federal courts can enforce the “substantive
thrust” of the “comparative standard” without unsettling the federal
scheme of jury trials in civil cases under the Seventh Amendment.
Whereas Gasperini dealt with the Reexamination Clause, here, it is
the “trial by jury” Clause that comes into view because there are no
jury trials in the Puerto Rico civil system. See González-Oyarzún

28a
Appendix A
correctly applied the federal standard in its remittitur
analysis. Accordingly, it did not abuse its discretion in
remitting the verdict.
III. CONCLUSION
We therefore affirm the district court’s denial of
HIMA’s motion for judgment as a matter of law as well
as its remitted verdict.
Affirmed.

v. Caribbean City Builders, Inc., 798 F.3d 26, 27-29 (1st Cir. 2015)
(per curiam). As the thinking goes, the primary concern would be
that applying the comparative standard as binding substantive state
law in federal court could undermine the Seventh Amendment right
to a jury trial by requiring federal courts to draw comparisons to
Puerto Rico cases whose damages awards were determined in the
first instance by judges and not juries. However, as stated above,
we do not reach this question.

29a
B order of the
Appendix b — Appendix
omnibus
united states court for the district
of puerto rico, filed july 6, 2017
IN THE United States District Court
for the District of Puerto Rico
CIV. NO.: 14-1508 (SCC)
JOSE SUERO-ALGARIN,
Plaintiff,
v.
HIMA SAN PABLO CAGUAS, et al.,
Defendants.
July 6, 2017, Decided
July 6, 2017, Filed
OMNIBUS ORDER
Pending before the Court are four motions seeking
post trial relief filed by defendants as a result of a
$1,000,000.00 verdict in favor of plaintiff. All Defendants
move the Court for a new trial or a remittitur at Docket
No. 190;1 Defendants Luis Aponte Lopez, Turabo Vascular
Group and HIMA San Pablo move the court for a ruling
non obstante veredicto or a new trial at Docket Nos. 191;
1. Except Dr. Ricardo Roca, who is on default. Docket No. 46.

30a
Appendix B
192 and 193. There is also a motion to dismiss the appeal
as premature by all defendants at Docket No. 198. I will
address each motion seriatim:
I. 	Motion to Dismiss Appeal
The Motion to Dismiss the Appeal as Untimely, Docket
No. 198, is denied, insofar as this court lacks jurisdiction
to dismiss an appeal filed before the Court of Appeals for
the First Circuit. This request must be properly made
before the Court of Appeals.
II. 	Motions to Vacate Jury Verdict
The motions to vacate the jury’s verdict and enter
judgment in favor of defendants as a matter of law or in
the alternative that a new trial be afforded are predicated
upon Fed Rule Civ. P. 50 (b) and 59. In essence, the
defendants argue that the verdict is against the weight
of the evidence and that there is no legally sufficient
evidentiary basis for a reasonable jury to find for plaintiff
in this case. In the alternative, the defendants moved for
a remittitur of the 1 million dollar verdict.
(i) 	The Standard for Vacating A Verdict or
Granting a New Trial or Entering Judgment
as a Matter of Law
Pursuant to Rule 50 (b), a party may renew a motion
for judgment as a matter of law “[n]o later than 28 days
after the entry of judgment—or if the motion addresses a
jury issue not decided by a verdict, no later than 28 days

31a
Appendix B
after the jury was discharged.” The movant may file the
renewed Rule 50(b) motion and may include an alternative
or joint request for a new trial under Rule 59. “In ruling
on the renewed motion, the court may: (1) allow judgment
on the verdict, if the jury returned a verdict; (2) order a
new trial; or (3) direct the entry of judgment as a matter of
law.” To vacate a verdict and enter a judgment as a matter
of law, “the trial judge must view all the evidence and
inferences flowing therefrom in the light most favorable
to the nonmoving party. Such a motion should be granted
only if as a matter of law no conclusion but one can be
drawn.” Austin v. Lincoln Equipment Associates, Inc.,
888 F.2d 934, 937 (1st. Cir. 1989).
If, after a jury trial, the party moves for a new trial
under Rule 59, the court may grant a new trial “to any
party” “on all or some of the issues”. In interpreting Rule
59, the 1st Circuit has held that a jury verdict may only be
overturned in the most “compelling circumstances.” Wells
Real Estate Inc. v. Greater Lowell Bd. Of Realtors, 850
F.2d 803, 811 (1st Cir. 1988), cert denied, 488 U.S. 955, 109
S. Ct. 392, 102 L. Ed. 2d 381 (1988). A jury’s verdict on the
merits should be disturbed only when it is clear that no
reasonable jury could have found for the verdict winner
on the evidence presented. A new trial is warranted if, to
let the verdict stand, would result in a blatant miscarriage
of justice. Freeman v. Package Mach. Co., 865 F.2d 1331,
1333 (1st Cir. 1988). With this constraining standard in
mind I discuss defendants’ request for a new trial. Docket
No. 190.

32a
Appendix B
Defendants core argument is that the evidence
presented at trial does not support the verdict. To
establish a case of medical malpractice in Puerto Rico,
plaintiff had to establish: “(1) the duty owed, expressed
as the minimum standard of professional knowledge and
skill required under the circumstances;2 (2) a breach of
that duty attributable to the defendant; and (3) a sufficient
causal nexus between the breach and the plaintiff’s
claimed injury.” 3 Rolon-Alvarado v. Municipality of
San Juan, 1 F.3d 74, 77 (1st Cir. 1993)(citations omitted).
Also, since plaintiff sued HIMA, it had to establish that
the hospital failed in its duty to: (1) carefully select the
physicians to which it extended privileges; (2) request
that physicians stay up-to-date with the standards of
medical practice through continuing education; (3) monitor
physicians and intervening in cases of obvious acts of
malpractice; (4) removing the extension of privileges to
physicians who have repeatedly incurred in malpractice,
and (5) reasonably keeping up to date with technology.
Marquez Vega v. Martinez Rosado, 16 P.R. Offic. Trans.
487, 500, 116 D.P.R. 397 (PR 1985).
2. As to the standard of care, Puerto Rico courts have held that
the duty owed to a patient is that which, “recognizing the modern
means of communication and education, meets the professional
requirements generally acknowledged by the medical profession.”
Pages-Ramirez v. Hospital Espanol Auxilio Mutuo de Puerto Rico,
Inc., 547 F.Supp.2d 141, 148 (D.P.R. 2008).
3. Turning to causation, Puerto Rico requires a plaintiff to
prove by a preponderance of the evidence that the defendant’s
negligent conduct “was the factor that ‘most probably’ caused harm
to the plaintiff.” Pages-Ramirez, 547 F.Supp.2d at 149 (citing Rivera
v. Turabo Med. Ctr. P’ship, 415 F.3d 162, 168 (1st Cir.2005)).

33a
Appendix B
As is customary in these actions, the issue of negligence
hinged on the experts and the credibility of the witnesses
regarding the medical treatment afforded to the decedent.
See Martinez-Serrano v. Quality Health Services of Puerto
Rico, Inc., 568 F.3d 278, 286 (1st Cir. 2009)(citing Rojas-Ithier
v. Sociedad Española de Auxilio Mutuo y Beneficiencia,
394 F.3d 40, 43 (1st Cir.2005))(Reaffirming that in a medical
malpractice case brought under Puerto Rico law “a factfinder
normally cannot find causation without the assistance of
expert testimony.”). This “predictable battle of the experts”
leads to a situation where a simple error of judgment on
part of the medical defendant does not necessarily lead to
liability, so long as the “expert opinion suggests that that
the physician’s conduct fell within a range of acceptable
alternatives.” Lama v. Borras, 16 F.3d 473, 478 (1st Cir.
1994). But “[w]hile not allowed to speculate”, the jury can still
make credibility assessments when evaluating the expert’s
testimony. Id.; see also, Fernandez v. Corporacion Insular
de Seguros, 79 F.3d 207, 212 (1st Cir. 1996)(denying a motion
for new trial even where only one independent medical expert
testified at trial because “the jury was not compelled to credit
[his] testimony.”)
In this case the jury had the benefit of receiving
testimony from three qualified experts. Dr. David Craig
Dreyfuss testified for the plaintiff. He opined that the
decedent’s brain injury and later death were caused by
an air embolism which came about when the catheter
was improperly removed by Dr. Roca.4 The decedent’s
condition was worsened by a delayed green code and CPR.
4. Dr. Roca was part of the HIMA internship program and had
an independent agreement with Dr. Aponte to work for him and help
him with rounds.

34a
Appendix B
Defendants put on the stand as their experts Dr.
Samuel Antonio Amill Acosta and Dr. Luis Antonio
Lopez Galarza. Both experts opined that the catheter
was properly removed and that the decedent suffered a
cardiac arrest, not an air embolism. That the decedent
had a number of co-morbidities and that the green code
and CPR were timely and appropriate. In sum, that there
was no deviation from the standard of care, on the part
of any of the defendants and that the decedent’s demise
was the result of a chain of unfortunate events combined
with the decedent’s delicate health condition.
As finders of the facts the jurors have to decide
whom to give credence. In this instance, they believed
Dr. Dreyfuss, Adalberto de Jesus Suero Duran and Juan
Gustavo Suero Algarin. The two later witnesses testified
that the green code was called at a delayed time and that
the CPR did not start until 20 minutes later. Revisiting the
trial, I find that it was the jury’s decision to believe; that
the plaintiff proved by a preponderance of the evidence
that the decedent suffered brain damage and subsequently
died because of an air embolism caused by the improper
removal of the catheter. I see no reason to disturb this
finding or to usurp the jury’s role.
III.	Motion for a Remittitur
Turning to the issue of the award, a court should only
grant motions for remittitur “if the outcome is against the
clear weight of the evidence such that upholding the verdict
will result in a miscarriage of justice.” Marcano Rivera
v. Turabo Medical Center Partnership, 415 F.3d 162, 171

35a
Appendix B
(1st Cir. 2005)(citing Johnson v. Spencer Press of Me., Inc.,
364 F.3d 368, 375 (1st Cir.2004)). To order a remittitur
on an award of emotional distress requires a finding that
the award “is so grossly disproportionate to any injury
established by the evidence as to be unconscionable as a
matter of law.” Koster v. Trans World Airlines, Inc., 181
F.3d 24, 34 (1st Cir.1999); see also Kolb v. Goldring, Inc.,
694 F.2d 869, 871 (1st Cir.1982) (explaining the different
standards applicable to damages of a noneconomic versus
economic nature).
In diversity cases, such as this one, “[f]ederal law
governs the question of whether the trial court should
order a remittitur”. Reyes-Garcia v. Rodriguez & Del
Valle, Inc., 82 F.3d 11, 14-5 (1st Cir. 1996)(citing Blinzler
v. Marriott Int’l, Inc., 81 F.3d 1148, 1161 (1st Cir.1996)).
Defendants cite to Rodriguez v. Hospital Susoni, 2012
TSPR 150, 186 D.P.R. 889, 2012 Juris P.R. 163 (2012) for
the proposition that we follow precedent from the Supreme
Court of Puerto Rico in determining the allowable amount
of damages.
The First Circuit, however, has made clear that
federal district courts must review damages awards for
consistency with state precedent only when the state
law departs from the federal standards for judging
“excessiveness.” Grajales-Romero v. American Airlines,
Inc., 194 F.3d 288, 300 (1st Cir. 1999)(quoting Gasperini
v. Center for Humanities, Inc., 518 U.S. 415, 116 S. Ct.
2211, 135 L. Ed. 2d 659)5 and Mejias-Quiros v. Maxxam
5. In Gasperini, 518 U.S. at 417, the United States Supreme
Court read Erie R. Co. v. Tompkins, 304 U.S. 64, 58 S. Ct. 817,

36a
Appendix B
Property Corp., 108 F.3d 425, 427 n.1 (1st Cir. 1997)). In
Marcano Rivera v. Turabo Medical Partnership, 415 F.3d
162 (1st Cir. 2005), the First Circuit was called upon to
interpret the application of Gasperini in the context of a
malpractice suit under Puerto Rico law. The defendant,
HIMA, argued that the district court should reduce the
award to conform to Puerto Rico precedent. The First
Circuit disagreed, and ruled that, “on the basis of the
available precedents,” there was no suggestion that Puerto
Rico standards regarding medical malpractice departed
“from [the] ordinary practice of reviewing awards under
the federal standards for judging excessiveness.” Marcano
Rivera, 415 F.3d at 173 (citing Grajales-Romero, 194 F.3d
at 300)). Therefore, the Court rejected the application of
Gasperini, based on its reading of Puerto Rico law. In
short, federal standards steer our review.
With that framework in mind, I tur n to the
reasonableness of the award. The court instructed the
jury that plaintiff’s damages were for “emotional pain
and suffering”. Since the inherited claims were excluded,
plaintiff was not entitled to any award related to his
father’s physical pain and suffering prior to his death.
Docket No. 137. His damages were based only on his pain
and suffering as result of his father’s death. Though we
do not question plaintiff’s affection for his father and the
distress he felt over his father’s death, we find that the
award here is “grossly excessive, inordinate, shocking
82 L. Ed. 1188 (1938)--the seminal case in matters of federal
diversity jurisdiction—as “preclud[ing] a recovery in federal court
significantly larger than the recovery that would have been tolerated
in state court.” Gasperini, 518 U.S. at 430-1.

37a
Appendix B
to the conscience ..., or so high that it would be a denial
of justice to permit it to stand.” See Correa v. Hospital
San Francisco, 69 F.3d 1184, 1197 (1st Cir.1995) (quoting
Grunenthal v. Long Island R.R. Co., 393 U.S. 156, 159,
89 S. Ct. 331, 21 L. Ed. 2d 309 & n. 4 (1968)). The evidence
of Mr. Suero-Algarin’s damages rested solely on his own
testimony. After a strenuous review of the evidence, we
find that the trial evidence does not support an award
of $1 million. Though the threshold for a remittitur is
certainly high, we find that the verdict here was “palpably
and grossly inadequate or excessive.” Mejias-Quiros, 108
F.3d at 429 (citing Dimick v. Schiedt, 293 U.S. 474, 483,
55 S. Ct. 296, 79 L. Ed. 603 (1935)). See Budet-Correa
v. United Parcel Service, Inc., 322 F.Supp.2d 139, 14243 (D.P.R. 2004)( Reducing an award of damages from
$825,000 to $250,000 because “the jury award here was
grossly disproportionate to the injuries established by
the evidence as to be unconscionable as a matter of law.”);
Anthony v. G.M.D. Airline Services, Inc., 17 F.3d 490,
493-95 (1st Cir. 1994)(“very substantially reducing” a
jury award of $566,765 for pain and suffering where the
plaintiff required no major medical treatment, and merely
suffered from pain in his left leg which required him to
lie down several times a day to elevate his leg); Smith v.
Kmart Corp., 177 F.3d 19, 32-33 (1st Cir. 1999) which found
that an award of $500,000 to a plaintiff that had suffered
physical damage was not excessive, but ordered remittitur
on the award of $250,000.00 to his companion on the day
of the accident, which the court dubbed a “bystander to
Smith’s injuries”; Kolb v. Goldring, Inc., 694 F.2d 869, 875
(1st Cir. 1982), finding that the jury’s award was excessive
as a matter of law and ordering a remittitur.

38a
Appendix B
In this case, plaintiff did not reside in Puerto Rico.
He had lived in Chicago for 8 years and had not visited
once. Plaintiff’s first time in Puerto Rico after he moved
to Chicago was to spread his dad’s ashes. Plaintiff testified
that he spoke to his father daily; nevertheless, his father
was comatose for three months after the removal of the
catheter. Plaintiff failed to explain why he did not inquire
regarding his father unavailability to speak on the phone.
There was testimony that the family kept information
from plaintiff because of his emotional condition. However,
it does not follow that a caring son, did not to inquire
further or got on a plane to ascertain his father’s condition.
In fact, he did not learn about his father’s passing until a
week later and it was one of his sister’s in law who told him.
Given the evidence presented at trial, the court finds
that the award for damages must be reduced to $400,000.
If plaintiff rejects the remittitur reducing damages, a
new trial on the issue of damages will be scheduled. See
Conjugal Partnership v. Conjugal Partnership, 22 F.3d
391, 397 (1st Cir. 1994)(citing Phelan v. Local 305, 973
F.2d 1050, 1064 (2d Cir.1992) and Catullo v. Metzner,
834 F.2d 1075, 1082 (1st Cir.1987)) (““Under the practice
of remittitur ... the court may also condition the denial
of a motion for a new trial on the filing by plaintiff of a
remittitur in a stated amount... The court must, however,
hold out the option of a new trial.”).
IV. 	Conclusion
For the reasons discussed herein, defendants’ Motion
to Dismiss Appeal, Docket No. 198, Motion to Set Aside

39a
Appendix B
Verdict, Docket No. 191, and Motions for Judgment as
a Matter of Law, Docket Nos. 192 and 193, are denied.
The request for a remittitur is granted. Docket No. 190.
Plaintiff shall inform the Court within 30 days after notice
if he will remit to the amount ordered above. Accordingly,
if plaintiff refuses to remit, the Court will order a new
trial to be held on damages.
IT IS SO ORDERED.
In San Juan, Puerto Rico, this 6th day of July 2017.
/s/ SILVIA CARREÑO-COLL
UNITED STATES MAGISTRATE
JUDGE

40a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE FIRST
CIRCUIT, DATED MAY 19, 2020
United States Court of Appeals
For the First Circuit
No. 17-1851
JOSE SUERO-ALGARIN,
Plaintiff-Appellee,
v.
HIMA SAN PABLO CAGUAS,
Defendant-Appellant,
TURABO VASCULAR GROUP, PSC; DR. LUIS
APONTE-LOPEZ; JANE DOE; CONJUGAL
PARTNERSHIP APONTE-DOE; COMPANIES
A-Z; JOHN DOE; ROSE ROE; DR. RICARDO
ROCA; GRISELDA ROCA, Wife of Dr. Ricardo Roca;
CONJUGAL PARTNERSHIP ROCA-ROCA,
Defendants.
Entered: May 19, 2020
Before
Howard, Chief Judge, Torruella, Lynch, Lipez,
Thompson, Kayatta and Barron, Circuit Judges.

41a
Appendix C
ORDER OF COURT
Pursuant to First Circuit Internal Operating
Procedure X(C), the petition for rehearing en banc has
also been treated as a petition for rehearing before the
original panel. The petition for rehearing having been
denied by the panel of judges who decided the case, and
the petition for rehearing en banc having been submitted
to the active judges of this court and a majority of the
judges not having voted that the case be heard en banc,
it is ordered that the petition for rehearing and petition
for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk

42a
Appendix
APPENDIX D — OPINION
OFDTHE PUERTO RICO
SUPREME COURT, SANTIAGO MONTAÑEZ V.
FRESENIUS MEDICAL CARE, DATED MAY 6, 2016,
TRANSLATED AUGUST 8, 2019
PUERTO RICO SUPREME COURT
CC-2013-986
[Reporter: 195 D.P.R. 476*; 2016 PR Sup. LEXIS 77 **,
2016 TSPR 76]
LUIS OSCAR SANTIAGO MONTAÑEZ et al.,
Petitioners,
v.
FRESENIUS MEDICAL CARE et al.,
Respondents.
May 6, 2016
OPINION
Opinion of the Court issued by Associate Justice MR.
ESTRELLA MARTINEZ
San Juan, Puerto Rico, May 6, 2016.
This case provides us with the opportunity to reaffirm
the postulates of estimating and assessing damages that
we established in Rodriguez et al. v. Hospital et al., infra.
In addition, it is imperative to bring to the attention

43a
Appendix D
of the lower courts the need to adhere to the essential
methodological aspects applied in this Opinion in the
difficult, but vital, task of damage assessment.
We proceed to state the factual and procedural context
in which the issue raised before us arose.
I
After being diagnosed with renal failure in its
terminal stage in November of 2006, Ms. Ruby Navarro
Santiago (Ms. Navarro Santiago) began to receive
renal replacement therapy through hemodialysis, as
recommended by her nephrologist, Dr. Enrique Ortiz
Kidd (Dr. Ortiz Kidd).1 Specifically, in January of 2007, she
began to take hemodialysis therapy at the dialysis center
of Fresenius Medical Care/Bio-Medical Applications
of Caguas, Inc. (BMA Caguas). She was receiving the
treatment three times per week and each therapy lasted
approximately two-and-a-half hours to three-and-a-half
hours each.

1. Before beginning her hemodialysis therapy, Ms. Ruby
Navarro Santiago (Ms. Navarro Santiago) underwent a surgery
of construction of an arteriovenous fistula in her left arm, because
the fistula is the preferred vascular access for giving hemodialysis
therapy. However, the fistula constructed in her left arm had a
primary failure, and for that reason it did not develop or mature
sufficiently in order to be used in the hemodialysis treatment. In
view of that fact, Ms. Navarro Santiago was surgically implanted
with a catheter that eventually was used as vascular access for
her hemodialysis treatment.

44a
Appendix D
As usual, on September 5, 2007, Ms. Navarro Santiago
went to BMA Caguas to receive her hemodialysis
treatment. Upon arriving at the center with her spouse
Luis Oscar Santiago Montañez (Mr. Santiago Montañez),
who always took her to her therapies, Ms. Navarro
Santiago was received by one of the BMA Caguas nurses,
Irma I. Pedraza Rios (nurse Pedraza), who was in charge
of giving her the routine hemodialysis therapy. Said nurse
began the therapy by performing a procedure to absorb the
heparin 2 that had been left in the lumens of Ms. Navarro
Santiago at her prior therapy on September 3. 3 However,
in the process of extracting the heparin, the nurse felt an
obstruction that was impeding the flow. In view of that
situation, she applied saline solution to the catheter, but
she continued to feel resistance to removing the heparin,
so, for that reason, she reported the obstruction to the
lead nurse Nilda Maldonado Lopez (nurse Maldonado).
It is important to point out that, at that time, there
was a BMA Caguas protocol that provided that in these
cases of occlusion in the catheters the thrombolytic drug
Activase should be inserted in the lumens to destroy the
2. Heparin is an anticoagulant that prevents the formation
of clots or that, once the clots are formed, causes them to expand
but does not destroy them. See Trial Court Judgment of March
23, 2012, Appendix to the certiorari, p. 65
3. The BMA Caguas nurses were injecting Ms. Navarro
Santiago with the drug heparin in the two lumens of the catheter
upon concluding each hemodialysis therapy and they left the
anticoagulant in the lumens until the next therapy in order to
avoid the formation of clots that would prevent the subsequent
therapy from being done.

45a
Appendix D
clots and to be able to resume the hemodialysis process.4
Likewise, the protocol established that the nursing staff
should first contact one of the doctors at the dialysis center
so that one of them would authorize the use of the Activase
drug. Once the authorization of a doctor was obtained, they
should leave the drug for 30 minutes and then remove it
and start the hemodialysis therapy again. This would be
so, only if the Activase had been successful in destroying
the clots or thrombi that were blocking the catheters.
Contrary to the protocol established by BMA Caguas
and the standard accepted for taking care of occlusions
in the catheters, as stated by the experts of the parties,
nurse Maldonado did not contact Dr. Ortiz Kidd - who
was the doctor on duty – so that he would authorize the
use of Activase. Instead, she ordered that 5,000 units of
heparin be injected into Ms. Navarro Santiago’s catheter
and that the drug be left for 30 minutes. Later, nurse
Pedraza continued the dialysis process that had been
interrupted by the occlusions in Ms. Navarro Santiago’s
catheter. Once again, this was done without the situation
having been communicated to Dr. Ortiz Kidd or another
doctor and without administering the drug Activase, as
required by the BMA Caguas protocol.
As a result, shortly after having begun hemodialysis
again, the dialysis machine stopped by itself because it
had recorded a high venous pressure. This meant that Ms.
4. The drug Activase is a thrombolytic that is used to destroy
or dilute clots or thrombi that obstruct catheters surgically
installed in patients. See Trial Court Judgment of March 23, 2012,
Appendix to the certiorari, p. 64

46a
Appendix D
Navarro Santiago was confronting problems receiving the
return of her blood from the machine to her body. This
problem in the return of blood was due to the existing
obstruction in the catheter and that it was not correctly
taken care of when administering the heparin. Given the
situation, nurse Maldonado instructed nurse Pedraza
to puncture a peripheral vein to return the blood to Ms.
Navarro Santiago that was trapped in the dialysis machine
and through that same vein continue the hemodialysis
therapy that had been interrupted. 5
Both nurse Pedraza and nurse Maldonado tried to
puncture Ms. Navarro Santiago on several occasions
in different parts of her upper extremities, but they
were not successful. That being the case, they contacted
nurse Yolanda Delgado (nurse Delgado), a specialist
in puncturing babies, so that she could puncture Ms.
Navarro Santiago. Nurse Delgado punctured the cephalic
vein of the patient’s left arm, the one that had been used
5. It is worth noting that since Ms. Navarro Santiago began
receiving her hemodialysis treatment at BMA Caguas, they had
never tried to return blood or perform hemodialysis through
a peripheral vein. Whenever there were complications due to
occlusions in the catheters, they tried to correct the problem with
the Activase. If the occlusion problem was not solved, the therapy
was immediately stopped and she was sent to the emergency
room of HIMA San Pablo Hospital in Caguas (HIMA de Caguas)
to replace the catheter and continue the therapy there using
the new catheter. In fact, Ms. Navarro Santiago had more than
twenty dysfunctional catheters replaced, and for that reason the
BMA Caguas nurses should have been familiar with the course of
action that was taken when the patient confronted problems with
an occlusion in his or her catheter,

47a
Appendix D
to construct the fistula that never matured, and upon
finding a return of blood in that vein, took the line from
the machine with a nail or angio # 146 and inserted it to
return the blood that was trapped in the machine. As a
corollary, Ms. Navarro Santiago suffered an infiltration or
extravasation of blood in her left arm, and for that reason
the puncture area began to form an edema.
Once the nurses noticed the swelling in the puncture
area, they turned off the dialysis machine and removed
the inserted nail. Immediately afterwards, Ms. Navarro
Santiago began to bleed. To stop the bleeding, they
put pressure on the arm area for 30 minutes, put on
ice compresses and a pressure tourniquet on top of
the bandage. It was then that Nurse Maldonado tried
unsuccessfully to contact several doctors at the center.
When she finally spoke with Dr. Ortiz Kidd, she only
informed him about the occlusion in Ms. Navarro
Santiago’s catheter, so he ordered that Activase be
administered for 30 minutes.
Nurse Maldonado hid from Dr. Ortiz Kidd the
infiltration that caused the edema and bleeding in the
patient’s left arm. She administered the Activase and
referred Ms. Navarro Santiago to another nurse. By
that time, the infiltration extended from the elbow to
the shoulder of her left arm. Subsequently, Ms. Navarro
Santiago defecated twice in the chair where she was
receiving treatment and was complaining of a severe pain
in her arm.
6. The angio # 14 is the needle with the greatest diameter
used for hemodialysis in patients with arteriovenous fistulas.

48a
Appendix D
Ms. Navarro Santiago asked them to call her spouse.
As established by the Trial Court’s findings of fact, Mr.
Santiago Montañez could hear his spouse scream in pain,
so he immediately went to the dialysis area. Likewise,
the lower court found that the BMA Caguas nurses knew
that Ms. Navarro Santiago’s condition was an emergency
and suspected that she had suffered from a compartment
syndrome or, at least, that there were indications of that.
Even so, the center did not make arrangements for an
ambulance to transfer her to the emergency room. A
paramedic, who heard the patient screaming in pain
and saw Mr. Santiago Montañez beside himself due to
the situation, offered his services. The lower court also
believed Mr. Santiago Montañez’s version, who indicated
that BMA Caguas refused to sign so that the paramedic
could offer ambulance services without incurring a cost
for the patient. Faced with the refusal by the center, Mr.
Santiago Montañez assumed the cost of the service and
requested that Ms. Navarro Santiago be transferred to
HIMA San Pablo Hospital in Caguas (HIMA de Caguas).
The patient arrived at HIMA in Caguas with an
active hemorrhage in her left arm and dehydration. The
peripheral surgeon Dr. Luis Aponte (doctor Aponte) took
care of Ms. Navarro Santiago in the emergency room and,
later, diagnosed her with compartment syndrome.7 By
that time, the patient had lost movement in the limb, was
7. Compartment syndrome is a serious condition that
implies that an increase in pressure has occurred in a muscular
compartment. It can cause damage to nerves and muscles, as
well as problems with blood flow. Dr. Luis Aponte (doctor Aponte)
pointed out in his testimony that this can cause ischemia or tissue
death and, therefore, result in the possible amputation of the limb.

49a
Appendix D
stiff and the pain had increased. If they waited longer,
she would be exposed to sustaining severe damage to
the nerves of the arm, because the blood was not flowing
properly toward that extremity. Consequently, Dr. Aponte
had to submit the patient to fasciotomy surgery on her
left arm. 8 The lower court considered as a proven fact that
the clotted blood that Dr. Aponte found when performing
the fasciotomy came from the cephalic vein punctured by
Nurse Delgado.
The next day, September 6, 2007, Ms. Navarro
Santiago also suffered a severe episode of hypoglycemia
with a blood sugar level of 7 mg/dL, 9 a respiratory
failure requiring endotracheal intubation and an anoxic
encephalopathy.
After these incidents, and for the next 40 days of her
hospitalization, Ms. Navarro Santiago suffered pneumonia
and went into an apparent coma. During that time, she
contracted several infections and other complications that
had to be treated by doctors with different specialties.
After two months, Ms. Navarro Santiago was discharged
from HIMA hospital in Caguas, but she had to be admitted
several times in the following months. According to
8. As Dr. Aponte explained in his testimony, fasciotomy is
an incision made in the fascia, which is the tissue of the arm that
covers the compartment where the muscles and blood vessels are.
With the incision the pressure that exists inside that compartment
is released and the fascia of the muscle springs outwards, in order
to restore the blood flow. Thus, when the pressure is released, it
increases blood flow to the limb and prevents it from developing
gangrene.
9. The minimum normal level of blood sugar is 110 mg/dL.

50a
Appendix D
the lower court’s findings of fact, she returned home in
extremely delicate health, had a tracheotomy installed
to help her breathe and remained bedridden until her
death. In the same manner, said court determined that
the arrival of Ms. Navarro Santiago at her home caused
a notable change in her family. Thus, for example, her
son Luis Joel Santiago Navarro and her daughter-in-law,
Rosali Flores Rodriguez had to move into Ms. Navarro
Santiago’s home to take care of her while Mr. Santiago
Montañez was working. That being because Ms. Navarro
Santiago could not look after herself.
According to the facts that the lower court deemed to
have been proven, prior to the incidents that occurred on
September 5, 2007, Ms. Navarro Santiago was active, did
the household chores and, considering her condition, had
a normal life. After that date, she was another person. In
particular, the Trial Court concluded that “the decrease
in her functions, due to the compartment syndrome
and subsequent surgery, her anoxic encephalopathy,
pneumonia and other complications, were indelible marks
that lasted until her death” on April 24 of 2008. See the
Trial Court Judgment of March 23, 2012, Appendix to
the certiorari, p. 79. Likewise, it was evident to the court
making the judgment that, although none of the petitioners
went to a psychologist or psychiatrist, they demonstrated
“the emotional loss that the events at [BMA Caguas] have
left on them, those that occurred for more than two months
[while Ms. Navarro Santiago was hospitalized] at HIMA
[de] Caguas and in the [five] months that followed.” Id.
Said court indicated that it had no doubt that all
the petitioners “were and are emotionally affected in

51a
Appendix D
a permanent, non-temporary manner”. Id. That is so,
because, through their testimony, they demonstrated
how close their family relationship was with Ms. Navarro
Santiago and how they suffered by hearing how she
implored them to help her.
On February 26, 2010,10 the family of Ms. Navarro
Santiago (petitioners) filed a claim for damages against
BM A Cag uas, its insurance company and others
(respondents).11 In it, they requested that the respondents
be ordered to pay jointly and severally $1,000,000 for pain
and suffering and mental anguish suffered by Ms. Navarro
10. On September 5, 2008, a complaint was filed in the Trial
Court for these same acts. However, on February 27, 2009, the
petitioners filed a motion requesting dismissal without prejudice
of the cause of action. Thus, on March 6, 2009, said court issued a
Judgment ordering voluntary dismissal. Notice was given of that
opinion on March 12, 2009.
11. The following relatives are the plaintiffs: Mr. Luis Oscar
Santiago Montañez, his children Luis Joel Santiago Navarro
and Luis Oscar Santiago Navarro, their spouses Rosali Flores
Rodriguez and Yarelis Vazquez, respectively, and the conjugal
partnerships established between them.
For their part, the defendants are the following: Dr. Rafael
Baquero, his insurance company and the conjugal partnership
formed between him and his spouse; Dr. Enrique Ortiz Kidd, his
insurance company and the conjugal partnership formed between
him and his spouse; Dr. Jose Ayala, his insurance company and the
conjugal partnership formed by him and his spouse; Dr. Moises
Villalobos, his insurance company and the conjugal partnership
formed by him and his spouse, and Dr. Eugenia Galindo, her
insurance company and the conjugal partnership formed by her
and her spouse. Richard Doe was also included in the lawsuit as
an unknown defendant.

52a
Appendix D
Santiago. They also claimed $1,000,000 for the damages
suffered by the widower, Mr. Luis Oscar Santiago
Montañez; $500,000 for each of their children, Luis Joel
Santiago Navarro and Luis Oscar Santiago Navarro, and
$250,000 for each daughter-in-law.
After assessing the evidence produced by the parties,
on March 23, 2012, the Trial Court entered a Judgment
in which it granted the complaint filed by the petitioners.
As a result, it ordered BMA Caguas and its insurer12 to
compensate Mr. Santiago Montañez with the amount of
$40,000 for his suffering and mental anguish; each of the
children with the amount of $15,000 for their suffering
and mental anguish; one of the daughters-in-law with
$15,000 and the other daughter-in-law with $10,000.
Likewise, it also ordered the payment of $35,00013 for
the physical and emotional damages suffered by Ms.
Navarro Santiago.
Not in agreement, the petitioners went to the Court
of Appeals on May 4, 2012 through a Motion for Appeal.
In it, they requested that the opinion issued by the lower
court be modified in terms of the amounts of damages
awarded to each petitioner for the different items. This
12. On December 2, 2011, the Trial Court entered a Partial
Judgment in which it recorded the voluntary dismissal with
prejudice requested by the petitioners regarding the physicians
included in the lawsuit, their conjugal partnerships and respective
insurers.
13. When adjudicating the physical and emotional damages
suffered by Ms. Navarro Santiago, the lower court stated that it
took into consideration that the patient was in a coma for about
40 days.

53a
Appendix D
was because that believed they are ridiculously low in
accordance with the findings of fact and conclusions of
law contained in the opinion being appealed. In addition,
they argued that the lower court erred in determining
the amounts without adhering to the criteria established
in the applicable jurisprudence regarding the valuation
of damages in our system. On December 5, 2012, the
petitioners filed a supplementary brief.
In opposition to the supplementary pleading,
respondents filed a brief in which they argued, in
summary, that it was proper to affirm or diminish the
amounts awarded by the lower court. In addition, they
argued that said court erred by including Mr. Santiago
Montañez in the amount awarded for the damages suffered
by his spouse before dying. Thus, they argued that the
widower is not properly an heir of the deceased, so he does
not have a right by inheritance to the cause of action that
his spouse did not assert while alive.
Having examined the written briefs by the parties,
on October 15, 2013, the Court of Appeals entered
Judgment through which it affirmed what was decided
by the lower court in relation to the amounts awarded
to the petitioners. However, as regards the item for the
damages suffered by Ms. Navarro Santiago before her
death, it accepted the argument by the respondents.
Consequently, it modified the judgment entered by the
Trial Court to exclude Mr. Santiago Montañez from the
item for the inherited damages.14
14. Judge Troadio Gonzalez Vargas issued a Dissenting
Opinion in which he stated, in essence, that it was not up to the

54a
Appendix D
In disagreement, the petitioners turned to this Court
on November 18, 2013. They argue that the Court of
Appeals erred by determining that the surviving spouse
is not actually an heir and, therefore, to exclude him from
the item for the damages suffered by his spouse before
she passed away.15 Likewise, they argue that said court
erred by affirming the amounts awarded to the petitioners
by the Trial Court, since it was proper to increase them
because they were ridiculously low.
In reply, the respondents maintain that the assessment
of damages made by the lower court was reasonable in
intermediate appellate court to pass judgment on the participation
of the widowed spouse in the item for inherited damage. That was
because the respondents raised this argument for the first time
in its brief in opposition to the supplementary brief filed by the
petitioners. Judge Gonzalez Vargas believed that the respondents
had to bring the matter to the consideration of the Court of Appeals
through the corresponding petition for appeal.
15. With regard to this assertion of error, the petitioners
argue that the intermediate appellate court meddled in a matter
that was not raised and for which it lacked jurisdiction, as
explained by Judge Troadio Gonzalez Vargas in his dissident.
With regard to this procedural question, we cannot overlook the
particularities of this case in which the respondents raised the
matter in the Court of Appeals. Furthermore, in appropriate
cases, “an appellate court has the inherent power to consider and
resolve patent errors arising from an appeal even if they have not
been presented by the parties.” ELA v. Northwestern Selecta, 185
D.P.R. 40, 55 2012 TSPR No. 56, 2012 Juris P.R. No. 69 (2012).
SLG Flores-Jimenez v. Colberg, 2008 TSPR 90, 173 D.P.R. 843, 851
2008 Juris P.R. 110 (2008); Hernandez v. Espinosa, 1998 TSPR
40, 98 TSPR 40, 145 D.P.R. 248, 264, 1998 Juris P.R. 41 (1998).

55a
Appendix D
light of its findings of fact, so it was not warranted for the
intermediate appellate court to intervene in its opinion. In
addition, they argue that what the Court of Appeals stated
as far as the exclusion of the widowed spouse from the
item of damages by inheritance, in any case, constituted
obiter dictum.
That being the case, on March 28, 2014, we issued
the appeal under our consideration. With the benefit of
the appearance of both parties, we proceed to decide
according to law.
II
Our legal system acknowledges that the right to
compensation of a decedent under Art. 1802 of the Puerto
Rico Civil Code, for damages suffered during one’s
lifetime, is a patrimonial asset that can be transferred to
one’s heirs and claimed by them as part of their legitimate
inheritance. Vda from Delgado v. Boston Ins. Co., 1 P.R.
Offic. Trans. 823, 101 D.P.R. 598, 607 (1973). See, also:
Blas v. Hosp. Guadalupe, 1998 TSPR 111, 98 TSPR 111,
146 D.P.R. 267, 350-351, 1998 Juris P.R. 101 (1998); Consejo
de Titulares del Condominio Orquideas v. CRUV, 132
D.P.R. 707, 731-733 (1993); Publio Diaz v. ELA, 6 P.R.
Offic. Trans. 1173, 106 D.P.R. 854, 871-872 (1978); Arts.
608 and 610 of the Puerto Rico Civil Code Rico, 31 LPRA
sects. 2090 and 2092. It is well known that the legitimate
portion refers to the portion of property that the testator
cannot dispose of because it has been reserved by law for
certain heirs, who are called forced heirs. Art. 735 of the
Puerto Rico Civil Code, 31 LPRA sect. 2361.

56a
Appendix D
In relation to the foregoing, it is necessary to point
out that Art. 736 of the Civil Code, 31 LPRA sect. 2362,
designates the widower as being called to succeed the
decedent as a forced heir. By virtue of this statutory
provision, for more than six decades, we have made it
abundantly clear that in our jurisdiction the widowed
spouse is a forced heir. So, in Luce & Co. v. Cianchini,
Vda. De Santiago, 76 P.R.R. 155, 76 D.P.R. 165, 172 (1954),
we clearly stated that the surviving spouse is a forced
heir for whom the law sets aside a usufructuary share
that constitutes his or her legitimate portion. See, also,
E. Gonzalez Tejera, Derecho de Sucesiones [Succession
Law], T. I, San Juan, Editorial de la UPR, 2001, T. I, p. 101.
This is true even if the enjoyment of his inheritance share
is substantially limited, since he receives property from
the decedent’s estate in usufruct and not in full ownership,
as happens with other legitimate heirs. Id. Since then, we
have reiterated that status as a forced heir that is granted
to the surviving spouse by Art. 736 of our Code.
That is what we decided in Ignacio v. Luciano
Maldonado, 85 P.R.R. 804, 85 D.P.R. 834 (1962), upon
evaluating the scope of testamentary clauses that
conditioned the legitimate right that the widow has as a
forced heir. In Gonzalez de Salas v. Vda de Gonzalez, 99
P.R.R. 560, 99 D.P.R. 577 (1971), we reaffirmed the status
of a forced heir of the widowed spouse in the context of
the right to revoke transfers by co-heirs to clarify that the
widow is not a stranger in the inheritance of her deceased
spouse. Later, in Ripoll Alzuru v. Rosa Pagan, 21 P.R.
Offic. Trans. 1, 121 D.P.R. 1, 10-11, 1988 Juris P.R. 41
(1988), we indicated that a spouse acquires rights over

57a
Appendix D
the estate of his or her deceased spouse and that they
interfere with the rights of all existing children, since the
law considers the widower a forced heir. In Ab Intestato
Saldaña Candelario, 126 D.P.R. 640, 1990 Juris P.R. 98
(1990), we also emphasized that the widowed spouse is a
forced heir, by concluding that the spouses who choose to
govern their marriage by the financial system of separate
property cannot renounce the right of the widowed
spouse’s usufruct. Finally, in Moreda v. Rosselli, 141
D.P.R. 674, 1996 Juris P.R. 131 (1996), we stated that it is
a reiterated norm that the widowed spouse is a forced heir,
the usufructuary widow’s share being his/her legitimate
share.
III
On the other hand, we have repeatedly stated that
as the reviewing courts, we should not intervene in the
trial court findings, unless there is passion, prejudice,
partiality or manifest error in the assessment of the
evidence. Davila Nieves v. Melendez Marin, 2013 TSPR
12, 187 D.P.R. 750, 753, 2013 Juris P.R. 15 (2013); Ramos
v. Hosp. Dr. Susoni Inc., 2012 TSPR 150, 186 D.P.R. 889,
908-909, 2012 Juris P.R. 163 (2012) ; Serrano Muñoz v.
Auxilio Mutuo, 2007 TSPR 132, 171 D.P.R. 717, 741, 2007
Juris P.R. 139 (2007); Alvarez v. Rivera, 2005 TSPR 85,
165 D.P.R. 1, 25, 2005 Juris P.R. 90 (2005). As regards
actions on damages, we have acknowledged that the
judicial task of estimating and assessing damages is
difficult and anguishing, because there is no computation
system that allows us to reach an exact result with which
all parties will be pleased and satisfied. Rodriguez et al.

58a
Appendix D
v. Hospital et al., supra, p. 909; Herrera, Rivera v. SLG
Ramirez-Vicens, 2010 TSPR 192, 179 D.P.R. 774, 784, 2010
Juris P.R. 201 (2010); Publio Diaz v. ELA, supra, p. 867;
Urrutia v. AAA, 3 P.R. Offic. Trans. 896, 103 D.P.R. 643,
647 (1975). That is why we established that appellate courts
should not intervene in the assessment of damages made
by the lower court, except when the amount awarded is
ridiculously low or exaggeratedly high. Melendez Vega v.
El Vocero de PR, 2013 TSPR 81,189 D.P.R. 123, 203, 2013
Juris P.R. 84 (2013); Rodriguez et al. v. Hospital et al.,
supra, p. 909; Herrera, Rivera v. SLG Ramirez-Vicens,
supra, p. 784-785; Publio Diaz v. ELA, supra, p. 868;
Urrutia v. AAA, supra, pp. 647-648. This is so because
that exercise of damage assessment involves a certain
degree of speculation and subjective elements, such as
discretion and a sense of justice and human conscience by
the trier of the facts. Herrera, Rivera v. SLG RamirezVicens, supra, p. 785; Publio Diaz v. ELA, supra, pp.
867-868; Urrutia v. AAA, supra, p. 647. In addition, it is
the lower court that has direct contact with the testimony
evidence produced and, therefore, is in a better position to
issue a judgment on the valuation of damages. Rodriguez
et al. v. Hospital et al., supra, p. 909; Herrera, Rivera v.
SLG Ramirez-Vicens, supra, p. 785.
Similarly, we have emphasized that to evaluate
whether the compensation awarded by the Trial Court is
ridiculously low or exaggeratedly high, we must examine
the evidence produced in that forum and the amounts
granted in previously-resolved similar cases. Id. In that
regard, we conclude that the damages awarded in previous
cases constitute a useful starting point and reference for

59a
Appendix D
passing judgment on the awards granted by the lower
court. Rodriguez et al. v. Hospital et al., supra, pp. 909910; Herrera, Rivera v. SLG Ramirez-Vicens, supra, p.
785. This is true even when we acknowledge that no two
cases are exactly the same and that each case can be
distinguished according to its particular circumstances.
Id. In any case, these damages awarded in previous
cases must be adjusted to their present value. Melendez
Vega v. El Vocero de PR, supra, p. 204; Rodriguez et al.
v. Hospital et al., supra, p. 910; Herrera, Rivera v. SLG
Ramirez-Vicens, supra, p. 785.
IV
As we stated, the petitioners come before us, in the
first place, so we can reverse the Judgment issued by the
Court of Appeals, by which the judgment of the sentencing
court was modified to exclude Mr. Santiago Montañez
from the $35,000 item for the damages suffered by Ms.
Navarro Santiago. The intermediate court believed that
he is not an “actual heir” to his spouse’s decedent’s estate.
Regarding this matter, we stated that the legal rules
that we have set forth are clear in recognizing the status of
being a forced heir of the surviving spouse. We have been
emphatic in stating that the widowed spouse has a share
in the decedent’s estate of his deceased spouse as a forced
heir, whose legitimate share is the widow’s usufruct.
Consequently, we decide that the Court of Appeals erred
by modifying the decision issued by the lower court in
excluding Mr. Santiago Montañez from the item awarded
for inherited damages.

60a
Appendix D
Having taken care of the first assertion of error, we
proceed to consider the petitioners’ argument regarding
the assessment of damages made by the trial court.
V
As we indicated, the petitioners turn to this Court so
that we will increase the amounts awarded by the Trial
Court, affirmed by the intermediate appellate court,
because they believe that they are ridiculously low. The
lower court awarded the petitioners an item of $35,000 for
the damages suffered by Ms. Navarro Santiago before she
died. Likewise, it awarded her spouse an item of $40,000
for his mental sufferings and anguish. In addition, it
awarded an item of $15,000 to each of her children and
one of her daughters-in-law. Finally, it awarded $10,000 to
the other daughter-in-law. In consideration of this second
assertion of error, it is up to us to evaluate whether the
lower court erred in estimating and assessing damages.
Consider.
Regarding the methodology used by the lower court
to establish these amounts, said court stated it had
carried out an analysis of those cases that most resemble
the present case. Also, it stated that it had applied the
criteria established in Herrera, Rivera v. Argentina. SLG
Ramirez-Vicens, supra, for the valuation of damages.
Nevertheless, our attention is drawn to the fact that the
lower court did not mention in its opinion what similar
cases it used as a guide. Nor did it explain what the
computation was that it made to determine the amounts
it awarded.

61a
Appendix D
In view of this, we are compelled to warn judges about
the importance of giving the details in their decisions of
the cases that are used as a reference or starting point
for the estimation and assessment of damages and the
computation done to establish the amounts that are
awarded. This call to the judges becomes important in
view of the prevailing need to instruct the parties and
members of the legal profession about the method used
in this difficult and anguishing process of estimating and
assessing damages. In addition, taking into account that
this task entails a degree of speculation, it is mandatory
to explain which cases are used as a reference and how
the amounts awarded in those prior cases are adjusted to
the case that the court is considering.
In this case, it was of particular importance that the
lower court specifically stated the similar cases used and
the computations made to adjust the amounts granted
there to the present value. This is due to the fact that,
in our opinion, the amounts awarded do not find support
in the facts that that court believed to be proven. Let us
explain.
From a calm analysis of the evidence produced in the
Trial Court, and of the file that appears in the record, it
is evident that we should give deference to the findings
made by said court.
In fact, we emphasize that throughout its 125 findings
of fact, the lower court said that the actions and negligent
omissions of the respondents were the cause of the
abysmal deterioration of health suffered by Ms. Navarro

62a
Appendix D
Santiago from the time of the events of September 5, 2007
until her death. Similarly, it characterized the damages
caused for Ms. Navarro Santiago as a “catastrophe.”
Regarding the catastrophe she suffered, the lower
court found, among other things, the following: that Ms.
Navarro Santiago contracted pneumonia and had to be
treated for various infections and complications during the
71 days she was hospitalized; that subsequently she had
to be admitted to the hospital on several occasions; that
she was discharged from the hospital, but returned to her
home bedridden and never walked again; that she left the
hospital in extremely delicate health, with a tracheotomy
that helped her breathe; that her son Luis Joel and her
daughter-in-law Rosali had to move into the home of Ms.
Navarro Santiago and her spouse to help with her care.
In the same regard, it found that despite being a
hemodialysis patient and having certain health conditions,
Ms. Navarro Santiago had a life expectancy of at least 4
or 5 more years; that her life expectancy was shortened
dramatically by the breakdown of her health caused by
the events that occurred on September 5, 2007; that before
that date Ms. Navarro Santiago was an active person, who
did the household chores and, considering her condition,
had a normal life; that after that date she was another
person; that the decrease in her functions, due to the
compartment syndrome and the subsequent fasciotomy
surgery, and her anoxic encephalopathy, respiratory
failure as well as the other complications she suffered,
were indelible marks that lasted until her death, and that
the petitioners were emotionally affected permanently, not

63a
Appendix D
temporarily, although none of them went to a psychologist
or psychiatrist.
However, the court issuing the judgment awards the
petitioners sums for damages that are laughable and
ridiculously low, thus departing from their own findings
of fact. It tries to justify the amounts awarded, indicating
that it considered cases that are similar and what is
provided in Herrera, Rivera v. SLG Ramirez-Vicens,
supra. However, an examination of the damages awarded
in prior similar cases and the application of the prevailing
norm in the matter of estimating and assessing damages
show that the amounts awarded by the lower court are
ridiculously low. Let us first discuss the applicable damage
assessment method.
In Herrera, Rivera v. SLG Ramirez-Vicens, supra,
we accepted the method recommended by former judge
Antonio Amadeo Murga (Amadeo Murga) to update the
damages awarded in prior similar previous cases to the
present value. See: A.J. Amadeo Murga, El valor de los
daños en la responsabilidad civil, [The value of damages
in civil liability], 1st ed., San Juan, Ed. Esmaco, 1997, T. I,
pgs. 91-126. Pursuant to that method, we use the change
in the purchasing power of the dollar over time to obtain
the adjustment for inflation. Id., P. 92. In turn, we obtained
the purchasing value of the dollar from the consumer price
index prepared by the Department of Labor and Human
Resources (Department of Labor).16 Having obtained the
16. The consumer price index is based on consumer prices of
a basket of goods and services consumed by the country’s people,
and based on the total average of the goods and services included

64a
Appendix D
adjustment for inflation, we made an additional adjustment
for the economic growth that occurred between the year
of the case that is used as a reference and the year when
judgment was rendered in the case we were considering.
Id., Pgs. 102-105.
At that time, the method proposed by Amadeo Murga
applied the consumer price index that used 1984 as the
basis. However, in 2009, the Department of Labor adopted
a new consumer price index that uses as a basis the year
2006.17 In the new edition of his book, Amadeo Murga
discourages the use of the new index. He indicates that,
according to the new index, the cost of living is lower in
Puerto Rico than in the United States, which he considers
is contrary to the reality. A.J. Amadeo Murga, El valor
de los daños en la responsabilidad civil [The value of
damages in civil liability], 2nd ed., Spain, Ed. Bosch, 2012,
pgs. 71-72. Instead, Amadeo Murga recommends using
the index that represents the gross per capita product.
Id., P. 72. Nevertheless, he points out that if one wishes
to continue using the consumer price indexes to adjust
the damages, the table of consumer price indices should
in that basket, the purchasing value of the dollar is determined.
Changes in the prices of the items contained in the basket are
continually collected to determine the increase in the price level.
A.J. Amadeo Murga, El valor de los daños en la responsabilidad
civil [The value of damages in civil liability], 2nd ed., Spain,
Libreria Bosch, 2012, p. 70
17. The statistical tables that provide the new consumer price
index per year are available on the web page of the Department
of Labor: http: //www.mercadolaboral.pr.gov/Tablas_Estadisticas/
Otras _Tablas / T_Indice_ Price.aspx (last visit, May 5, 2016).

65a
Appendix D
be used and the increase in the standard of living should
be adjusted using the personal per capita income table,
at the constant prices of 1954. Id.
Recently, in Rodriguez et al. v. Hospital et al., supra,
we recognized that there is no consensus among the
experts regarding the method that should be used to
update the damages awarded in the past and we chose to
accept the method that uses the consumer price index with
2006 as the base year. Id., P. 914. However, we rejected the
adjustment recommended by Amadeo Murga and adopt
the position of Prof. Jose Julian Alvarez Gonzalez, who
discourages making an additional adjustment for economic
growth when using the new consumer price index. See J.J.
Alvarez Gonzalez and L.M. Pellot Julia, Responsabilidad
Civil Extracontractual [Tort Liability], 81 Rev. Jur. UPR
661 (2012). Thus, we conclude that when we use a consumer
price index whose base year is recent, it is unnecessary
to make the adjustment indicated by Amadeo Murga as a
second part of the process of updating the items awarded.
Rodriguez et al. v. Hospital et al., supra, p. 914. Likewise,
we also established that if from the process of updating
amounts are obtained that we consider very low, it can be
due to the fact that the items awarded in the past were
also very low, and for that reason it would be proper to
increase the compensation to be awarded if the particular
circumstances of the case justify it. Id., p. 915. See, also,
Alvarez Gonzalez and Pellot Julia, supra, pp. 678-679.
As we mentioned, the trial court maintains that it
followed the procedure that we adopted in Herrera, Rivera
v. SLG Ramirez-Vicens, supra. However, it is proper for
us to analyze the amounts awarded by the trial court by

66a
Appendix D
applying the damage assessment method that we recently
adopted in Rodriguez et al. v. Hospital et al., supra. Let
us look at each of the items separately.
Ms. Ruby Navarro Santiago
The Trial Court awarded the petitioners $35,000 for
the damages sustained by Mr. Navarro Santiago before her
death. For the purpose of evaluating the reasonableness
of this sum, and considering that no two cases are exactly
alike, let us examine some prior similar cases.
In Morales v. Hosp. Matilde Brenes, 2 P.R. Offic.
Trans. 236, 102 D.P.R. 188 (1974), we affirmed a judgment
from the trial court that awarded $39,000 to a victim who
had to undergo surgery because of a perforated appendix
and generalized peritonitis as a result of medical-hospital
malpractice. In this case, the negligence consisted of not
having made a differential diagnosis that would have
allowed the patient’s severe condition to be treated in time.
Pursuant to the method we adopted in Rodriguez et al.
v. Hospital et al., supra, we must calculate the purchasing
value of the dollar for the year 1974 and multiply it by
the $39,000 that were awarded in that case to obtain the
present value of that amount. To calculate the purchasing
value of the dollar we must divide 100 by the consumer
price index for 1974. The consumer price index for that
year is 38.53, which means that the purchasing value of
the dollar is $2.60. As a result, the inflation adjustment
of the $39,000 is $101,400.18
18. The computation made to obtain the adjustment for
inflation was the following: $39,000 x $2.60 = $101,400.

67a
Appendix D
As a second step, we must update that amount to take
it to the year when judgment was rendered in this case,
that is, to 2012. For this, we must divide the adjustment
for inflation obtained ($101,400) by the purchasing value
of the dollar for 2012. The purchasing value of the dollar
for that year is $0.87, so we obtain $116,552 as a result,
which constitutes the present value of the amount that
was awarded in Morales.19
It is important to highlight that in Morales the victim
did not die and suffered for 3 days due to the doctor’s and
the hospital’s failure to make an adequate diagnosis. On
the contrary, in the case of Ms. Navarro Santiago we must
consider that she faced the disastrous consequences of the
negligence of the BMA Caguas nurses for seven months
up until her death.
Furthermore, in Toro Aponte v. Estado Libre
Asociado de P.R., 142 D.P.R. 464 (1997), we compensated a
victim with $140,000 for the damages she suffered because
of the negligence of the doctor and the physicians of the
hospital where they performed a caesarean section and
left a surgical gauze in her abdomen. This caused the
perforation of the wall of the large intestine, peritonitis
and extensive inflammation in the adjacent tissues.
In addition, the patient had to undergo two additional
surgeries, use an artificial attachment for defecation for
10 months, her intimate relations were severely affected,
her performance in domestic and recreational activities
19. The consumer price index for 2012 is 115.21, so the
purchasing value of the dollar was computed as follows: 100/115.21
= $0.87. The computation to obtain the result of the updating was
$101,400/$0.87 = $116,552.

68a
Appendix D
was affected, and she was afflicted by severe pain for more
than 2 months, among other things. Unlike Ms. Navarro
Santiago, the patient survived. According to the method
adopted, the present value of the amount awarded in Toro
Aponte is $197,931. 20
Later, in Sagardia de Jesus v. Hosp. Aux. Mutuo,
2009 TSPR 173, 177 D.P.R. 484, 2009 Juris P.R. 176
(2009), we awarded damages of $50,000 to some parents
for the damages sustained by their son for 25 days for the
negligence of the doctors of the hospital where he was
treated at birth. The victim in this case suffered a cardiac
arrest that kept him in a comatose state for several days
and he died. The present value of the amount of $50,000
is $53,448. 21
We emphasized that, as in the case of Ms. Navarro
Santiago, the victim in Sagardia was in a coma for
20. The consumer price index for 1997 is 81.14, so the
purchasing value of the dollar is $1.23. Then, we perform the
following computation to obtain the adjustment for inflation:
$140,000 x $1.23 = $172,200. As a second step, we divided the
adjustment for inflation ($172,200) by the purchasing value of the
dollar for 2012 ($0.87) and obtained $197,931 as the present value
of the amount awarded in 1997.
21. The consumer price index for 2009 is 107.81, so the
purchasing value of the dollar is $0.93. Then, we performed the
following computation to obtain the adjustment for inflation:
$50,000 x $0.93 = $46,500. As a second step, we divided the
adjustment for inflation ($46,500) by the purchasing value of the
dollar for 2012 ($0.87) and obtained $53,448 as the present value
of the amount awarded in 2009.

69a
Appendix D
several days because of the damages inflicted. However,
contrary to what happened with the newborn in that
case, Ms. Navarro Santiago overcame the comatose state
and continued suffering other complications as a result
of medical-hospital malpractice for approximately five
months.
Regarding the matter of the comatose state, in
Sagardia the Court of Appeals considered the time that
the newborn was in a coma to reduce the amount awarded
by the trial court. This being because they believed that
time was not to be compensated. In reversing the finding
of the appellate court, and reinstating the amount awarded
by the trial court, we ruled that “[e] that a person may be
in a coma or sedated as a result of a tort act, constitutes
bodily injury that can be compensated as pain and
suffering.” Id., p. 511 (Emphasis deleted). Id., P. 511. We
emphasized that this compensation is not based only on
the perception of pain, but on the injury sustained and that
keeps the person in a coma or imperceptible to pain. Id.
Contrary to the norm established in Sagardia, in the
case of Ms. Navarro Santiago, the trial court considered
the 40 days that she was in a coma when establishing the
amount of $35,000 for her suffering and mental anguish.
In Herrera, Rivera v. SLG Ramirez-Vicens, supra,
we compensated a young man with $600,000 for the pain
and suffering he sustained due to the total disability of
his left arm. This incapacity arose as a corollary to the
negligence of the doctor who treated him at birth, who
made a maneuver that caused the child to be born with a

70a
Appendix D
paralyzed and flaccid left arm, a bruise on his chest and
a laceration on his left toe. The present value of the sum
awarded in Herrera is $627,586. 22
Pursuant to the amounts that were awarded in these
similar cases that we have examined, and in light of
the particular circumstances of the case before us, we
determined that the $35,000 awarded by the trial court
to the heirs of Ms. Navarro Santiago for mental suffering
and anguish that she suffered is a ridiculously low amount.
We consider that $200,000 is an amount that adheres more
to the particularities of this case and is comparable to the
amounts awarded in the previous cases we reviewed. The
compensation we awarded is reasonable considering the
seriousness of the damages that Ms. Navarro Santiago
faced beginning September 5, 2007, which lasted for seven
months and the outcome of which was her death.
Let us recall that, as a corollary to the negligent
actions of BMA Caguas, Ms. Navarro Santiago suffered
an infiltration in her left arm that caused her severe pain
and constant bleeding. Accordingly, she had to be taken by
ambulance to an emergency room, where a compartment
syndrome caused by the infiltration was diagnosed and
she underwent fasciotomy surgery. She was hospitalized
22. The consumer price index for 2010 is 110.48, so the
purchasing value of the dollar is $0.91. Then, we made the following
computation to obtain the adjustment for inflation: $600,000 x
$0.91 = $546,000. As a second step, we divided the adjustment for
inflation ($546,000) by the purchasing value of the dollar for 2012
($0.87) and obtained $627,586 as the present value of the amount
granted in 2010.

71a
Appendix D
for 71 days, during which time she had to be treated for
several infections and complications including, but not
limited to, an anoxic encephalopathy and respiratory
failure. Of those 71 days, she was in a coma for 40 days
because of the serious injuries inflicted on her. She was
discharged from the hospital, but returned to her home
to remain bedridden, with a tracheotomy that helped her
breathe, and, subsequently, she had to be admitted to the
hospital on several occasions. As determined by the Trial
Court, the negligent actions by BMA Caguas caused the
abysmal deterioration of her health that Ms. Navarro
Santiago suffered and were indelible marks that lasted
until her death.
Mr. Luis Oscar Santiago Montañez
The Trial Court awarded $40,000 to Mr. Santiago
Montañez for the suffering and mental anguish he suffered
after the medical-hospital malpractice incident that
caused the death of his spouse. In order to determine the
reasonableness of said amount, we proceed to examine the
sums awarded in several prior similar cases.
In Perez Cruz v. Hosp. La Concepcion, 15 P.R. Offic.
Trans. 952, 115 D.P.R. 721 (1984), we awarded $40,000
to the spouse of a man who went to the hospital after
suffering a car accident and who died the next day as a
result of medical-hospital malpractice. In accordance with
the method of valuation of damages that we have adopted,
the present value of that amount is $72,644. 23
23. The consumer price index for 1984 is 63.35, so the
purchasing value of the dollar is $1.58. Then, we made the following

72a
Appendix D
Also, in SLG Rodriguez v. Nationwide, 2002 TSPR
52, 156 D.P.R. 614, 2002 Juris P.R. 61 (2002), we affirmed
an amount of $65,000 awarded to the spouse of a victim
who suffered injuries after her vehicle was hit by a
truck. Contrary to the case of Mr. Santiago Montañez,
the spouse in that case did not have to suffer the loss of
her husband’s company, since he survived. In accordance
with the method we have adopted, the present value of the
amount awarded in SLG Rodriguez is $88,161. 24
In Velez Rodriguez v. Amaro Cora, 138 D.P.R. 182,
1995 Juris P.R. 38 (1995), we affirmed the damages of
$34,000 that the trial court awarded to the widow of a
decedent who died in a car accident. The present value of
that amount is $50,805. 25
calculation to obtain the adjustment for inflation: $40,000 x $1.58
= $63,200. As a second step, we divided the adjustment for
inflation ($63,200) by the purchasing value of the dollar for 2012
($0.87) and obtained $72,644 as the present value of the amount
awarded in 1984.
24. The consumer price index for 2002 is 84.9, so the
purchasing value of the dollar is $1.18. Then, we made the following
computation to obtain the adjustment for inflation: $65,000 x
$1.18 = $76,700. As a second step, we divided the adjustment for
inflation ($76,700) by the purchasing value of the dollar for 2012
($0.87) and obtained $88,161 as the present value of the amount
awarded in 2002.
25. The consumer price index for 1995 is 77.08, so the
purchasing value of the dollar is $1.30. Then, we made the following
computation to obtain the adjustment for inflation: $34,000 x
$1.30 = $44,200. As a second step, we divided the adjustment for
inflation ($44,200) by the purchasing value of the dollar for 2012

73a
Appendix D
We should point out that, unlike what happened in the
cases described, Mr. Santiago Montañez witnessed the
suffering of his spouse and how she clung to life for seven
months. In addition, Mr. Santiago Montañez also had to
take care of her during those seven months until her death.
In consideration of the damages awarded, in prior
similar cases that we studied, it is mandatory to conclude
that the $40,000 item that the trial court awarded to Mr.
Santiago Montañez is ridiculously low. We are convinced
that in this particular case an amount of $80,000 is
reasonable.
Luis Joel Santiago Navarro and Luis Oscar Santiago
Navarro:
The Trial Court awarded Luis Joel Santiago Navarro
and Luis Oscar Santiago Navarro, children of Ms. Navarro
Santiago, damages of $15,000 each for their suffering and
mental anguish. In order to evaluate the reasonableness
of these sums, let us examine some prior similar cases.
In Roses v. Julia, 67 P.R.R. 485, 67 D.P.R. 518 (1947),
we affirmed an opinion by the trial court in which a total
sum of $8,000 was awarded to the two children of a lady,
who jumped from the roof of the clinic for the mentally
ill where she was hospitalized. The unfortunate incident
in which the woman died occurred as a result of the
negligence of the clinic staff, who neglected the patient.
($0.87) and obtained $50,805 as the present value of the amount
awarded in 1995.

74a
Appendix D
Pursuant to the damages assessment method that we have
adopted, the present value of the amount awarded in that
case is $53,517. 26 If we consider the amount awarded by
the Trial Court to each of Ms. Navarro Santiago’s sons,
we obtain the total sum of $30,000 between the two, which
is not comparable to the present value of the total amount
awarded in Roses to the two children of the decedent.
Similarly, in Perez Cruz v. Hosp. La Concepcion,
supra, we awarded $15,000 to the son of a man who was the
victim of medical-hospital negligence after sustaining a
car accident. The present value of that amount is $27,241. 27
It is worth noting that, contrary to the events that
occurred in the previous cases we analyzed, the children of
Ms. Navarro Santiago accompanied her during the seven
months in which she was subjected to several treatments,
on the numerous occasions when she was hospitalized
26. The consumer price index for 1947 is 17.17, so the
purchasing value of the dollar is $5.82. Then, we made the following
computation to obtain the adjustment for inflation: $8,000 x
$5.82 = $46,560. As a second step, we divided the adjustment for
inflation ($46,560) by the purchasing value of the dollar for 2012
($0.87) and obtained $53,517 as the present value of the amount
awarded in 1947.
27. The consumer price index for 1984 is 63.35, so the
purchasing value of the dollar is $1.58. Then, we made the following
computation to obtain the adjustment for inflation: $15,000 x
$1.58 = $23,700. As a second step, we divided the adjustment for
inflation ($23,700) by the purchasing value of the dollar for 2012
($0.87) and obtained $27,241 as the present value of the amount
awarded in 1984.

75a
Appendix D
and while she was bedridden in her home without the
possibility of recovering. Luis Joel even moved in to live
with the decedent to assist his father in caring for her.
After evaluating the damages awarded in the cases
described, we concluded that the amounts of $15,000
awarded to each of the decedent’s sons are ridiculously
low. Instead, we award an amount of $30,000 to each of
the sons.
Rosali Flores Rodriguez and Yarelis Vazquez:
The Trial Court compensated Rosali Flores Rodriguez
and Yarelis Vazquez – daughter’s-in-law of Ms. Navarro
Santiago – with $15,000 and $10,000, respectively, for
their suffering and mental anguish. Let us evaluate these
amounts in the light of the damages awarded in prior
similar cases.
First of all, we acknowledge that we have not identified
any decisions from this Court in which damages have been
awarded to persons who have suffered damages in the face
of the suffering and death of their mother-in-law due to
medical-hospital negligence. However, on other occasions
it has been interpreted that, in actions filed under Art.
1802 there is no limit to the degree of blood or affective
bond that must exist between the decedent and the one
who claims damages for his/her suffering and mental
anguish. See Amadeo Murga, op. cit., 2nd ed., p. 304. This
is so, since the determining factor is that the claimant
proves to the satisfaction of the court that he or she has
suffered significant pain and suffering. Id.

76a
Appendix D
Thus, as far as the affective ties that do not involve
blood relations, in Zeno Molina v. Vazquez Rosario, 6 P.R.
Offic. Trans. 462, 106 D.P.R. 324 (1977), we awarded the
sum of $10,000 to a foster aunt for her mental suffering and
anguish from the instant death of a young man whose car
was impacted by a negligently driven vehicle. According to
the method of valuation of damages adopted, the present
value of that amount is $25,862. 28
Consequently, we decide that the amounts awarded by
the Trial Court to Rosali Flores Rodriguez and Yarelis
Vazquez are ridiculously low. From the evidence produced
and from the findings by the trial court, it is evident that
Ms. Navarro Santiago’s daughters-in-law maintained a
very close family relationship with her and that they were
emotionally affected permanently and not temporarily by
her death. In addition, one of the daughters-in-law moved
in with her spouse to the decedent’s home to assist Mr.
Santiago Montañez in caring for her. We conclude that,
given the particularities of this case, the sum of $25,000
for each of the daughters-in-law is reasonable.
Finally, a review of the damages awarded in the
similar cases that we have discussed and the application
of the legal precepts stated lead us to conclude that the
28. The consumer price index for 1977 is 44.53, so the
purchasing value of the dollar is $2.25. Then, we made the following
computation to obtain the adjustment for inflation: $10,000 x
$2.25 = $22,500. As a second step, we divided the adjustment for
inflation ($22,500) by the purchasing value of the dollar for 2012
($0.87) and obtained $25,862 as the present value of the amount
awarded in 1977.

77a
Appendix D
items for damages awarded by the Trial Court to the
petitioners are ridiculously low. As a result, we increase
the amounts granted by the trial court in the manner we
have explained.
VI
For the foregoing reasons, we reverse the opinion
issued by the Court of Appeals and increase the amounts
awarded by the trial court. In particular, we decide that
the Court of Appeals erred by excluding the surviving
spouse, Mr. Santiago Montañez, from the item of damages
awarded for the suffering and mental anguish suffered by
Ms. Navarro Santiago before her death. In addition, we
rule that the respondents should indemnify the petitioners
in the manner we set forth below: $200,000 for the damages
sustained by Ms. Navarro Santiago before her death;
$80,000 for Mr. Santiago Montañez for his suffering and
mental anguish; $30,000 for Luis Joel Santiago Navarro;
$30,000 for Luis Oscar Santiago Navarro; $25,000 for
Rosali Flores Rodriguez, and $25,000 for Yarelis Vazquez.
Luis F. Estrella Martinez
Associate Justice

78a
Appendix D
JUDGMENT
San Juan, Puerto Rico, May 6, 2016.
On the grounds stated in the foregoing Opinion,
which is made part of this Judgment, the opinion issued
by the Court of Appeals is reversed and the amounts
awarded by the trial court are increased. Particularly, it is
decided that the Court of Appeals erred by excluding the
surviving spouse, Mr. Santiago Martinez, from the item
of damages awarded for suffering and mental anguish
that was sustained by Ms. Navarro Santiago before her
death. In addition, it is ruled that the respondents should
indemnify the petitioners in the manner provided below:
$200,000 for the damages sustained by Ms. Navarro
Santiago before her death; $80,000 for Mr. Santiago
Montañez for his suffering and mental anguish; $30,000
for Luis Joel Santiago Navarro; $30,000 for Luis Oscar
Santiago Navarro; $25,000 for Rosali Flores Rodriguez,
and $25,000 for Yarelis Vazquez.
So issued by the Court, the Court orders and the
Clerk of the Supreme Court certifies. The Associate
Justice Madame Rodriguez Rodriguez puts the following
statements on record:
“I concur with the opinion of a majority of this Court,
since I consider it correct to rule that the Court of Appeals
erred by excluding Mr. Luis Oscar Santiago Montañez,
as a surviving spouse, from any access to the item for
damages for suffering and mental anguish awarded to
Ms. Ruby Navarro Santiago. It is worth noting that said

79a
Appendix D
opinion has the limited function of correcting said error,
since everything related to the partition of the estate of
Ms. Navarro Santiago is not the subject of this litigation.
Likewise, I am in agreement with the conclusion that
this Court reaches in regard to the fact that the amounts
awarded to the plaintiffs by the Trial Court, and affirmed
by the intermediate appellate forum, are ridiculously low.
That being said, I am forced to dissent because
a majority of this Court once again uses the damage
assessment method adopted in Rodriguez et al. v. Hospital
et al., 2012 TSPR 150, 186 D.P.R. 889, 2012 Juris P.R. 163
(2012), which I consider erroneous and unfair. On that
occasion, I dissented from the majority’s actions due to
the fact that a new formula was adopted for assessing
damages that acted against uniformity, the flow of the
economy and a sense of justice. Consequently, I chose to
propose as a methodology the one illustrated by attorney
Amadeo Murga in his work El valor de los daños en la
responsabilidad civil [The value of the damages in civil
liability]. Thus, specifically, I explained the benefits of
using the “Gross Per Capita Product Index of Puerto Rico”
as a basis for calculating the present value of the amounts
awarded in previous rulings. I argued that said indicator
adhered more precisely to the underlying philosophy of
the damage estimation process, since it contemplates both
currency inflation and growth in the standard of living.
In the case at bar, when applying the formula as
proposed in my Dissenting Opinion in Rodriguez, we
would start from higher amounts by adjusting the amounts
awarded in prior similar cases to the present value. I

80a
Appendix D
believe that this would provide a proper frame of reference
for determining the amounts to be awarded because they
would fit in more precisely with the purchasing power of
the dollar today. Without any doubt, such a procedure
would result in a beneficial result for the plaintiffs who
requested our intervention. I reiterate that the use of
the methodology endorsed by the majority of this Court
does not favor the judicial certainty to which we should
aspire when facing this exercise of damage estimation.
Therefore, I dissent.”
Juan Ernesto Davila Rivera
Clerk of the Supreme Court

81a
APPENDIX E — Appendix
OPINIONEOF THE PUERTO
RICO SUPREME COURT, HERRERA RIVERA V.
S.L.G. RAMÍREZ-VICÉNS, DATED AUGUST 25,
2010, TRANSLATED AUGUST 8, 2019
[Certified Translation]
August 8, 2019
DANIEL TOMLINSON
CERTIFIED TRANSLATOR
ADMINISTRATIVE OFFICE OF
THE UNITED STATES COURTS
PUERTO RICO SUPREME COURT
August 25, 2010
CC-2008-519
[Reporter: 179 D.P.R. 774*; 2010 PR Sup. LEXIS 173
**; 2010 TSPR 192
MARIA CRISTINA HERRERA BOLIVAR AND
ANDRES RIVERA LLOPIZ, ON THEIR OWN
BEHALF AND IN REPRESENTATION OF THEIR
MINOR CHILD, G.A.R.H.,
Petitioners,
v.
EFRAIN RAMIREZ TORRES AND JULIE VICENS
SALGADO, ON THEIR OWN BEHALF, AND IN
REPRESENTATION OF AND AS MEMBERS OF
THE CONJUGAL PARTNERSHIP COMPOSED BY

82a
Appendix E
THEM; SIMED,
Respondents.
Opinion by the Court issued by Associate Justice Madame
Rodriguez Rodriguez. Associate Justice Mr. Martinez
Torres and Associate Justice Madame Pabon Charneco
concur with the result without a written opinion.
Opinion By: Anabelle Rodriguez Rodriguez
OPINION
San Juan, Puerto Rico, August 25, 2010
Ms. Maria Cristina Herrera Bolivar and Mr. Andres
Rivera Llopiz come to this Court in representation of
their child, G.A.R.H., requesting that the judgment by the
Court of Appeals be reversed, that is, the judgment that
reduced the amount of the damages awarded to the young
Rivera Herrera due to the complete disability of his left
arm. After carefully evaluating the evidence presented
in the Trial Court, we modify the judgment issued by the
intermediate court and reinstate the amount granted by
the primary judge.
I.
The young G.A.R.H. sustained several types of damage
at birth. During the labor through which he came into the
world on May 13, 1994, what is known as shoulder dystocia
occurred. This happens when, at the time the mother is
giving birth, the baby’s head is outside the vaginal canal,

83a
Appendix E
but the rest of the body does not come out, because it is
stuck at the shoulders. In order to pull G.A.R.H. out, Dr.
Efrain Ramirez Torres, a gynecologist-obstetrician, who
was taking care of Ms. Maria Cristina Herrera Bolivar
performed a proctoepisiotomy1 and afterwards applied
suprapubic pressure, 2 the latter without the assistance
of a nurse. Even then the child did not come out. Dr.
Ramirez Torres requested Ms. Herrera Bolivar to keep
pushing, while he performed a strong lateral traction and
downward motion on the baby’s head. This maneuver did
not satisfy its objective and, to the contrary, caused the
child to be born with his left arm paralyzed and flaccid,
a hematoma on the left front side of his chest and a
laceration on one of the toes on his left foot.
In April of 1995, Ms. Herrera Bolivar, her husband
Mr. Andres Rivera Llopiz and the conjugal partnership
composed by both of them, on their own behalf and in
representation of their son, G.A.R.H., filed a complaint
against Dr. Ramirez Torres, his wife, Julie Vicens
Salgado, the conjugal partnership composed by both of
them and the Syndicate of Insurers for Joint Underwriting
of Medical/Hospital Insurance (SIMED). In the complaint,
they made a claim for compensation for the damages
sustained by their son, G.A.R.H. and by them when he
was born.

1. An incision between the back of the vagina and the anus,
the purpose of which is to create greater space for the obstetrician
to be able to manipulate and give birth to the baby.
2. That which is applied over the woman’s pubis for the
purpose of pushing the baby’s shoulder and achieving his birth.

84a
Appendix E
The Trial Court bifurcated the proceedings and first
ruled on the aspect of negligence in Dr. Ramirez Torres’s
medical treatment and the causal relationship with the
damages sustained by G.A.R.H. After an extensive trial in
which several experts from both parties testified, the trial
court concluded that during labor G.A.R.H. sustained a
lesion to the brachial plexus that resulted in “Erb’s” palsy3
and a “Klumpke’s” palsy4, both of which were severe, and
for that reason the resulting paralysis was permanent.
Likewise, the trial court concluded that said lesions were
caused by Dr. Ramirez Torres’s action by pulling or flexing
the baby’s head to solve the shoulder dystocia, which in
1994 was not an accepted practice in medicine. Therefore,
the trial court determined that the actions by Dr. Ramirez
Torres deviated from proper medical care by the best
practice in medicine for the date of the birth and entered
a ruling granting the aspects of negligence and the causal
relationship in the complaint filed. The Court of Appeals
affirmed said decision and this Court denied review.
On May 3, 2006, the Trial Court held an evidentiary
hearing on the damages sustained by G.A.R.H. and his
family. At this hearing, Dr. Nestor Cardona Cancio, Ms.
Herrera Bolivar and young G.A.R.H. testified. In his
testimony, Dr. Cardona Cancio, who is a physiatrist, gave
an explanation of an expert report that he had prepared
to list the damages sustained by the child, which was
3. A lesion due to stretching the nerves of the brachial plexus
at the level of the c-5 and c-6 nerves.
4. A lesion of the brachial plexus at the level of the c-7, c-8
and t-1 nerves.

85a
Appendix E
admitted into evidence. He began his testimony by
reproducing G.A.R.H.’s medical record. He indicated
that, practically since birth, he had begun to receive
physiotherapy. When he was four days old, Dr. Eduardo
Mirabal Font, a neurosurgeon, evaluated the child and
confirmed that there was permanent damage to the nerves
of his left arm. He recommended that he continue with the
physical therapy, because there was not much more that
could be done to improve the minor’s condition. The same
opinion was given at Miami Children’s Hospital.
To improve his physical appearance, in 2001, when
the child was six years old, two surgeries were performed
on his arm that were aimed at giving him a more normal
appearance, because he was deformed and had “the shape
of a monkey.” These surgeries left a four-centimeter scar
in the shape of an “L” and another in the shape of a “C” that
measures eleven (11) centimeters, which are permanent.
Furthermore, Dr. Cardona Cancio also testified that if you
look at G.A.R.H. from the front, his left shoulder is going
to be lower than the right one. Said deformity is a result
of the paralysis of the muscles and tendons in that area.
Said paralysis also causes the child to have his elbow bent
all of the time, in an “L” shape. Likewise, by the nerves
in that area being completely damaged, the member did
not develop naturally, and for that reason his left arm is
shorter than his right arm.
In regard to sensory damage, Dr. Cardona Cancio
testified that G.A.R.H. had a pronounced loss of skin
sensibility, which translates into a sensory deficit disorder
at eighty-one percent (81%). To be able to explain the

86a
Appendix E
damage in the movement of his arm, Dr. Cardona Cancio
divided it into three parts: the upper, middle and lower. He
indicated that G.A.R.H. had zero percent (0%) movement
in the upper and lower part and only eighteen percent
(18%) movement in the middle part. By combining the
percentages of movement disability with the sensory
damage disability, it turns out that G.A.R.H. has a ninetynine percent (99%) loss in the functioning of his arm,
which translates into fifty-nine percent (59%) disability
in general physiological functions. Dr. Cardona Cancio
pointed out that the arm condition is permanent. He added
that G.A.R.H. “basically has one arm that for all intents
and practical purposes is useless. In other words, no, he
cannot do anything with his arm. It is the same as if he
did not have it.”
Dr. Cardona Cancio concluded his testimony
recommending that, when GARH is an adult and so
decides, his arm can be amputated and he can be fitted
with a prosthesis. He indicated that currently there are
prostheses that can be controlled with movements in the
shoulder, which allow for flexing and extending the elbow,
as well as opening and closing the wrist. The fitting of
the prosthesis, in addition to providing him with greater
functionality, would improve his physical appearance,
because an extended arm would be visible, that moves
normally in walking and is of a size similar to his other
arm.
On her part, Ms. Herrera Bolivar testified that
G.A.R.H. began to get therapy four (4) days after he was
born, which was by means of electroshocks. Then, at six
(6) months of age, he was submitted to therapy on a daily

87a
Appendix E
basis in water that caused him a lot of pain, because he
screamed during the hour and one half that it lasted.
Upon seeing that the child’s condition did not evolve, a
decision was made to intervene surgically – by means of
the operations that Dr. Cardona Cancio testified about – so
as to improve, at least, the arm’s appearance.
Ms. Herrera Bolivar continued her testimony talking
about the constant ridicule from the other children
in school and in the neighborhood that G.A.R.H. was
subjected to because of the deformity of his arm. In
addition, she testified about the difficulties that he faced
on a daily basis to perform what would be common tasks
for any person, such as going to the bathroom, getting
dressed and personal hygiene. Likewise, due to his
condition, G.A.R.H. does not participate in daily activities
of children of his age, such as going to games day at school
or playing with the neighbors in his neighborhood.
As far as sports, she testified that G.A.R.H. loves them
and that he was even on a basketball team. Nevertheless,
she indicated that after a game in which a child on his own
team called him “useless” because G.A.R.H. lost the ball,
he left the court and has not wanted to play said sport
again. She stated that the only thing her son G.A.R.H.
wants is to be a normal child. As far as she is concerned,
upon being questioned about how she felt with respect to
her son’s situation, she indicated that “it hurts me, as a
mother, to see him cry, what he is subjected to, to have
to talk with his little friends and say to them ‘listen don’t
ridicule him’ … It’s hard for me as a mother. My son is
the one who is suffering, not anyone else.”

88a
Appendix E
G.A.R.H. began his testimony with the standard
introductory questions. Then he was asked about the
incident with the child at the basketball game mentioned
earlier, and his response was that he felt very bad
about that situation. The judge who was presiding the
proceedings interrupted G.A.R.H.’s testimony and called
the attorneys to the bench. The attorney for defendant
Dr. Ramirez Torres stipulated to G.A.R.H.’s testimony
regarding his damages, it being understood that it
would be evidence that corroborated what was given by
his mother, Ms. Herrera Bolivar. Likewise, the parties
agreed to stipulate to the testimony of G.A.R.H.’s father,
Mr. Andres Rivera Llopiz.
Finally, the parties stipulated to two expert reports.
The first, the report from Dr. Fili-Mele Rodriguez, a
specialist in prostheses, which listed the cost, duration
and replacement of an arm prothesis – similar to the one
recommended by Dr. Cardona Cancio in his testimony
– to be used from the time G.A.R.H. reaches legal age,
until 74 years of age, which was the life expectancy of a
male in Puerto Rico for the year 2005. Likewise, there
was a stipulation to the report that contained G.A.R.H.’s
psychiatric evaluation, prepared by Dr. Dayra Fernandez
Demorizi. It is evident from said report that, throughout
the interviews with Dr. Fernandez, G.A.R.H. showed
hopelessness, a poor control of impulses, hostility, a sleep
and eating pattern disorder, a lack of interest for things
he used to do before, isolation, diminished attention and
concentration.
According to Dr. Fernandez’s opinion, G.A.R.H. is
suffering from major depression, which is totally due to

89a
Appendix E
the loss of functioning and atrophy of his left arm. The
limitations that the loss of his arm cause “have taken
him to ostracism, impotence and frustration.” The child,
according to the doctor, will always see himself as “the
one-armed person.” After pointing out all the professions
and trades, in her opinion, that G.A.R.H. will not be able
to engage in, she concludes that he will be a child severely
marked for life by his physical, affective, sociological and
psychological limitations.
After examining the evidence by testimony, documents
and the expert testimony that was produced, the lower
court entered judgment in which it awarded the damages
sustained by G.A.R.H. and his family. The lower court
indicated that it was awarding G.A.R.H. the sum of
$1,569,500.00 “for damages from the suffering and mental
anguish, past and future surgical interventions.” To
reach said figure, the lower court attached as part of its
judgment the report by Dr. Rodriguez, which indicated
that the cost of the recommended prosthesis and its
maintenance for 53 years of life would be $969,500.00,
which the lower court considered to be like future surgical
intervention. Therefore, we can infer that the lower court
granted $600,000 to G.A.R.H. for pain and suffering due
to the loss of his arm, which includes physical suffering
and mental anguish.
As far as his family, the lower court granted damages
of $350,000.00 to Ms. Herrera Bolivar due to her suffering
and mental anguish and $200,000.00 to Mr. Rivera Llopiz
for the same item. The lower court also imposed $5,000.00
in attorney fees by finding that the defendants “acted in

90a
Appendix E
a patently reckless manner, moreover when the finding of
liability due to negligence was already final.” In all, the
Trial Court ordered Dr. Ramirez Torres, his wife and the
conjugal partnership to pay $2,119,500.00 of which SIMED
would have to disburse the limit of the policy, the amount
of $200,000.00.
In disagreement, the defendants turned to the
intermediate court. In said court, they challenged the
finding of negligence against Dr. Ramirez Torres and the
causal relationship to the damages sustained by the young
G.A.R.H. They also argued that the amounts awarded by
the trial court were exaggeratedly high. It was specifically
argued that the amount of $969,500.00 for the cost of the
prosthesis for G.A.R.H.’s arm, which, in addition to being
exaggeratedly high, was highly speculative, because it
depended on G.A.R.H. deciding in the future to have such
an operation performed, of which there was no certainty.
The defendants questioned, finally, the imposing of
attorney fees.
The Court of Appeals modified the judgment being
appealed. It indicated that the amounts granted by the
lower court were exaggeratedly high. In the case of the
damages awarded to G.A.R.H.’s parents, it compared
them with the ones awarded by this Court in Riley v.
Rodriguez Pacheco, 119 D.P.R. 762 (1987) and Merced v.
Gobierno de la Capital, 85 D.P.R. 552 (1962). In Riley v.
Rodriguez Pacheco $100,000.00 was awarded for suffering
and mental anguish to the mother of a daughter who had
suffered cerebral anoxia during labor. Furthermore, in
Merced v. Gobierno de la Capital, $3,000.00 were awarded

91a
Appendix E
for suffering and mental anguish to each of the parents
of a child who lost his left arm after sustaining a fall.
The intermediate court explained that, after adjusting
forward the damages in the cases being cited, the damages
awarded in this case compared with the case of Riley
were not exaggeratedly high, but compared to Merced v.
Gobierno de la Capital they were, and for that reason it
lowered them to $260,000.00 for Ms. Herrera Bolivar and
$150,000.00 for Mr. Rivera Llopiz.
In regard to G.A.R.H.’s damages, the Court of
Appeals decided that the item of $969,500.00 was not
speculative, because two experts confirmed that the
only opportunity of properly attenuating the permanent
damage to the young man’s left arm is to amputate it
and install a prosthesis, once his body had developed
completely. However, the intermediate court decided that
said amount should remain under the custody of the Trial
Court until the time when the recommended operation
is performed. If G.A.R.H. decides not to carry out said
operation, the money set aside, along with any accrued
interest, should be returned.
As far as the item for G.A.R.H.’s pain and suffering,
the Court again cited the case of Merced v. Gobierno de
la Capital, supra, and indicated that in that instance
the Court awarded $24,000.00 in pain and suffering
to the child who had lost his left arm. The Court of
Appeals, without specifying the manner in which it did it,
adjusted said amount forward to 2007 and indicated that
it was equivalent to $264,000.00. It stated that, taking
into consideration the particular circumstances of the

92a
Appendix E
case, it was lowering the indemnity from $600,000.00
to $300,000.00. Furthermore, the intermediate court
affirmed the finding of recklessness and the amount
imposed by the trial court for attorney’s fees. 5
In disagreement, the plaintiffs turn to this Court,
arguing that the Court of Appeals erred by lowering the
amounts awarded by the Trial Court. Throughout its brief,
they only discussed the alleged erroneous action by the
intermediate court in reducing the item for G.A.R.H.’s
pain and suffering from $600,000.00 to $300,000.00, not
the reductions in the parents’ compensation. Therefore,
we will only review G.A.R.H.’s compensation.6
II.
On countless occasions, we have established that
“the judicial duty of estimating and assessing damages
is difficult and anguishing, due to the fact that there is no
computation system that allows for arriving at an exact
result in relation to which all the parties are satisfied and
content.” Vazquez Figueroa v. E.L.A., 172 D.P.R. 150, 154
5. In regard to the finding of recklessness, the Court of
Appeals added that Dr. Ramirez Torres had shown recklessness
even with that court, because he once again questioned the finding
of negligence and causality, which had already been adjudicated
previously against him and constituted “the law of the case” by
having been brought to this Court.
6. Also not questioned is the finding by the Court of Appeals
of setting aside the amount of $969,500.00 until G.A.R.H. reaches
legal age and has the operation performed for the installation of
the prosthesis, if he does decide to have it done.

93a
Appendix E
(2007); Nieves Cruz v. Universidad de Puerto Rico, 151
D.P.R. 150, 169-70 (2000); Blas v. Hospital Guadalupe,
146 D.P.R. 267, 339 (1998);
For that reason, it is a reiterated rule that appeals
courts should not intervene in the estimation of damages
made by the trial courts, except when the amount awarded
becomes ridiculously low or exaggeratedly high. Flores
Berger v. Colberg, res. 20 de mayo de 2008, 2008 T.S.P.R.
90, 173 D.P.R. (2008); Urrutia v. A.A.A., 103 D.P.R.
643, 647-48 (1975). This rule answers to the fact that the
assessment of the damages is subject to a certain degree
of discretion and involves “subjective elements, such as
discretion and a sense of justice and human conscience by
the trier of the facts.” S.L.G. Rodriguez v. Nationwide,
156 D.P.R. 614, 622 (2002). Clearly, trial court judges
are in a better position than appeals courts to make this
assessment, because they have more direct contact with
the evidence produced. Blas v. Hospital Guadalupe,
supra, pg. 339; Rodriguez Cancel v. A.E.E., 116 D.P.R.
443, 451 (1985).
To determine whether the amounts awarded by the
trial court come to be “ridiculously low or exaggeratedly
high,” the reviewing court must examine, in addition to the
evidence produced in the lower court, awards of damages
in prior similar cases. This is so, because “although it is
true that there are no two cases that are exactly alike,
and each case can be distinguished according to its own
circumstances, for the purpose of determining whether
the valuation of the damages in a specific case is adequate
or not, it is certainly useful to examine the amounts

94a
Appendix E
awarded by this Court in prior similar cases.” Agosto
Vazquez v. F.W. Woolworth & Co., 143 D.P.R. 76, 81-82
(1997). See also R. B. Cappalli, Tort Damages in Puerto
Rico, 46 Rev. Jur. U.P.R. 241 (1977).
Said damages in previous cases constitute a starting
point and should, in any event, be adjusted to the current
value of same, because we know that there is an inversely
proportionate relationship between the cost of living and
the purchasing power of the dollar. Rojas v. Maldonado,
68 D.P.R. 818, 830 (1948). The purchasing power of the
dollar is determined by “taking as a basis the cost in
money of essential items for living, such as rent, clothing,
food and fuel during a given period of time, to compare it
with the cost in money of those same necessities during
a prior period of an equal duration.” Id. Therefore, to be
able to conduct a fair and reasonable assessment of the
damages to be awarded, it is necessary to determine
the purchasing power of the dollar at the time when the
judgment is issued, to be able to compare it to said factor
at the time the damages are awarded in the prior case.
See A. J. Amadeo Murga, El Valor de los Daños en la
Responsabilidad Civil [The Value of Damages in Civil
Liability], San Juan, Editorial Esmaco, 1997, Tomo I,
pg. 95.
Attorney Amadeo Murga, however, warns that the
purchasing power of the dollar is not always the only factor
to be considered to adjust an amount awarded in the prior
case to a current one, especially when a lot of time has
elapsed from one case to the other. Id. pg. 96. In those
instances, it is essential furthermore to make another

95a
Appendix E
adjustment due to the economic growth that could have
occurred from one time to the other. That is, is it necessary
to adapt the prior compensation to a new economy that has
a greater level or standard of living and that – basically as
a result of the technological development – enjoys greater
goods and services. Id. If you ignore that component, you
would be awarding an amount that answers to an economy
in which there were no goods and services that have
become necessary in current daily life, and for that reason
the damages would be likewise insufficient. Id., pg. 97. In
such cases, to compare the personal per capita income for
the time of the prior award with the current personal per
capita income provides a good indicator of the economic
growth or the increase in goods and services of society,
so that the prior damages can be properly adjusted to the
current economy. Id.
Having made said calculations, the resulting
amount should be analyzed in the light of the particular
circumstances of the case considered by the Court. See,
Escobar Galarza v. Banuchi Pons, 114 D.P.R. 138, 148
(1983) (Judgment) (Concurring Opinion by Associate
Justice Rebollo Lopez). As reviewing courts, we should
intervene in the damages awarded only when, taking into
account damages awarded in prior similar cases adjusted
forward to the time of the judgment, and in the light of the
particular circumstances of the case being considered by
the Court, the amount awarded manifestly deviates from
what would be reasonable damages by being “ridiculously
low or exaggeratedly high.”

96a
Appendix E
Having established these principles, we go on to
analyze the actions by the Court of Appeals in reducing
the amount awarded to young G.A.R.H. for his pain and
suffering.
III.
In the judgment being appealed, the Court of
Appeals, after referring extensively to the report by the
psychiatrist Dr. Fernandez, concluded that G.A.R.H.’s
pain and suffering damages were adequately proved at
the evidentiary hearing that was held. Nevertheless, said
court estimated that the sum awarded by the trial court
was “exaggeratedly high.” To reach such a conclusion, as
we related above, the intermediate court cited the case
of Merced v. Gobierno de la Capital, supra, in which we
awarded $24,000.00 in damages to a child who lost his left
arm. The intermediate court indicated that “this amount
adjusted forward to 2007 is equivalent to approximately
$264,000.” However, as we indicated, the intermediate
court did not explain in what way it made the forward
adjustment of the compensation to arrive at such a figure.
As we stated before, to adjust a past compensation
forward we must take into consideration the purchasing
power of the dollar at the time it was awarded compared
with the one in effect at the time the corresponding
judgment was entered. To determine the purchasing
power of the dollar the Consumer Price Index (“CPI”)
is used, which is published on a monthly basis by the
Statistics Division of the Department of Labor and
Human Resources, and that is defined as a “statistical

97a
Appendix E
indicator that measures, between two specific periods, the
average relative change occurring in retail merchandise
and services prices that are consumed by all the families
in Puerto Rico.” See, D.T.R.H. Consumer Prices in
Puerto Rico for January of 2007, available at http://www.
netempleopr.org/almis23/ver publicaciones.jsp?div=2,
last visited on July 7, 2010. The inverse of said index is
the purchasing power of the dollar, which is defined by
Department of Labor as the “ability that the dollar has
to buy goods and services, if it is compared to the value
of 100 cents in the base period.” Id. To determine the
purchasing power of the dollar for 2007, 1984 was used
as the base value.
To adjust forward an amount awarded prior to 1984,
it is necessary to multiply said compensation by the
purchasing power of the dollar of the corresponding year
to take it to 1984. Then, to compensate for the loss of value
of the currency, said amount is divided by the purchasing
power of the dollar for the desired year subsequent to
1984. Amadeo Murga, op. cit., pg. 101. The tables included
in the work by Amadeo Murga contain a summary of the
purchasing power of the dollar for Puerto Rico and the
United States from 1914 up to 2000. Id. Pgs. 106-10 &
Supl. 2007.7
7. For years subsequent to 2000, the statistics published by
the Department of Labor can be used directly, available at http://
www.net-empleopr.org/almis23/cpi busqueda tmpl.jsp, last visit
on July 7, 2010. To obtain the CPI in the United States, you can
access the portal of the Employment Statistics Bureau of the
United States Department of Labor, at http:/www.bls.gov/cpi,
last visit on July 7, 2010.

98a
Appendix E
For example, to adjust the damages of $24,000
awarded in Merced v. Gobierno de la Capital, supra, in
1962, it is necessary to take said figure to 1984 and then
to 2007, the date of the amended judgment. To make said
calculation, it is necessary to multiply the amount from
1962 ($24,000.00) by the factor included for that year in the
table for Puerto Rico (2.82) which is equivalent to $67,680.
Then, to update the $67,680.00 from 1984 to 2007 it is
necessary to divide that figure by the purchasing power
of the dollar in April of 2007, which is 28 cents.8 Therefore,
$67,680.00 divided by $0.28 is equivalent to $241,714.29.
However, said compensation was awarded almost fifty
years ago, and for that reason it is necessary to make
an additional adjustment for the growth of the economy
between 1962 and 2007. For the purposes of this exercise,
we will use the tables contained in the supplement of the
work by attorney Amadeo Murga, which reflect a change
in the personal per capita income in the United States
between 1960 and 1998.9 According to said tables, the
8. See the Report by the Department of Labor and Human
Resources for April of 2007, available at http://www.net-empleopr.
org/almis23/publicaciones/Costo%20de%20Vida/Indice%20
de%Precios20al%20Consumidor%20%202004-2007.pdf, last visit
July 7, 2010.
9. The statistics of the increase in the standard of living in the
United States are used, because as we know the economy of Puerto
Rico is generally a reflection of the economy of the United States. If
statistics from Puerto Rico are used, the increase would probably
be greater, because Puerto Rico started with a lower standard
of living. See A.J. Amadeo Murga, El Valor de los Daños en la
Responsabilidad Civil, San Juan, Editorial Esmaco, 1997, Tomo
I, pg. 102, footnote 24. The tables for these values are obtained

99a
Appendix E
economy grew by a factor of approximately 2.28 between
those two periods. See Amadeo Murga, op. cit., Supl. 2000,
pgs. 6-8. By multiplying the amount awarded in Merced v.
Gobierno de la Capital, supra, adjusted forward to April
of 2007 -- $241,714.29 – by the economic growth during
that period (2.28), it equals $551,108.58. Said amount is
equivalent to the $24,000 of 1962, adjusted forward both
by the purchasing power of the dollar and by the growth
of the economy, the latter one only until 1998. 10
Said figure is likewise consistent with another case
decided by this Court in which a child lost ninety percent
(90%) of the capacity of his left arm. In Ruiz Santiago
v. E.L.A., 116 D.P.R. 307 (1985), we modified a judgment
from the Trial Court that had awarded $145,000.00 for
pain and suffering sustained by a four-and-a-half-yearold child caused by negligence in the medical care and
treatment subsequent to an operation performed in one of
the Commonwealth’s hospitals. We reduced the pain and
through the U.S. Bureau of Economic Analysis, now available at
http://www.bea.gov, last visit July 7, 2010.
10. Another manner of performing said calculation is to take
the difference in the growth between one period and the other,
multiply it by the amount adjusted forward by inflation to obtain
the adjustment for the increase in life and then add said result
to the amount adjusted forward. In the example that we have,
the difference between one period and the other is 128%. That
figure is divided by one hundred to put it into a decimal number,
which is equivalent to 1.28 and said result is multiplied by the
amount adjusted forward -- $241,714.29 – which is equivalent to
$309,394.29. Said figure, which constitutes the adjustment for the
increase in the living standard, is added to the amount adjusted
forward for inflation -- $241,714.29 – and we reach the same result
of $551,108.58.

100a
Appendix E
suffering by $10,000.00 because we believed that there
was a certain duplication in the items awarded by the trial
court.11 Thus, the compensation for pain and suffering
amounted to $135,000.00
In 1985, the dollar still had the same value of one
hundred cents, equal to 1984. In order to adjust forward
the $135,000.00 from 1985 to 2007, we divided that amount
by $0.28, which is equivalent to $482,142.85, an amount
well above the $300,000.00 awarded by the intermediate
court in this case. Due to the fact that more than twenty
years have elapsed between one compensation and the
other, it is likewise necessary to adjust for economic
growth. By multiplying by the growth factor between 1985
and 1998 (1.19), that is equivalent to $573,750.00.
Therefore, in examining the amounts awarded in
the cases of Merced v. Gobierno de la Capital and Ruiz
Santiago v. E.L.A., correctly adjusted forward to April
2007, $551,108.57 and $573,750.00, respectively, we see
11. In that case, the trial court had awarded for “the minor’s
past and present physical damages, $25,000.00; the physical
damages and physical limitation that Alex will suffer for the rest
of his life, $30,000.00; Alex’s present and future anguish and
mental suffering, including the depression disorder he is suffering
from and that limit his psychological capacity, $40,000.00; the
total physical disability in his left hand and left arm (90%), which
combined amounts to 54% disability of his general physiological
functions, $50,000.00; the loss of future income $65,000.00.” See,
Ruiz Santiago v. E.L.A., 116 D.P.R. 307, 322 (1985). We considered
that there was a certain duplication between the item for “future
physical limitation” and the total physical disability of his left hand
and ninety percent of his left arm, and for that reason we reduced
it by $10,000.00 id. on pg. 323.

101a
Appendix E
that they are close to the $600,000.00 awarded by the trial
court in this case.12 At first glance, and without examining
the particular facts of this case, the amount awarded by
the lower court seems to be reasonable. Although it is
true that there are no mathematical or scientific formulas
that indicate to us how to appraise the pain and suffering,
or “a table or electronic computer that takes in all the
elements and unarticulated premises that give support
to the assessment of human physical and mental pain,”
we consider that damages that match the ones that we
awarded previously in similar cases show prima facie
reasonability and will not be altered, except when the
particular circumstances of the case under the Court’s
consideration so require.13 See, Urrutia v. A.A.A., supra.
See, also, J.J. Alvarez Gonzalez, Responsabilidad Civil
Extracontractual [Tort Civil Liability], 78 Rev. Jur.
U.P.R. 457, 459-65 (2009).
In examining the particular circumstances of this
case, we are of the opinion that the amount awarded by
the Trial Court is justified in the light of the damages
sustained by G.A.R.H. In the trial court abundant evidence
was produced that validates the magnitude of the damages
sustained by the child, as a result of the negligent actions
of defendant Dr. Ramirez Torres. Dr. Cardona Cancio and
Ms. Herrera Bolivar testified about the numerous physical
12. The figures adjusted forward are close to the amount
awarded by the lower court, even taking into consideration that
the adjustment for economic growth was made only up to 1998
and not up to 2007.
13. This does not exclude the fact that the plaintiff or
defendant may show that the amounts awarded in prior similar
cases are, as such, unreasonable.

102a
Appendix E
damages and suffering that G.A.R.H. has sustained since
his birth, the many surgical interventions that he has been
submitted to, as well as the multiple limitations in his life
that not having his left arm has meant. In addition, the
deformity of his arm is patently visible, according to the
findings of the trial court, which results in constant looks
and comments about his condition.
In the aspect of suffering and mental anguish, the
lower court pointed out in its findings of fact that “at first
impression a deep and sad look on his (G.A.R.H.’s) face
stands out and during a tense moment that came about
in the Courtroom when he cried, inconsolably, we had a
close encounter with the desolation he is living with due to
his unfortunate physical defect. … [S]tated another way,
he exudes unhappiness.” … That finding of fact by the
trial court goes hand in hand with the expert report by
Dr. Fernandez that concludes that G.A.R.H. suffers from
major depression as a result of finding himself disabled
by not having his left arm and seeing himself as “the onearmed person.”
Taking into consideration the particular circumstances
of this case, and after examining the amounts awarded
in prior similar cases, it is imperative to conclude
that the compensation of $600,000.00 for pain and
suffering damages awarded by the Trial Court was
not “exaggeratedly high” as was concluded by the
intermediate court. To the contrary, it is reasonable to
alleviate in some way the suffering and anguish that the
child has sustained and will continue to suffer in the future
due to the negligence by Dr. Ramirez Torres. For that

103a
Appendix E
reason, it is proper to modify the judgment of the Court
of Appeals, for the purpose of reinstating the damages
of $600,000.00 for G.A.R.H.’s pain and suffering, and, as
modified, it is affirmed.
Judgment will be entered accordingly.
Anabelle Rodriguez Rodriguez
Associate Justice
JUDGMENT
San Juan, Puerto Rico, August 25, 2010.
On the grounds stated in the preceding Opinion, which
are integrally incorporated herein, this Court enters
judgment modifying the judgment of the Appeals Court,
for the purpose of reinstating the damages of $600,000.00
awarded by the lower court for G.A.R.H.’s pain and
suffering, and thus modified, it is affirmed.
So pronounced, the Court orders and the Supreme
Court Clerk certifies. Associate Justice Mr. Martinez
Torres and Associate Justice Madame Pabon Charneco
concur with the result without a written opinion.
Aida Ileana Oquendo Graulau
Clerk of the Supreme Court

